<html>
<title> - COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
    COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME II

=======================================================================

                             JOINT HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                                and the

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            DECEMBER 7, 2011

                               ----------                              

                           Serial No. 112-63

                               ----------                              

   Printed for the use of the Committee on Homeland Security and the 
     Senate Committee on Homeland Security and Governmental Affairs

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/


     COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME II


2012



     COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME II

=======================================================================

                             JOINT HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                                and the

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                               __________

                           Serial No. 112-63

                               __________

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2011

                               __________

Printed for the use of the House Committee on Homeland Security and the 
     Senate Committee on Homeland Security and Governmental Affairs
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
74-648                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  



                  HOUSE COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

                 SENATE COMMITTEE ON HOMELAND SECURITY 
                        AND GOVERNMENTAL AFFAIRS

               Joseph I. Lieberman, Connecticut, Chairman
Carl Levin, Michigan                 Susan M. Collins, Maine
Daniel K. Akaka, Hawaii              Tom Coburn, Oklahoma
Thomas R. Carper, Delaware           Scott P. Brown, Massachusetts
Mark L. Pryor, Arkansas              John McCain, Arizona
Mary L. Landrieu, Louisiana          Ron Johnson, Wisconsin
Claire McCaskill, Missouri           Rob Portman, Ohio
Jon Tester, Montana                  Rand Paul, Kentucky
Mark Begich, Alaska                  Jerry Moran, Kansas
                  Michael L. Alexander, Staff Director
               Nicolas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security, House of Representatives:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Joseph I. Lieberman, a U.S. Senator From the State 
  of Connecticut, and Chairman, Committee on Homeland Security 
  and Governmental Affairs, U.S. Senate:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security, House of Representatives:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
The Honorable Susan M. Collins, a U.S. Senator From the State of 
  Maine, and Ranking Member, Committee on Homeland Security and 
  Governmental Affairs, U.S. Senate:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                               WITNESSES
                                Panel I

Mr. Paul N. Stockton, Assistant Secretary of Defense for Homeland 
  Defense and Americas' Security Affairs, Office of Under 
  Secretary of Defense for Policy, Department of Defense; 
  Accompanied by Jim Stuteville, United States Army, Senior 
  Advisor, Counterintelligence Operations, and Liaison to the 
  Federal Bureau of Investigation:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Lieutenant Colonel Reid L. Sawyer, Director, Combating Terrorism 
  Center at West Point:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

                                Panel II

Mr. Daris Long, Private Citizen, Father of William Andrew Long:
  Oral Statement.................................................    74
  Prepared Statement.............................................    76

                             FOR THE RECORD

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California--Statements Submitted From Current and 
  Former U.S. Military:
  Letter From Abdul-Rasheed Muhammad, Military Chaplain..........    38
  Statement of Michael L. ``Mikey'' Weinstein, Founder and 
    President, Military Religious Freedom Foundation.............    39
  Statement of Colonel Lawrence B. Wilkerson, U.S. Army (Ret.), 
    Distinguished Visiting Professor of Government and Public 
    Policy, The College of William and Mary......................    44
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California--Statements Submitted From 
  Organizations:
  Statement of Laura W. Murphy, Director, Washington Legislative 
    Office and Devon Chaffee, Legislative Counsel, American Civil 
    Liberties Union (ACLU).......................................    45
  Statement of Rev. Dr. C. Welton Gaddy, Interfaith Alliance.....    52
  Statement of The Islamic Society of North America..............    53
  Statement of S. Floyd Mori, National Executive Director, 
    Japanese American Citizens League (JACL).....................    54
  Statement of Shoulder-To-Shoulder: Standing with American 
    Muslims; Upholding American Values...........................    55
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Letter From Former Military Chaplains..........................    84


                          HOMEGROWN TERRORISM:
      THE THREAT TO MILITARY COMMUNITIES INSIDE THE UNITED STATES

                              ----------                              


                      Wednesday, December 7, 2011

       U.S. House of Representatives,      
    Committee on Homeland Security, and    
                                       U.S. Senate,
                             Committee on Homeland Security
                                  and Governmental Affairs,
                                                    Washington, DC.
    The committees met, pursuant to call, at 9:40 a.m., in Room 
HVC-210, The Capitol, Hon. Peter T. King [Chairman of the House 
Committee on Homeland Security] presiding.
    Present from the House Committee on Homeland Security: 
Representatives King, Lungren, Rogers, Broun, Miller, Walberg, 
Cravaack, Duncan, Turner, Thompson, Sanchez, Jackson Lee, 
Cuellar, Richardson, Clarke of Michigan, Keating, Hochul, and 
Hahn.
    Present from the Senate Committee on Homeland Security and 
Governmental Affairs: Senators Lieberman, Carper, Pryor, and 
Collins.
    Chairman King. Good morning. The joint hearing of the House 
Committee on Homeland Security and the Senate Committee on 
Homeland Security and Governmental Affairs will come to order. 
The committees are meeting today to hear testimony on the 
threat posed by homegrown terrorists to our Nation's military 
communities. Pursuant to the agreement reached by the 
committees, today's hearing will be governed by the Rules of 
the House of Representatives and the House Committee on 
Homeland Security unless any Senator raises an objection when 
any specific issue arises.
    The Chairman wishes to remind our guests today that 
demonstrations from the audience, including the use of signs, 
placards, and T-shirts, as well as verbal outbursts, are a 
violation of the Rules of the House of Representatives. The 
Chairman wishes to thank our guests for their cooperation in 
maintaining order and proper decorum.
    I recognize myself for an opening statement. Today the 
House Committee on Homeland Security and the Senate Homeland 
Security and Governmental Affairs Committee are holding a joint 
investigative hearing on the homeland terrorist threat within 
the military itself and to military communities inside the 
United States. Let me start by thanking Chairman Lieberman and 
Ranking Member Collins for their leadership in the Senate in 
addressing the threats posed by Islamist radicalization, which 
they began examining 5 years ago. I appreciate Chairman 
Lieberman and Ranking Member Collins working with our House 
committee on today's hearing, which is the first-ever joint 
House-Senate Homeland Security hearing.
    I also want to thank our distinguished witnesses for 
appearing today to discuss this growing security issue, 
including Assistant Secretary of Defense Paul Stockton and 
Chief Daris Long, a retired Marine Corps veteran, and the 
father of Army Private William Long, who was killed in a 
terrorist attack on his recruiting station in Little Rock. I 
would also acknowledge that with Mr. Long today is Melvin 
Bledsoe, the father of the young man who murdered Private Long.
    This is the fourth hearing in a series the House committee 
has held this year on the serious threat of violent Islamist 
radicalization within the United States. Our committee has 
previously investigated radicalization within the Muslim-
American community generally, radicalization in U.S. prisons, 
and probed the recruiting and radicalization carried out inside 
the United States by the al-Qaeda-affiliated al-Shabaab group 
in Somalia.
    This joint investigative hearing will seriously examine the 
emerging and growing danger to our men and women serving in 
uniform. I believe it is particularly appropriate that we do 
this on Pearl Harbor Day, when so many troops were killed in a 
surprise attack 70 years ago.
    We had an obligation to react in response to alarming new 
developments concerning a growing security threat from 
radicalization both within the military as well as against 
military personnel and their families residing in the United 
States. Our troops volunteer to go into harm's way overseas to 
protect all of us. They should not be in harm's way here at 
home, and yet they are.
    There is a dominant threat from Active-Duty military within 
the Armed Forces. This threat is persistent and enduring. More 
than 5 Islamist terror plots have been disrupted involving U.S. 
military insiders in the past decade, and 11 cases involve 
veterans or those who attempted to join law enforcement and 
intelligence agencies.
    The total number of radicalized troops is more than 
publicly realized or acknowledged. Since the 9/11 attacks, at 
least 33 public cases have been prosecuted or probed in which 
homegrown terrorists living and operating in the United States, 
and sometimes inside the military itself, posed a grave threat, 
plotted to carry out attacks, or perpetrated violence aimed at 
America's Armed Forces in the homeland or deployed to overseas 
war zones. Twenty-three of these military-targeted plots, or 70 
percent of the total, have unfolded since mid-2009 as part of 
the broader surge of homegrown Islamist terrorism. At least 16 
external terror plots by jihadis inside the United States, who 
were aiming for military personnel stationed in the homeland, 
have been disrupted or investigated. At lease nine other 
external plots were thwarted involving U.S. persons in the 
homeland who traveled or planned trips overseas to kill GIs in 
Afghanistan, Iraq, and elsewhere.
    A growing number of terrorist threats are directed at 
families of military personnel. Particularly of concern is the 
safety of relatives whose loved ones are in units deployed on 
secret counterterror operations.
    I would also note that within the last 2 weeks in New York 
City, we saw a man, Jose Pimentel, arrested, and among his 
goals was to attack returning veterans from Afghanistan.
    As recent history illustrates, the only successful attacks 
on the homeland resulting in deaths since September 11 have 
been against the military: At Fort Hood, where 13 were murdered 
in an active-shooter attack by Army Major Nidal Hasan; and at a 
Little Rock recruiting center, where Army Private William Long, 
the son of Chief Long, was fatally shot point blank by a 
radicalized homegrown Islamist, Carlos Bledsoe, whose father is 
also with us today and testified at our first hearing back in 
March.
    In summary, today's hearing will address the two-fold 
threat from within the military and against the military. The 
Fort Hood attack was not an anomaly. It was part of al-Qaeda's 
two-decade success at infiltrating the U.S. military for 
terrorism, an effort that is increasing in scope and threat. 
Military communities in the United States have recently become 
the most sought-after targets of violent Islamist extremists 
seeking to kill Americans in the homeland. We cannot stand idly 
by while our heroes in uniform are struck down in the place 
they should feel the safest.
    The homegrown terrorist threats to military communities 
inside the United States is of critical significance, and one 
which we simply cannot afford to neglect. That is why these 
hearings on radicalization are so vital, and why we cannot back 
down to political correctness. I look forward to hearing from 
our witnesses on these matters.
    It is now my privilege to recognize a very good friend, 
but, more importantly, the Chairman of the Senate Homeland 
Security Committee, the gentleman from Connecticut, Senator 
Lieberman, for any statement he may have.
    [The statement of Chairman King follows:]

  Statement of Honorable Peter T. King, Chairman, House Committee on 
                           Homeland Security
                            December 7, 2011

    Today, the House Committee on Homeland Security and the Senate 
Homeland Security and Governmental Affairs Committee are holding a 
joint investigative hearing on the homegrown terrorist threat within 
the military itself and to military communities inside the United 
States. Let me start by thanking Chairman Lieberman, Ranking Member 
Collins, and their committee for their leadership in the Senate on 
addressing the threats posed by Islamist radicalization, which they 
began examining 5 years ago. I appreciate Chairman Lieberman and 
Ranking Member Collins working with our House committee on today's 
hearing, which is the first joint House-Senate homeland security 
hearing held since the establishment of our House committee in 2005.
    I also want to thank our distinguished witnesses for appearing 
today to discuss this growing security issue including Assistant 
Secretary of Defense Paul Stockton, and Chief Daris Long, a retired 
Marine Corps veteran and the father of Army Private William Long, who 
was killed in a terrorist attack on his recruiting station in Little 
Rock.
    This is the fourth hearing in a series the House committee has held 
this year on the serious threat of violent Islamist radicalization 
within the United States. Our committee has investigated the problem of 
radicalization within the Muslim-American community generally, sounded 
the alarm over radicalization in U.S. prisons, and probed the 
recruiting and radicalization carried out inside the United States by 
the al-Qaeda-affiliated al-Shabaab group in Somalia.
    This joint investigative hearing will seriously examine the 
emerging and growing danger to our men and women serving in uniform, as 
reflected by the facts that are known to us.
    We had an obligation to act in response to alarming new 
developments concerning a growing security threat from radicalization 
both internally within the military, as well as externally toward 
military personnel and their families residing in the United States. 
Our troops volunteer to go into harm's way overseas to protect all of 
us--they should not be in harm's way here at home, and yet they are.
    The dominant threat is from active duty military within the armed 
forces. This threat is persistent and enduring.
    More than five Islamist terror plots have been disrupted involving 
U.S. military insiders in the past decade and 11 cases involved 
veterans or those who attempted to join law enforcement and 
intelligence agencies. The total number of radicalized troops is more 
than publicly realized or acknowledged.
    Since the 9/11 attacks, at least 33 public cases have been 
prosecuted or probed in which homegrown terrorists living and operating 
in the United States--and sometimes inside the military itself--posed a 
grave threat, plotted to carry out attacks, or perpetrated violence 
aimed at America's Armed Forces in the homeland or deployed to overseas 
war zones. Twenty-three of these military-targeted plots, or 70% of the 
total, have unfolded since mid-2009 as part of the broader surge of 
homegrown Islamist terrorism:
  <bullet> Two successful attacks against the military were perpetrated 
        by radicalized soldiers assigned to U.S.-based Army units at 
        Camp Pennsylvania in Kuwait in 2003 and at Fort Hood, Texas, in 
        2009;
  <bullet> At least 16 external terror plots by jihadis inside the 
        United States who were aiming for military personnel stationed 
        in the homeland have been disrupted or investigated;
  <bullet> At least nine other external plots were thwarted involving 
        U.S. persons in the homeland who traveled or planned trips 
        overseas to kill G.I.s in Afghanistan, Iraq, and elsewhere;
  <bullet> A growing number of terrorist threats are directed at 
        families of military personnel. Particularly of concern is the 
        safety of relatives whose loved ones are in units deployed on 
        secret counterterror operations.
    As recent history illustrates, the only successful attacks on the 
homeland resulting in deaths since September 11 have been against the 
military--at Fort Hood, where 13 were murdered in an active-shooter 
attack allegedly by Army Major Nidal Hasan, and at a Little Rock 
recruiting center, where Army Private William Long was fatally shot 
point-blank by radicalized homegrown Islamist Carlos Bledsoe.
    In summary, today's hearing will address the two-fold threat from 
within the military and against the military.
    The Fort Hood attack was not an anomaly. It was part of al-Qaeda's 
two-decade success at infiltrating the U.S. military for terrorism--an 
effort that is increasing in scope and threat.
    Military communities in the United States have recently become the 
most sought-after targets of violent Islamist extremists seeking to 
kill Americans in their homeland. We cannot stand idly by while our 
heroes in uniform are struck down in the place they feel safest. The 
homegrown terrorist threat to military communities inside the United 
States is of critical significance and one which we simply cannot 
afford to neglect.
    I look forward to hearing from our witnesses on these matters.

    Senator Lieberman. Thanks very much, Chairman King. Good 
morning, and welcome to everyone to this really historic joint 
hearing of the House and Senate Homeland Security Committees. 
My thanks to my friend Chairman Peter King for proposing this 
hearing, and to Ranking Members Susan Collins and Ben Thompson 
for supporting this idea.
    There is no subject that should unite us more across both 
ends of the U.S. Capitol and across partisan and ideological 
lines than the threat that Islamist extremists pose to our 
homeland and to our people. This joint hearing, I think, is a 
demonstration of exactly that kind of unity, and I hope it is 
not the last occasion on which our two committees come together 
for this purpose.
    Today we focus on the threat of violent Islamist extremism 
to members of the U.S. military at home. The men and women who 
have sworn to defend our country, our security, our freedom 
expect, should realize, a respite from wartime conditions when 
they are home. But the record shows that the United States 
military has become a direct target of violent Islamist 
extremism here in the United States, and that means that 
America's troops, and perhaps their families, are potentially 
vulnerable at work and at rest, in a military setting or a 
civilian one, on a base or off a base, at a recruiting station, 
or even at a military hospital.
    I want to now go to two facts which in part Chairman King 
mentioned, but I think are probably surprising to most 
Americans, and the first one is this: The only Americans who 
have lost their lives in our homeland to terrorists since 9/11 
and the follow-on anthrax attacks have been killed at U.S. 
military facilities. Private William Long, who was killed by 
Abdulhakim Muhammad at a Little Rock recruiting station on June 
4, 2009, and whose father we will be honored to hear testify 
today, was the first killed only because he was wearing the 
uniform of the United States Army. Thirteen more Americans were 
murdered on November 5, 2009, during the Fort Hood attack by 
Nidal Hasan. In addition, two soldiers were killed at Camp 
Pennsylvania in Kuwait in 2003 by a fellow American service-
member, Hasan Akbar.
    Here is the second fact, and this one perhaps will surprise 
people, too: Since 2001, law enforcement has thwarted and 
prosecuted more than 30 plots or attacks against military 
targets within the United States. According to the 
Congressional Research Service, that represents more than half 
of the 54 homegrown jihadist plots and attacks that have 
occurred between 9/11/01 and today.
    The stark reality, therefore, is that American service 
members and their families are increasingly in the terrorists' 
scope, and not just overseas in traditional war settings, so 
that the premise of this hearing, this joint hearing, is not 
theoretical, it is based on fact.
    Today we want to ask our Defense Department witnesses what 
our country is doing to protect our military personnel and 
facilities here at home, and, in a broader sense, what the 
future of military homeland security should look like. Our 
Government's counterterrorism capabilities are critical to 
uncovering plots against military installations and personnel 
so that they can be prevented, and that means that the FBI, 
which has primary domestic counterterrorism responsibility, and 
the Defense Department have to open their lines of 
communication to each other and work more closely together than 
in the normal course of events they ever would or ever have 
before. Law enforcement agencies and communities across the 
country, and other Government agencies also should continue to 
reach out to Muslim Americans so that they can help our 
Government meet this threat to our country from a small, but 
deadly number of people who are radicalizing to violent 
Islamist extremism.
    Finally, I want to say, not for the first time, but I am 
going to keep saying it, that our Government has to recognize 
at some point who the enemy is and call it by its exact name. 
The enemy is not a vague catch-all of violent extremism, but a 
specific violent Islamist extremism, an exploitation and 
corruption, I would say, of the religion of Islam. But it is 
adherents to that violent Islamist extremism who attacked us on 
9/11/01 and have plotted to attack or have attacked those more 
than 30 American military installations here at home since 9/
11/01. I repeat, that is a fact, not a theory or rhetoric.
    One of the unfortunate conclusions that I take away from 
the last decade is that violent Islamist extremism, 
notwithstanding the extraordinary advances that our military 
intelligence and law enforcement personnel have made against 
it, will continue to threaten us for years to come, both around 
the world and here at home, and its targets will continue to be 
both civilians and military personnel, both around the world 
and here at home. We have weakened our enemies, but they are 
not vanquished, and protecting Americans in general, and our 
service members in particular, will require continuing 
preventive, defensive, and, where necessary, offensive action 
by all the assets of the United States Government. That is 
particularly true for American military facilities and the 
patriotic Americans who serve in and from them.
    Thank you, Mr. Chairman.
    [The statement of Senator Lieberman follows:]

Statement of Honorable Joseph I. Lieberman, Chairman, Senate Committee 
                          of Homeland Security
                            December 7, 2011

    Good morning. I too want to welcome everyone to this historic, 
first-ever joint hearing between the House and Senate Homeland Security 
Committees. My thanks to my friend Chairman Peter King for proposing 
this hearing and to Ranking Members Susan Collins and Bennie Thompson 
for supporting this idea. There is no subject that should unite us more 
across both ends of the U.S. Capitol and across partisan or ideological 
lines than the threat that Islamist extremists pose to our homeland and 
to our people. This joint hearing is a demonstration of exactly that 
kind of unity and I hope it's not the last occasion on which our two 
committees come together for this purpose.
    Today we focus on the threat of violent Islamist extremism to 
members of the military at home. The men and women who have sworn to 
defend our country, our security, our freedom expect a respite from 
wartime conditions when they are home. But the record shows that that 
the United States military has become a direct target of violent 
Islamist extremism here in the United States, and that means America's 
troops and perhaps their families are potentially vulnerable at work 
and at rest, in a military setting or a civilian one, on a base or off 
a base, at a recruiting station or even at a military hospital.
    I want to go to two facts that are probably most surprising to most 
Americans. The first one is this: The only Americans who have lost 
their lives in our homeland to terrorists since 9/11 and the follow-on 
anthrax attacks have been killed at U.S. military facilities.
    Private William Long--who was killed at a Little Rock recruiting 
station in June 2009, and whose father we will be honored to hear 
testify today--was the first. He was killed only because he was wearing 
the uniform of the United States military. Thirteen more Americans were 
murdered on November 5, 2009 during the Fort Hood attack. In addition, 
two soldiers were killed at Camp Pennsylvania in Kuwait in 2003 by a 
fellow American service member.
    Here's the second fact, which will perhaps surprise people to learn 
that, since 2001, law enforcement has thwarted and prosecuted more than 
30 plots or attacks against military targets within the United States. 
According to the Congressional Research Service (CRS), that represents 
more than half of the 54 homegrown jihadist plots and attacks that have 
occurred between 9/11 and today.
    The stark reality, therefore, is that American service members and 
their families are increasingly in the terrorists' scope and not just 
overseas in traditional war setting. The premise of this joint hearing 
is not theoretical, it is based in fact. I look forward to asking our 
Defense Department witnesses what our country is doing to protect our 
military facilities here at home and in a broader sense what the future 
of military homeland security should look like.
    Our Government's counterterrorism capabilities are critical to 
uncovering plots against military installations and personnel so that 
they can be prevented. And this means the FBI--which has primary 
responsibility for domestic extremism and terrorism--and the Defense 
Department have to open their lines of communication with each other 
and work more closely together than they ever would have before.
    Law enforcement agencies in communities across the country have 
been and must also continue to reach out to Muslim-American communities 
so they can help our Government meet this threat that comes from a 
small but deadly number of individuals who are radicalizing or to 
violent Islamist extremism.
    Finally, I want to say our Government has to recognize who the 
enemy is and call it by its exact name. The enemy is not a vague catch-
all of violent extremism, but a specific violent Islamist extremism, an 
exploitation and corruption of the religion of Islam. It is adherents 
to that extremism who attacked us on 9/11/01 and who have tried to 
attack, or have attacked, those 30 American military installations here 
at home since 9/11/01. I repeat--that's a fact, not a theory or 
rhetoric.
    One of the unfortunate conclusions of the past decade is that 
violent Islamist extremism--notwithstanding the extraordinary progress 
our military, counterintelligence, and law enforcement have made 
against it--will undoubtedly threaten us for years to come both at 
around the world and here at home, and its targets will be both 
civilians and military personnel, both around the world and here at 
home. We have weakened our enemies but they are not vanquished. 
Protecting Americans, in general, and our service members in 
particular, will require continuing preventive, offensive, and 
defensive action. That is particularly true for American military 
facilities and the patriotic Americans who serve from and in them.

    Chairman King. Thank you, Chairman Lieberman.
    I now recognize my good friend, the Ranking Minority Member 
of the House Committee on Homeland Security, the gentleman from 
Mississippi, and the former Chairman, Mr. Thompson, for any 
statement he may have.
    Representative Thompson. Thank you very much, Chairman 
King, for holding this hearing. I also want to welcome our 
colleagues from the Senate who have joined us here today.
    This hearing will examine the steps the military has taken 
to ensure the safety of its bases, installations, and 
recruiting stations. In the last 2 years, two attacks on 
American military installations within the United States have 
been successful. One attack occurred at Fort Hood, Texas, where 
13 people were killed. In the Fort Hood incident, the defendant 
is still awaiting a military court martial.
    A second attack occurred in a recruiting station in Little 
Rock, Arkansas. One person was killed, and one person was 
wounded. In the Little Rock case, the defendant pled guilty to 
murder in State court.
    I imagine my colleagues on the other side of the aisle want 
to use these two attacks to paint a picture about the nature of 
violent extremist threat facing this Nation. Once again, the 
picture they draw is not likely to be accurate, nuanced, or 
subtle.
    In the past I have expressed my concerns about the nature 
and directions of these hearings. My concerns are amplified 
today. Focusing on the followers of one religion as the only 
creditable threat to the Nation's security is inaccurate, 
narrow, and blocks consideration of emerging threats. Our 
military is open to all faiths. A Congressional hearing that 
focuses on religion and the military is likely to harm unit 
cohesion and undermine morale within our military. A 
Congressional hearing that identifies one religion as a likely 
threat within the military is not only inaccurate, but unwise. 
As a matter of practicality, I am certain that on the 
battlefield how a soldier prays is probably less important than 
how well he or she shoots.
    But practicalities aside, as we begin this hearing, I think 
it is appropriate to acknowledge and remember that today is the 
anniversary of the bombing of Pearl Harbor. That single event, 
an unprovoked attack on an American military installation in an 
American territory, propelled this country into World War II. 
December 7, 1941, was a day that will live in infamy.
    The veterans of World War II fought to stop the spread of 
totalitarian rule, halt genocide, and restore freedom. They 
risked their lives to defend this Nation. The same can be said 
of today's veterans. The men and women returning from 
Afghanistan and Iraq have placed their lives on the line, and 
each one volunteered to go. So as we think about the 
significance of this day in history and the possible meaning of 
this hearing, we must begin by thinking about what these two 
groups of soldiers fought for. Each of them answered the call 
to arms because they believe in America. Each fought because 
they believe this country is a beacon of hope and freedom in a 
troubled world. They will be willing to shed their blood to 
protect and defend the rights and liberties guaranteed by the 
Constitution.
    So as we think about our debts to the veterans of past 
wars, let us not forget our most basic obligation to those who 
currently serve. We owe them a clear understanding of their 
mission and a clear definition of the enemy. That enemy is not 
a religion. Their mission is not to defeat an ideology. While 
some of my colleagues appear to have difficulty grasping this, 
I am glad the military people understand it.
    In the days after the Fort Hood shooting, then-Defense 
Secretary Gates refused to lay this tragedy at the feet of one 
man or one religion. He appointed a board, and gave them the 
mission of reviewing what happened, why it happened, and what 
could be done to prevent the same thing from happening in the 
future. The review board did not sweep this incident under the 
rug. They did not seek easy explanations and simple answers. 
They identified deficiencies in DOD programs and policies on 
force protection, emergency response procedures, and threat 
identification. Once they identified the problems, they began 
to solve them.
    To date, DOD has completed 43 of the review board's 
recommendations. Fifteen additional recommendations should be 
completed by March 2012. However, the military's ability to 
move forward and complete the remaining recommendations depend 
entirely on us. Since September 11, Congress has approved a 
total of $1.283 trillion for military operations, base 
security, reconstruction, foreign aid, embassy costs, and 
veterans health care associated with the wars in Iraq and 
Afghanistan. Budget cuts may prevent the implementation of the 
rest of these recommendations. Today I hope we can reach a 
bipartisan, bicameral agreement that the military should have 
the funding it needs to prevent another tragedy like Fort Hood. 
If we can, then something good will have come out of this 
hearing.
    With that, Mr. Chairman, I yield back.
    [The information follows:]

   Statement of Honorable Bennie G. Thompson, Ranking Member, House 
                     Committee on Homeland Security
                            December 7, 2011

    I want to thank the Chairman for holding this hearing. I also want 
to welcome our colleagues from the Senate who have joined us today. 
This hearing will examine the steps the military has taken to ensure 
the safety of its bases, installations, and recruiting stations.
    In the last 2 years, two attacks on American military installations 
within the United States have been successful. One attack occurred at 
Fort Hood, Texas, where 13 people were killed. In the Fort Hood 
incident, the defendant is still awaiting a military court-martial.
    A second attack occurred in a recruiting station in Little Rock, 
Arkansas. One person was killed and one person was wounded. In the 
Little Rock case, the defendant pled guilty to murder in State court.
    I imagine my colleagues on the other side of the aisle want to use 
these two attacks to paint a picture about the nature of the violent 
extremist threat facing this Nation. Once again, the picture they draw 
is not likely to be accurate, nuanced, or subtle. In the past, I have 
expressed my concerns about the nature and direction of these hearings.
    My concerns are amplified today. Focusing on the followers of one 
religion as the only credible threat to this Nation's security is 
inaccurate, narrow, and blocks consideration of emerging threats.
    Our military is open to all faiths. A Congressional hearing that 
focuses on religion and the military is likely to harm unit cohesion 
and undermine morale within our military.
    A Congressional hearing that identifies one religion as a likely 
threat within the military is not only inaccurate but unwise. As a 
matter of practicality, I am certain that on the battlefield, how a 
soldier prays is probably less important than how well he or she 
shoots.
    But practicalities aside, as we begin this hearing, I think it is 
appropriate to acknowledge and remember that today is the anniversary 
of the bombing of Pearl Harbor. That single event--an unprovoked attack 
on an American military installation in an American territory--
propelled this country into World War II.
    December 7, 1941, was a day that will live in infamy. The veterans 
of World War II fought to stop the spread of totalitarian rule, halt 
genocide, and restore freedom. They risked their lives to defend this 
Nation. The same can be said of today's veterans. The men and women 
returning from Afghanistan and Iraq have placed their lives on the 
line. And each one volunteered to go.
    So as we think about the significance of this day in history and 
the possible meaning of this hearing, we must begin by thinking about 
what these two groups of soldiers fought for. Each of them answered the 
call to arms because they believe in America. Each fought because they 
believe this country is a beacon of hope and freedom in a troubled 
world. They are willing to shed their blood to protect and defend the 
rights and liberties guaranteed in the Constitution.
    So, as we think about our debt to the veterans of past wars, let us 
not forget our most basic obligation to those who currently serve. We 
owe them a clear understanding of their mission and a clear definition 
of the enemy. Their enemy is not a religion. Their mission is not to 
defeat an ideology.
    And while some of my colleagues appear to have difficulty grasping 
this, I am glad that the military people understand it. In the days 
after the Ft. Hood shootings, then-Defense Secretary Gates refused to 
lay this tragedy at the feet of one man or one religion. He appointed a 
board and gave them the mission of reviewing what happened, why it 
happened, and what could be done to prevent the same thing from 
happening in the future.
    The review board did not sweep this incident under the rug. They 
did not seek easy explanations and simple answers. They identified 
deficiencies in DOD programs and policies on force protection, 
emergency response procedures, and threat identification. And once they 
identified the problems, they began to solve them. To date, DOD has 
completed 43 of the review board's recommendations. Fifteen additional 
recommendations should be completed by March 2012.
    However, the military's ability to move forward and complete the 
remaining recommendations depends entirely on us. Since September 11, 
Congress has approved a total of $1.283 trillion for military 
operations, base security, reconstruction, foreign aid, embassy costs, 
and veterans' health care associated with the wars in Iraq and 
Afghanistan. Budget cuts may prevent the implementation of the rest of 
these recommendations.
    Today, I hope we can reach a bi-partisan, bi-cameral agreement that 
the military should have the funding it needs to prevent another 
tragedy like Fort Hood. If we can, then something good will have come 
out of this hearing.

    Chairman King. I thank the Ranking Member.
    I would just note for the record that in the investigative 
report that the Majority is releasing today, we point out that 
more than 6,000, actually 6,024, service members who declared 
Islam as their faith have served honorably on overseas 
deployments since 9/11, and 14 Muslim troops have been killed 
in battle, and 4 are buried right nearby here in Arlington. So 
there is no desire on anyone's part to denigrate the tremendous 
contributions made by the Muslim-American community. We are 
talking about a small, small minority, but a lethal minority.
    With that, I yield to the gentlelady, the Senator from the 
State of Maine, the Ranking Member of the Senate Homeland 
Security Committee, my good friend Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    Let me first point out that this unusual House-Senate 
hearing demonstrates our joint concern for the safety of our 
military personnel and their families, who are increasingly the 
targets of terrorist plots. Regardless of our analysis of the 
cause or what the remedy should be, I am certain that each and 
every Member of both the Senate and the House Committee is 
committed to doing everything that we can do to ensure the 
safety of our military personnel and their families. In that 
regard, I would also like to recognize the family members here 
today whose lives have been forever changed by terrorism.
    Our military service members have been on the front lines 
in the war against terrorism for 10 years. In Iraq, 
Afghanistan, and wherever they are called upon, America's 
military men and women put their lives on the line for us. We 
are profoundly grateful to them, and we must work to ensure 
that their lives are not in jeopardy due to insider threats.
    Tragically, in recent years we have seen several attacks 
from both inside and outside the gates of our military bases. 
As we have seen with the attacks at Fort Hood and at the Little 
Rock recruiting center, our military is, in fact, a target for 
Islamist extremists in our own country. In a recent report, the 
Congressional Research Service notes that 23 of the plots 
targeting the military have unfolded in just the last 18 
months. How do we identify and stop the next homegrown attack 
on our military?
    In my judgment, this effort must be addressed through a 
comprehensive counterterrorism strategy that carefully 
differentiates between peaceful practicing Muslims and violent 
Islamist extremists. As Chairman Lieberman and I highlighted in 
our investigation into the Fort Hood attack, the 
administration, unfortunately, has been unwilling to name 
violent Islamist extremism as the ideology driving the main 
homegrown terrorist threat that we face. For example, in 
response to our committee's continued interest in the Fort Hood 
massacre, the Department of Defense responded a few weeks ago 
that it is dealing with the threat of violent Islamist 
extremism in the context of the broader threat of workplace 
violence. This approach, I would note, stands in stark contrast 
to past DOD policies that specifically addressed White 
supremacist activities after the racially-motivated murders of 
two African Americans by two Army soldiers in the 1990s.
    Among the recommendations in the Senate Fort Hood report, 
we urged that there be training for service members, and yet a 
combined House-Senate committee staff review has confirmed that 
the only Department-wide instruction to date is interim 
guidance distributed to commanders on potential indicators of 
violent behavior. That is woefully inadequate.
    I do understand that DOD is moving to develop a long-term 
policy solution, and that the Army is currently implementing an 
updated threat awareness reporting program with associated 
training. We simply must arm our soldiers, sailors, airmen, and 
marines with the knowledge to differentiate between the vast 
majority of Muslim soldiers and military members who are 
peaceful, practicing members of a major esteemed religion and a 
service member who is radicalizing and poses a potential 
threat. Identifying factors that lead to violent 
radicalization, understanding behaviors that could be 
indicators of such radicalization, and engaging to stop the 
radicalization process are all vital components of a 
comprehensive counterterrorism strategy.
    It is frustrating that even the Senate's repeated calls for 
a single Federal official to coordinate activities against 
violent Islamic extremism across the entire Government have 
gone unheeded. This committee, both in the Senate and the House 
Committee, have been examining the process of radicalization 
for more than 5 years, as Chairman King indicated. Whether 
radicalization occurs in prisons or via the internet, the 
threat that such radicalization poses to our military members 
must be acknowledged and addressed. Today's hearing should 
serve as a call to accelerate action to protect those who have 
put their lives on the line for our freedom. Our service men 
and women deserve no less.
    Thank you, Mr. Chairman.
    [The information follows:]

    Statement of Honorable Susan M. Collins, Ranking Member, Senate 
                     Committee on Homeland Security
                            December 7, 2011

    Thank you, Chairman King. Let me first point out that this unusual 
House-Senate hearing demonstrates our joint concern for the safety of 
our military personnel and their families, who are increasingly the 
targets of terrorist plots.
    I would also like to recognize the family members here today whose 
lives have been forever changed by terrorism.
    Our military service members have been on the front lines in the 
war against terrorism for 10 years. In Iraq, Afghanistan, and wherever 
called upon, America's military men and women put their lives on the 
line for us. We are profoundly grateful to them, and we must work to 
ensure their lives are not in jeopardy due to insider threats.
    Tragically, in recent years, we have seen several attacks from both 
inside and outside the gates of our military bases. As we have seen 
with the attacks at Fort Hood, Texas, and at a Little Rock, Arkansas, 
recruiting center, our military is a target for Islamist extremists in 
our own country. In a recent report, the Congressional Research Service 
notes that 23 plots targeting the military have unfolded in just the 
last 18 months.
    How do we identify and stop the next homegrown attack on our 
military? This effort must be addressed through a comprehensive 
counterterrorism strategy that carefully differentiates between 
peaceful, practicing Muslims and violent Islamist extremists.
    As Chairman Lieberman and I highlighted in our investigation into 
the Fort Hood attack, the administration has been unwilling to name 
violent Islamist extremism as the ideology driving the main homegrown 
terrorist threat we face. For example, in response to this committee's 
continued interest in the Fort Hood massacre, DoD responded a few weeks 
ago that it is ``dealing with the threat of violent Islamist extremism 
in the context of a broader threat of workplace violence.''
    This approach stands in stark contrast to past DoD policies that 
specifically addressed white supremacist activities after the racially 
motivated murders of two African-Americans by two Army soldiers in 
1995.
    Among the recommendations in the Senate Fort Hood report, we urged 
that service members ``receive specific training concerning the 
ideology and behaviors associated with violent Islamist extremism--and 
how they differ from the peaceful practice of Islam.'' And yet, a 
combined House-Senate Committee staff review has confirmed that the 
only Department-wide instruction to date is the ``interim guidance'' 
distributed to commanders on potential ``indicators of violent 
behavior.''
    I understand that DoD is moving to develop a long-term policy 
solution, and that the Army is currently implementing an updated Threat 
Awareness Reporting Program and associated training. We must arm our 
Soldiers, Sailors, Airmen, and Marines with the knowledge to 
differentiate between a peaceful, practicing member of a major esteemed 
religion and a service member who is radicalizing and poses a potential 
threat.
    Identifying factors that lead to violent radicalization, 
understanding behaviors that could be indicators of such 
radicalization, and engaging to stop the radicalization process are all 
vital components of a comprehensive counterterrorism strategy.
    Even our repeated call for a single Federal official to coordinate 
activities against violent Islamist extremism across the entire 
Government has gone unheeded.
    Our committee has been examining the process of radicalization for 
more than 5 years. Whether it occurs in prisons or on the internet--the 
threat such radicalization poses to our military members must be 
acknowledged and addressed. The Congressional Research Service's 
documentation of 29 plots and three attacks targeting military 
personnel and bases since September 11 requires the full attention of 
the military and the administration.
    Today's hearing should serve as a call to accelerate actions to 
protect those who have put their lives on the line for our freedom. Our 
service men and women deserve no less.

    Chairman King. Thank you, Senator Collins.
    Other Members of the committees are reminded that opening 
statements may be submitted for the record.
    In correspondence with today's witnesses, they have 
indicated the topic we are examining is of a sensitive nature, 
and, depending on the questions asked, may endanger National 
security or compromise sensitive law enforcement information. I 
have consulted with Senator Lieberman, and we are in agreement 
that should it become necessary, the hearing should recess 
after the second panel has concluded and reconvene in a closed, 
classified session. Therefore, I ask unanimous consent that the 
hearing move to a closed session at the appropriate time should 
that be determined by Chairman Lieberman and by me. Without 
objection, so ordered.
    I would also ask unanimous consent to insert into the 
record a statement from Congressman Ellison. He has not 
provided the statement to us yet, but he said he would. So I 
ask that it be included in the record. Without objection, so 
ordered.*
---------------------------------------------------------------------------
    * The information was not submitted at the time of publication.
---------------------------------------------------------------------------
    Chairman King. I would now like to welcome our witnesses 
today. I would remind you that your full testimony will be 
submitted for the record, and ask you to summarize your 
statements at this time.
    We have a very distinguished panel of witnesses for our 
important hearing today. The first panel, we have Assistant 
Secretary of Defense Paul Stockton, Assistant Secretary for 
Homeland Defense and Americas' Security Affairs, a position he 
has held since April 2009. In this role he is responsible for 
the supervision of homeland defense activities, defense support 
of civil authorities, and Western Hemisphere security affairs 
for the Department of Defense.
    From 1986 to 1989--and, Senator Lieberman, this goes along 
with the interests of bipartisanship--Secretary Stockton served 
as legislative assistant to Senator Daniel Patrick Moynihan, 
the only politician from New York I know who has been 
recommended for sainthood by Republicans and Democrats. That 
was a while ago, but he certainly is a hero to all New Yorkers. 
Prior to his confirmation, Secretary Stockton was a senior 
research scholar at Stanford University's Center for 
International Security and Cooperation.
    I have had the privilege of meeting with Secretary 
Stockton, and certainly look forward to his testimony today.
    Secretary Stockton is accompanied by Mr. Jim Stuteville, 
who is a senior advisor to the United States Army for 
counterintelligence operations, and liaison to the Federal 
Bureau of Investigation.
    Finally on the panel we have Lieutenant Colonel Reid 
Sawyer, who is the director and one of the founders of the 
Combating Terrorism Center at West Point. A career intelligence 
officer, Colonel Sawyer has served in a variety of Special 
Operations assignments, including operations in Afghanistan, 
Iraq, Africa, and South America. Colonel Sawyer also actively 
advises a number of Federal, State, and local government 
agencies, and is a member of the Fire Department of New York 
Terrorism Task Force. He has edited two books on the challenges 
involving international terrorism, and he has lectured widely, 
and we look forward to his testimony today.
    Now I am pleased to recognize Secretary Stockton for his 
testimony.
    Secretary Stockton.

 STATEMENT OF PAUL N. STOCKTON, ASSISTANT SECRETARY OF DEFENSE 
FOR HOMELAND DEFENSE AND AMERICAS' SECURITY AFFAIRS, OFFICE OF 
 UNDER SECRETARY OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE; 
   ACCOMPANIED BY JIM STUTEVILLE, UNITED STATES ARMY, SENIOR 
  ADVISOR, C0UNTERINTELLIGENCE OPERATIONS, AND LIAISON TO THE 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Stockton. Chairman King, Chairman Lieberman, Ranking 
Member Thompson, Ranking Member Collins, thank you for the 
opportunity today to testify on such an important issue, and 
thank you so much for your focus on these topics and your 
leadership, and for your contributions to National security as 
a whole.
    Let me begin with my bottom-line up-front. The threat that 
we are discussing today is serious, and it is enduring. The 
Department of Defense has taken important steps in order to 
meet this challenge, but we do not intend to rest on our 
accomplishments. With your help, and with the strong support of 
my Department's leadership, I pledge to continue strengthening 
the preparedness of our domestic military communities against 
the homegrown terrorist threat as it continues to evolve.
    The past several years have seen increased numbers of 
American citizens or residents inspired by al-Qaeda's ideology, 
and the Department of Defense has become their target of 
choice. My statement for the record summarizes actions we have 
under way to counter the threat. Our initiatives are directly 
targeted to fix the shortcomings revealed by the tragic 
shootings at Fort Hood. In that regard, I want to thank the 
Members of both committees for the support and the work that 
you have done in order to identify the shortfalls that 
previously existed, and make recommendations on the 
improvements that we ought to pursue in the Department of 
Defense. In addition, we are looking forward to the threat 
evolving in the future. We want to make sure that we anticipate 
how the threat is likely to evolve so we can be prepared to 
counter it for years to come.
    I would like to highlight some specific actions we have 
under way in three areas: First of all, information sharing; 
second, identifying and reporting on possible violent 
extremists; and finally, improving our incident response 
capabilities.
    Four months ago, Secretary Panetta and the Attorney General 
implemented a groundbreaking agreement to strengthen 
information sharing and cooperation between the Federal Bureau 
of Investigation and the Department of Defense. Chairman 
Lieberman, I take very seriously the importance that you and 
all of us attach to continuing to strengthen the FBI-DOD 
relationship. I will also welcome the opportunity to discuss 
the ways that we are working together with State and local law 
enforcement in order to make sure that we are better prepared 
in the future to meet the challenges that we face.
    We have also launched the eGuardian system to share 
suspicious-activity information between State and local law 
enforcement, Joint Terrorism Task Forces, and the Department of 
Defense, including installation commanders around the Nation. 
Together with other information-sharing initiatives now under 
way, we have greatly strengthened our ability to connect the 
dots and prevent future attacks against our military 
communities.
    We have also made progress in the second role, and that is 
providing commanders and other supervisory personnel with the 
guidance they need to identify potential violent extremists in 
our ranks and ensure that necessary follow-up and intervention 
actions occur. In 2010, then-Secretary of Defense Gates 
provided interim guidance on how our personnel should identify 
and report on potential insider threats. We have a series of 
studies under way right now to refine and build on that 
guidance and anticipate future homegrown threats.
    In March of next year, the Defense Science Board will issue 
a study that recommends additional training tools to better 
enable our military supervisors to recognize when and how they 
should intervene in order to thwart potential insider threats. 
Two longer-term studies that we have under way are also 
looking--they are diving deep into the behavioral processes 
that lead to radicalization so, again, we can refine our 
programs, we can refine our training efforts to ensure that we 
can successfully intervene and prevent future terrorist attacks 
from occurring against our military communities.
    Finally, knowing that perfect prevention will always be our 
goal, but it is unattainable, we have been strengthening our 
ability to respond to attacks that do occur. We have launched 
an Active Shooter training program for military police and 
other personnel. We have greatly improved our incident 
notification systems that will enable us to warn and direct 
personnel and their families, support emergency response 
efforts, and make other life-saving improvements.
    Chairman Lieberman, Chairman King, Ranking Member Collins, 
Ranking Member Thompson, distinguished Members of both 
committees, thank you again for your leadership in advancing 
the security of the United States, and for your particular 
focus on securing the homeland against the threats we will be 
discussing today. I look forward together to working with you 
in that effort, and to your questions and your recommendations. 
Thank you.
    [The statement of Mr. Stockton follows:]

                 Prepared Statement of Paul N. Stockton
                            December 7, 2011

    Chairman King, Chairman Lieberman, Ranking Member Thompson, Ranking 
Member Collins, distinguished Members of the committees: Thank you for 
the opportunity to address you today on the homegrown terrorist threat 
to military communities inside the United States. Let me provide you 
with my bottom-line up-front. The terrorist threat to our military 
communities is serious, and will remain so for years to come. The 
Department of Defense (DoD) has greatly improved its ability to meet 
this threat, through internal initiatives and partnerships with the 
Department of Justice, the Federal Bureau of Investigation (FBI), the 
Department of Homeland Security (DHS) including U.S. Immigration and 
Customs Enforcement (ICE), and law enforcement agencies across the 
Nation. This is no time to rest on our accomplishments, however. With 
your help, and with the strong support of the leadership of my 
Department, I pledge to continue to strengthen the preparedness of our 
domestic military communities against the enduring, evolving threats of 
terrorism they confront.
    When it comes to defining the enemy, this administration wishes to 
avoid imprecise terminology that may cause confusion and may 
unjustifiably give credence to the falsehood--despite our best 
intentions--that we are waging a war on Islam. Muslim Americans are 
important allies in the effort to counter violent extremism in the 
United States. This is consistent with the administration's strategy 
``Empowering Local Partners to Prevent Violent Extremism in the United 
States'' which affirms, ``The best defenses against violent extremist 
ideologies are well-informed and equipped families, local communities, 
and local institutions.'' Muslim Americans are also important in DoD 
operations. Every day, patriotic Muslim Americans serve in our 
military, often providing linguistic and cultural competencies 
essential to disrupting and defeating our actual enemy: Al-Qaeda and 
its adherents and affiliates world-wide.
    Deputy National Security Advisor Denis McDonough noted in March 
2011 that ``Al-Qaeda and its adherents are constantly trying to exploit 
any vulnerability in our open society. This threat is real, and it is 
serious. How do we know this? Well, al-Qaeda tells us. They make 
videos, create internet forums, even publish on-line magazines, all for 
the expressed purpose of trying to convince Muslim-Americans to reject 
their country and attack their fellow Americans.'' The Department of 
Defense faces a special challenge in this regard. Al-Qaeda and its 
affiliates seek to inspire and instruct U.S. military personnel and 
other radicalized U.S. citizens to conduct ``lone actor'' attacks on 
U.S. military targets. These adherents are, as Deputy National Security 
Advisor John Brennan has said, ``individuals, sometimes with little or 
no direct physical contact with al-Qaeda, who have succumbed to [al-
Qaeda's] hateful ideology and who have engaged in, or facilitated, 
terrorist activities here in the United States . . . and we have seen 
the tragic results, with the murder of a military recruiter in Arkansas 
two years ago and the attack on our servicemen and women at Fort 
Hood.''\1\
---------------------------------------------------------------------------
    \1\ Brennan, John. ``Remarks on Ensuring al-Qa'ida's Demise'' as 
prepared for delivery, Paul H. Nitze School of Advanced International 
Studies. Washington, DC. June 29, 2011.
---------------------------------------------------------------------------
    As noted in a White House statement in August 2011: ``The past 
several years have seen increased numbers of American citizens or 
residents inspired by al-Qaeda's ideology and involved in 
terrorism.''\2\ Over the last decade, a plurality of these domestic 
violent extremists chose to target the Department of Defense (DoD), 
making military communities the target of choice for homegrown 
terrorists. Fourteen of 17 Americans killed in the homeland by domestic 
violent extremists have been DoD personnel.
---------------------------------------------------------------------------
    \2\ The White House. Empowering Local Partners to Prevent Violent 
Extremism in the United States. Washington: August 2011.
---------------------------------------------------------------------------
    As President Obama said in September, ``The death of [Anwar al-
Awlaki] was a major blow to al-Qaeda's most active operational 
affiliate. Al-Awlaki was the leader of external operations for al-Qaeda 
in the Arabian Peninsula. In that role, he took the lead in planning 
and directing efforts to murder innocent Americans.'' The fact that al-
Qaeda's adherents are openly and specifically recruiting Americans to 
support or commit acts of violence--through videos, magazines, and on-
line forums--poses an on-going and real threat.\3\
---------------------------------------------------------------------------
    \3\ The White House. Empowering Local Partners to Prevent Violent 
Extremism in the United States. Washington: August 2011.
---------------------------------------------------------------------------
    As acknowledged in the June 2011 National Strategy for 
Counterterrorism, ``[m]ass media and the internet in particular have 
emerged as enablers for terrorist planning, facilitation, and 
communication . . . Global communications and connectivity place [al-
Qaeda's] calls for violence and instructions for carrying it out within 
easy reach of millions.'' Given the adversary's emphasis on recruiting 
U.S. military personnel to attack our communities from within, the 
Department has taken numerous actions to broaden its approach to force 
protection beyond its traditional focus on external threats.
    After the tragic shooting at Fort Hood, then-Secretary Gates 
commissioned the DoD Independent Review Related to Fort Hood to 
identify gaps and deficiencies in DoD's force protection programs, 
policies, and procedures. In response to the Independent Review's 
recommendations, then-Secretary Gates directed that the Department make 
every effort to safeguard civil rights and civil liberties while 
implementing several specific actions to adapt effectively to the 
challenging security environment in which we operate. These initiatives 
will significantly improve the Department's ability to mitigate 
internal threats, ensure force protection, enable emergency response, 
and provide care for victims and families should another attack occur.
    It is important to recognize that although al-Qaeda and its 
affiliates and adherents currently pose the pre-eminent security threat 
to the United States, history has shown that the prevalence of 
particular violent extremist ideologies changes over time, and new 
threats will undoubtedly arise in the future.\4\ The July 2011 tragedy 
in Norway and the April 1995 Oklahoma City bombing underscore this 
point. The administration's August 2011 strategy, Empowering Local 
Partners to Prevent Violent Extremism in the United States, provides a 
useful definition for violent extremists: ``individuals who support or 
commit ideologically-motivated violence to further political goals.'' 
Though the nature and significance of these threats can vary, our 
obligation to protect the American people demands that we maintain a 
strategy that counters all of them. Consistent with the ``Empowering 
Local Partners to Prevent Violent Extremism in the United States'' the 
Department of Defense's initiatives address the range of violent 
extremist threats we face.
---------------------------------------------------------------------------
    \4\ The White House. Empowering Local Partners to Prevent Violent 
Extremism in the United States. Washington: August 2011.
---------------------------------------------------------------------------
    As a matter of law and National policy, DoD is generally restricted 
from collecting and storing law enforcement information on U.S. 
citizens; therefore, DoD must rely on civilian agencies to play an 
increasingly important role in the protection of U.S. military 
communities. As part of the Fort Hood review, then-Secretary Gates 
directed several actions to improve DoD collaboration with the Federal 
Bureau of Investigation (FBI). Effective August 2011, the Attorney 
General and the Secretary of Defense implemented a single, overarching 
information-sharing Memorandum of Understanding (MOU) to promote 
systemic, standardized, and controlled information sharing. This MOU 
establishes a general adjudication process whereby DOD and the FBI can 
resolve potential future differences of opinion to whether and when 
information should be shared.
    This MOU will be supplemented by a series of specific annexes, 
several of which are in the final stages of negotiation before 
proceeding to signature. These annexes will clarify coordination 
procedures and investigative responsibilities between DoD and the FBI. 
Most significantly, Annex A, ``Counterterrorism Information Sharing,'' 
will allow DoD to articulate its force protection information 
requirements to eliminate confusion or doubt about what threat 
information is considered to be of value to DoD. Threat information 
with a DoD nexus is shared at the institutional level and at the local 
level. As a result, DOD will be able to evaluate the threat information 
from a high-level perspective to ``connect the dots'' more effectively. 
At the same time, installation commanders have the information they 
need to take appropriate force protection and antiterrorism measures to 
protect their communities from the threat. We anticipate this annex 
will be signed early next year.
    We also have drafted an annex addressing Counterintelligence 
Information Sharing (Annex B) that we anticipate will be signed by 
January 2012. Additional annexes addressing the subjects of ``Terrorist 
Screening Information'' and ``DoD Participation in FBI Joint Terrorism 
Task Forces'' will enter coordination shortly. Once the ``DoD 
Participation in FBI Joint Terrorism Task Forces'' annex is finalized, 
we will publish a conforming DoD Instruction, ``DoD Support to the 
Federal Bureau of Investigation Joint Terrorism Task Force Program,'' 
which will provide policy and guidance for each DoD component 
represented in the FBI's Joint Terrorism Task Forces (JTTFs). By fiscal 
year 2015, DoD will provide approximately 123 detailees to support 60 
FBI JTTFs throughout the United States. The FBI has instituted a formal 
training program to ensure these DoD professionals are familiar with 
all available JTTF tools, databases, and information. DoD is also 
working closely with State and local law enforcement agencies to 
recognize the indicators of a ``lone actor'' threat and to share 
suspicious activity reports to prevent another Fort Hood-type of attack 
from occurring. In September 2010, DoD began using eGuardian, an 
unclassified, secure, web-based capability to report suspicious 
activity that can be accessed through the Law Enforcement Online (LEO) 
network. eGuardian is part of the Nation-wide Suspicious Activity 
Reporting (SAR) Initiative (NSI). The eGuardian system appropriately 
safeguards privacy and civil liberties, enabling information sharing 
among Federal, State, local, and Tribal law enforcement partners, 
including State and Major Urban Area Fusion Centers and the FBI JTTFs. 
When fully implemented in February 2012, eGuardian will have 
approximately 1,500 DoD users world-wide, and all DoD law enforcement 
entities will have access. The system was designed to remedy 
information-sharing gaps that the review of the Fort Hood shootings 
revealed and has already resulted in at least 384 new investigations or 
case enhancements. In addition, DoD is working to identify funding for 
the Defense Data Exchange (D-DEx), which will allow all 13 DoD law 
enforcement entities to post and query criminal investigation and other 
law enforcement data in a single repository.
    DoD is also acting on lessons learned. For instance, the 
Independent Review related to Fort Hood (``Protecting the Force: 
Lessons from Fort Hood'') found DoD force protection policies and 
programs were not sufficiently focused on internal threats. To improve 
intradepartmental information sharing on insider threats, as well as to 
synchronize force protection and law enforcement policies and programs 
across DoD, we established a permanent Force Protection Senior Steering 
Group (FP SSG). My office and the Joint Staff co-chair the FP SSG, 
which meets not less than semiannually and reports progress and 
recommendations to the Deputy Secretary's Defense Management Action 
Group (formerly known as the Defense Advisory Working Group).
    The FP SSG has an ``Insider Threat Working Group'' (or ``InTWG''), 
which includes representatives from the Joint Staff, the Military 
Departments and Services, and most DoD components. The InTWG examines 
the insider threat from three perspectives: (1) Workplace violence, (2) 
terrorism, and (3) security threats (including espionage and threats to 
information systems). Unique among other similar Federal Government 
insider threat working groups, the InTWG addresses both kinetic and 
non-kinetic insider threats. The InTWG is drafting a DoD Instruction to 
provide guidance that will improve information sharing among DoD law 
enforcement and intelligence entities and establish a single, DoD-wide 
definition of insider threat as: ``A person with authorized access, who 
uses that access, wittingly or unwittingly, to harm National security 
interests or National security through unauthorized disclosure, data 
modification, espionage, terrorism, or kinetic actions resulting in 
personal injury or loss or degradation of resources or capabilities.'' 
Under this broad strategic umbrella, individual DoD components may 
initiate programs tailored to address their distinctive 
vulnerabilities.
    In order to recognize potential threats before they materialize, 
DoD must first identify and validate behavioral indicators of, or 
precursors to, violent behavior. In August 2010, then-Secretary Gates 
issued interim guidance on how to identify and report potential insider 
threats. This guidance, developed in consultation with academic experts 
and law enforcement practitioners, familiarizes leaders with a list of 
behaviors that may indicate a potential propensity to commit violent 
acts. Behaviors on the list vary in degrees of severity--some behaviors 
are themselves illegal or violate DoD rules--others may be cause for 
concern only in certain contexts. Military personnel who exhibit 
indicators, such as hatred or intolerance of American society and 
culture, advocacy for violence-promoting organizations, and history of 
poor work performance or substance abuse problems, should elicit 
concern from commanders or supervisors. In all cases, leaders are 
expected to exercise proper judgment and consider the full range of 
administrative and disciplinary actions when addressing personnel whose 
behavior adversely affects good order, discipline, or safety of the 
unit. This interim guidance is intended to protect the force in the 
near term.
    In April 2010, then-Secretary Gates approved the Defense Science 
Board (DSB) study on violent radicalization. In addition to validating 
indicators of violence, the DSB was asked to recommend training tools 
to enable commanders and supervisors to recognize when and how to 
intervene and thwart potential insider threats. I expect the DSB report 
to be completed in March 2012. In addition, the Assistant Secretary of 
Defense for Health Affairs will conduct two scientific studies--one 
retrospective and one prospective--to examine DoD populations and to 
develop a scientifically-based list of behavioral indicators of 
violence in the military population. As findings from these studies 
become available, DoD will refine its interim guidance to incorporate 
what we learn into other existing workplace violence prevention and 
intervention programs and policies. DoD has already supplemented pre- 
and post-deployment health care screening questionnaires to help health 
care providers assess the risk of violence by DoD personnel and to 
refer such personnel for further evaluation or treatment as necessary.
    Although DoD's intent is to prevent insider threats from 
materializing, we have also taken several measures to improve emergency 
response when they do. Since March 2010, ``Active Shooter'' training 
has been an important component of mandatory Antiterrorism Level 1 
training. Active Shooter best practices are being included in revisions 
to the minimum standards for military police (and equivalents).
    Finally, DoD is implementing installation emergency management 
(IEM) programs, including ``Enhanced 9-1-1,'' mass notification and 
warning systems, and a ``common operating picture.'' ``Enhanced 9-1-1'' 
provides dispatchers with the caller's location, even during cell phone 
calls, which is especially important in case the caller becomes 
incapacitated. Mass notification and warning systems automate guidance 
(e.g., evacuation orders) to warn and direct installation personnel, 
helping emergency responders manage affected populations over the 
course of an incident. The ``common operating picture'' is intended to 
enable coordination among emergency responders by sharing information 
in real-time during an incident. This ``common operating picture'' is 
also intended to improve installations' capacity to report force 
protection information to the Combatant Commands. IEM program 
implementation will save lives, promote interoperability with civilian 
first responders, and ensure compliance with National preparedness and 
response guidelines.
    Chairman King, Chairman Lieberman, Ranking Member Thompson, Ranking 
Member Collins, distinguished Members of the committees: I commend you 
for your leadership, continued interest, and support of DoD's efforts 
on this important matter. We have an obligation to ensure that the men 
and women who are prepared to sacrifice so much for our Nation anywhere 
in the world are safe here at home.

    Chairman King. Thank you very much, Secretary Stockton.
    I now recognize Colonel Sawyer.
    Colonel Sawyer.

   STATEMENT OF LIEUTENANT COLONEL REID L. SAWYER, DIRECTOR, 
            COMBATING TERRORISM CENTER AT WEST POINT

    Colonel Sawyer. Chairman King, Chairman Lieberman, Ranking 
Member Thompson, Ranking Member Collins, and distinguished 
Members of both committees, as the Director of the Combating 
Terrorism Center at West Point, it is my distinct honor and 
pleasure to be here before you today to discuss such a 
critically important topic.
    The Combating Terrorism Center at West Point is committed 
to studying the intellectual underpinnings of the terrorist 
threat, and as such, my remarks are based on an exhaustive 14-
month study of the domestic jihadist threat, with specific 
insights to the threat that the military faces from this 
purview.
    My remarks will center on two critical points. First, the 
rapid rise of al-Qaeda-inspired threat in the United States 
beginning in 2007 reveals a complex landscape that is only 
growing more opaque each year. Second, and critical for our 
discussion here today, is the emergence of the military as the 
preferred target for al-Qaeda-inspired individuals within the 
United States, a trend that is greater than many realize, and 
thus the importance of today's hearing, and which I thank you 
as well.
    Let me turn to my first point. Since 9/11, the United 
States is witness to the radicalization of 170 of its residents 
and the targeting and supporting of violent action in multiple 
locations throughout the United States. Put another way, this 
amounts to an average of one attack every 3 months for a 12-
year period, with the overwhelming majority of these attacks 
occurring since 2007. Concurrently, we have witnessed an 
increasing number of groups overseas aligned or affiliated with 
al-Qaeda, which increases the number of entry points for 
individuals radicalizing in the United States, functionally 
decreasing the barriers of entry for those that wish to 
participate in the global jihad.
    The conclusions that there are few successes within this 
data misses the point that the distance between failure and 
success is far shorter than realized. We need to only look to 
the 2004 Madrid attacks that killed 198 individuals or the 
devastating attacks in London to grasp the damage possible from 
a homegrown cell. In other words, while the number of failures 
is an important metric of both counterterrorism successes and 
the terrorist incompetence, it may also provide a false sense 
of security. In the United States context, the 2010 Najibullah 
Zazi plot provides a stark reminder of what might have been.
    Turning to my second point, the focus on the military. 
Perhaps the most disturbing trend that has been noted by many 
here today is the intense focus by the domestic jihadists on 
the military targets. The military presents a qualitatively 
different target when attacked at home than when engaged in 
combat abroad. There is an expectation among our citizenry that 
our service members are safe within their home environment, and 
a cursory look at the data reveals that nearly 21 percent of 
domestic radicalized plots since 
9/11 within the United States target our military forces at 
home. But this number does not reflect the totality of interest 
in targeting the U.S. military forces by domestically inspired 
al-Qaeda individuals.
    A second category of homegrown terrorists are those that 
radicalize here are equally committed to targeting our 
military, but travel overseas to participate in the global 
jihad. When these numbers are included, the percentage 
increases to nearly 50 percent of all plots within the United 
States that are seen as directly targeting the U.S. military. 
While it is difficult to assess whether the second group, were 
they unable to connect to their external networks abroad, would 
have indeed focused on military targets at home, it is 
undeniable that the U.S. military amongst this population is of 
significant interest.
    If we expand the aperture even further to include all plots 
that considered military targets and changed course for 
whatever reason, we find that the percentage jumps to 56 
percent of those post-9/11 domestic plots that target the 
military.
    Increasingly, we are witnessing individuals that radicalize 
in near isolation, creating cells that are self-organizing. 
There is little direct contact between these cells and the 
radicalizing agent. The mental and moral barriers to targeting 
U.S. soldiers are less than when targeting civilians. This is a 
function of both the nature and specificity of al-Qaeda's 
narrative that frames the U.S. military as war criminals, and 
creates an imperative for striking the military in a pre-
emptive manner.
    Of those individuals that move to actual attack against the 
military, it is a group that is exclusively made up of lone 
wolves. Whether by strategic choice or lack of access to 
extremist networks, the lack of contact with others 
significantly limits the ability to identify, prevent, and 
interdict these individuals.
    The second category of military threats is the person who 
radicalizes once inside the military. Insider threats are not 
only dangerous because of their access, which is certainly 
crucial to their attacks, but it is the combination of access 
and knowledge of their organization that enables these plots to 
potentially be significantly more dangerous than they otherwise 
might have been.
    The number of insider cases are statistically insignificant 
when looking across the entire data set, but pose a 
disproportionate impact when we think about the effects that 
this has across our military and how it reifies al-Qaeda's 
narrative. By design or happenstance, these attackers produce 
significant psychological effects. It is all too easy to forget 
that, at its fundamental level, terrorism is about the 
psychology of fear.
    In conclusion, while the domestic violent extremists have 
only realized limited success in the United States today, the 
threat is significant. The potential of physical violence from 
these cells is only one dimension. Radicalization of U.S. 
citizens tears at the fabric of our society in the way that 
attacks from Yemen or Pakistan do not. Effective intelligence 
and law enforcement efforts to detect and disrupt these cells 
are critical, but not sufficient to fully address the problem. 
Interdiction and prevention efforts must be coupled with 
programs to counter violent extremism, to ultimately foster 
inhospitable conditions for the emergence of al-Qaeda-inspired 
extremists in the United States, and to decrease the threat to 
our military forces.
    Thank you very much for holding this hearing, and I look 
forward to your questions.
    [The statement of Colonel Sawyer follows:]

          Prepared Statement of Lieutenant Colonel Reid Sawyer

                              INTRODUCTION

    The attacks of September 11, 2001, provided a stark warning that 
analysts had grossly misjudged the nature of the terrorist threat 
facing the United States.\1\ While the ensuing decade of conflict has 
greatly constrained al-Qaeda's ability to operate with impunity, the 
threat from the organization and its affiliated movements has proved 
far more resilient than anticipated. The rise of new organizations, the 
alignment of existing groups and the emergence of domestic cells 
inspired by al-Qaeda's ideology create a complex tapestry of actors 
that continues to present a very real and persistent threat to the 
United States. It is this last category of--homegrown al-Qaeda-inspired 
violent extremists--that represents perhaps the most unique dimension 
to this varied and dynamic landscape. Self-organizing and largely 
autonomous in their operations, these cells challenge the long-held 
notion that al-Qaeda is a solely exogenous threat to the United States.
---------------------------------------------------------------------------
    \1\ This testimony represents the personal opinion of the author 
and does not necessarily reflect the opinion of the United States 
Military Academy, Department of Defense, or any other Government 
agency. This testimony is based on a 14-month-long, comprehensive 
research project conducted at West Point by Reid Sawyer and Michael 
McGee.
---------------------------------------------------------------------------
    Yet domestic terrorism is not a new phenomenon to the United 
States. As Brian Jenkins notes, the 1970s witnessed a far greater 
frequency of terrorist attacks in the United States than in the post-9/
11 era.\2\ However, the emergence of al-Qaeda-inspired violent 
extremism in this country since 2005 marks an environment that did not 
exist prior to--or even immediately after 9/11.\3\ Since 2001, 170 
individuals in the United States have radicalized and seeking to 
conduct attacks. U.S. military members stationed inside the United 
States have emerged as the most prevalent target selected by al-Qaeda-
inspired, homegrown terrorists. In 2011 alone, of the seven publicly 
acknowledged plots by such groups, six targeted some aspect of the 
military. The nature of this phenomenon is not well understood nor 
fully appreciated and deserving of more analysis.
---------------------------------------------------------------------------
    \2\ Brian Michael Jenkins, Would-Be Warriors: Incidents of Jihadist 
Terrorist Radicalization in the United States Since September 11, 2001. 
Santa Monica, CA: RAND Corporation, 2010, 8-9.
    \3\ Throughout this testimony, the terms ``domestic terrorism,'' 
``homegrown terrorism'' are used interchangeably. The term ``homegrown 
terrorists'' refers to terrorists who have been radicalized in their 
host country as opposed to those who have been radicalized in another 
location and then traveled to the West or the United States. Homegrown 
terrorists range from lone-wolf actors to small, isolated groups with 
little or no connection to the international jihad to groups whose 
members together radicalized, trained, and connected to international 
jihadist organizations. This definitional concept is drawn from 
Kimberley L. Thachuk, Marion E. ``Spike'' Bowman, and Courtney 
Richardson, ``Homegrown Terrorism: The Threat Within,'' Center for 
Technology and National Security Policy, National Defense University, 
May 2008, 6.
---------------------------------------------------------------------------
    As homegrown terrorism has evolved over the past decade it is 
significant to note that the vast majority of al-Qaeda-inspired cells 
in the United States have, at best, limited contacts with core elements 
of the organization. This is an increasingly common hallmark of an era 
in which globalized communication technology has simplified the 
transmission of ideas from one corner of the world to another, enabling 
action without connection. However, it is not simply the ease with 
which ideas are shared today that enables the global jihad, but also 
the construction of a virtual, global ummah--a community of believers--
through which individuals can locate personal grievances within a 
broader framework of dissent. This process ensures that individuals can 
find meaning in something greater than themselves as they seek to 
define their level of participation in the movement. Ten years of war 
in two Muslim countries combined with the rapid proliferation and 
growing presence of global Salafi extremist jihadist ideology on the 
internet has created a charged environment whereby participation in the 
movement is not dictated by, or restricted to, an individual's country 
of residence. Today, individuals can ``belong'' to al-Qaeda with little 
or no physical contact with the group itself. These dynamics have 
enabled the rise of domestic, or homegrown, terrorism within the United 
States.
    Fortunately, numerous law enforcement and intelligence successes 
against al-Qaeda and its affiliated have prevented all but a handful of 
attacks since 9/11. The fact that the United States has not witnessed a 
significant successful terrorist attack since 2001 is a testament to 
the advances made by the counterterrorism and law enforcement 
communities. As important and comforting as these metrics may be, the 
conclusion that al-Qaeda-directed or -inspired cells are impotent 
misses two significant and important dimensions of the present threat.

    1. Despite the number of failures and the ineptitude displayed by 
        some cells, homegrown terrorists are capable of inflicting 
        significant damage. One need only to look at the March 2004 
        bombings in Madrid, in which 191 people were killed and more 
        than 1,800 were wounded after homegrown terrorists planted 13 
        bombs on four commuter trains, or the July 2005 attack in 
        London, when 56 people were killed and 700 were injured after 
        four suicide attackers detonated bombs on three subways and one 
        double-decker bus, to understand that a homegrown cell can 
        inflict significant damage. The distance between success and 
        failure in domestic terrorist attacks is not as great as many 
        would presume, and even one successful attack can have 
        devastating National effects no matter the number of failures 
        that preceded the attack.

    2. The frequency of attempted attacks against the United States 
        reveals a much more robust threat than is commonly understood. 
        In the nearly 12 years since the first al-Qaeda-sponsored 
        attack on the U.S. homeland, there have been no less than 13 
        major plots supported by al-Qaeda or its affiliates--an average 
        of more than one per year for 12 years. The list includes such 
        plots as the Millennium Bomber in 2000, Najibullah Zazi's 2009 
        plan to attack New York City's subways and the Christmas day 
        bomber in 2009.\4\ When the aperture expands beyond externally 
        supported plots targeting the United States to include all 
        domestic plots, the data reveal that there has been an 
        attempted plot once every 2 months for 12 years within the 
        United States. Despite the overwhelming number of failed 
        attacks over the past 12 years, the high frequency of attacks 
        over such an extended period of time speaks to both the 
        resiliency and the appeal of al-Qaeda's narrative to animate an 
        increasingly diverse group of individuals within the United 
        States.
---------------------------------------------------------------------------
    \4\ The 13 plots included in this statistic include: Millennium 
Bomber, 9/11 attacks, Richard Reid, 2004 Citibank Plot, 2006 airliner 
plot, Najibullah Zazi New York City plots, Christmas day plots, Times 
Square plot, Faris, Padilla, al-Marri, and the Cargo Aircraft plots.

    These two factors--the potential risk of large-scale attacks and 
the ability of a self-organizing movement to sustain its efforts with 
such frequency over so long a period of time--point to a stark reality: 
That while the United States and its allies have been very successful 
in constraining al-Qaeda's ability to operate from Pakistan, 
Afghanistan, and Yemen, the risk of homegrown terrorism is a more 
significant and persistent threat than many realize. This frustrating 
and troublesome state of affairs is the result of two main factors: (1) 
The salience of al-Qaeda's narrative ideology to a diverse audience, 
even those living in the United States; and (2) the organization's 
ability to maintain appeal across generations and to remain a relevant 
voice across a decade of conflict and emerging world events.
    This statement first explores the prevailing assumptions about the 
nature of the homegrown threat and the discord that results from a lack 
of a common understanding of the problem. Second, it considers the 
changing radicalization dynamic and challenges posed by this self-
organizing system of violence. Third, the statement examines the nature 
of this persistent threat and its focus on targeting the U.S. military 
in a domestic context. This data is predicated upon a 14-month 
comprehensive research project conducted by the Combating Terrorism 
Center at West Point examining the homegrown jihadist threat within the 
United States.

                   HOMEGROWN TERRORISM CONTEXTUALIZED

    The domestic al-Qaeda threat is both a product of an international 
system of violence as well as a contributor to that system. While this 
is seemingly an obvious relationship, it is important to note that as 
much as homegrown terrorists are products of the broader al-Qaeda 
movement, the broader movement itself derives significant benefit from 
incidents such as those at Fort Hood, the Christmas day bomber or the 
attack on the Little Rock recruiting center. Attacks within the 
homeland, especially against military targets, provide significant 
propaganda value for al-Qaeda. The now infamous Inspire magazine 
highlighted these attacks as models for others to emulate and as 
inspiration for others to act.
    This symbiotic relationship between its domestic and international 
aspects is integral to al-Qaeda's nature. The organization has always 
benefited, and at times suffered, from the activities of those inspired 
by its ideology or the plots of its affiliates. The very idea of al-
Qaeda is rooted in a transnational vision of global jihad defined by 
its ideology, and has been embodied in the core of the organization 
that operates from Afghanistan and Pakistan. Yet al-Qaeda's fundamental 
constitution is built upon local, homegrown organizations. From al-
Qaeda's earliest members from the Islamic Jihad to al-Qaeda in the 
Arabian Peninsula (AQAP), the myriad of organizations in al-Qaeda's 
``diaspora'' are almost exclusively homegrown movements. This fact is 
easy to forget when groups such as AQAP assume a transnational mantle 
with attacks against the U.S. homeland or the Kingdom of Saudi Arabia. 
However, AQAP was born from the conflict in Yemen and ultimately 
remains focused on its goals within Yemen; the same is true of al-Qaeda 
in the Islamic Maghreb or Jemmah Islamiya in Indonesia.
    Seen through this lens, the evolution of domestic actors inspired 
by al-Qaeda does not seem as exceptional as it might otherwise appear. 
However, the qualifying difference between the U.S. experience of 
homegrown terrorism and that of other countries' is the nature of the 
actors in the United States. In many ways, the U.S. manifestation of 
al-Qaeda represents a devolution of the jihadist threat marked by the 
emergence of self-organizing, largely autonomous cells. These cells are 
rarely part of a larger organization, nor have they ever grown into a 
more robust organization such as AQAP. This is due as much to the 
inexperience of the cell members themselves as to the largely 
inhospitable environment in which they operate.d
    This experience is not entirely unique to the United States. Europe 
has witnessed far greater levels of jihadist activity than the United 
States has, yet important differences separate the two. First, al-Qaeda 
and like-minded organizations have long-established support networks 
throughout Europe that have created a much more fertile environment for 
recruitment than in the United States. Prior to 9/11, Osama bin Laden 
and others were openly supported by select community and religious 
organizations, and in 2006, the then-head of Britain's MI-5 
intelligence service noted that they were tracking 1,600 suspects in 
over 200 cells.\5\ The sheer scale of jihadist activity, the diversity 
of groups, and the largely permissible environment prior to 9/11 within 
the European context created vastly different conditions for the 
emergence of homegrown activities after 2001 than in the United 
States.\6\
---------------------------------------------------------------------------
    \5\ Alan Cowell, ``Blair Says Terrorist Threat to Last a 
Generation,'' New York Times, 10 November 2006.
    \6\ This is not to suggest that the United States did not see its 
own ``open'' activities. Some estimates put the number of U.S. 
residents who participated in Afghanistan, Bosnia, or Chechnya jihads 
ranging from 1,000 to 2,000. See Congressional Research Service report 
titled ``American Jihadist Terrorism: Combating a Complex Threat,'' 7 
December, 2010. Furthermore, Abdullah Azzam and Gulbuddin Hekmatyr, 
founder of the HiG in Afghanistan, made repeated recruiting trips 
through the United States--the latter doing so both during and after 
the end of the Afghan-Soviet war--to recruit U.S. residents.
---------------------------------------------------------------------------
    The emergence of homegrown terrorism in the United States cannot be 
examined in a vacuum. As noted above, homegrown extremist activity in 
the United States is both a product of the external environment and a 
driver of such activity. It is the interplay of international and 
domestic plots that shapes the radicalization and mobilization of 
domestic audiences through four distinct but related dimensions of the 
al-Qaeda-inspired threat:
    1. Threats targeting the United States that originate externally to 
        the United States;
    2. Individual al-Qaeda-inspired violent extremists in the United 
        States, proceed overseas to receive training or material 
        support and return to the United States to conduct attacks or 
        support al-Qaeda-inspired activity;
    3. Violent extremists who radicalize within the United States but 
        travel and remain overseas to participate in the global jihad;
    4. Individuals who radicalize and remain within the United States.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The examination of threats originating externally to the United 
States may appear counterintuitive in studying domestic terrorism. 
However, the communicative aspects of terrorist violence are equally 
important, if not more important, than the physical results. Such 
exogenous terrorist attacks demonstrate that al-Qaeda (the 
organization) remains relevant, that the United States remains an 
important target and that success is measured in terms beyond the 
actual destruction of a target. These plots both demonstrate to others 
that security measures are not impenetrable and inspire them to act.\7\ 
While the mobilization of recruits in the United States is not the 
primary purpose of such attacks, it is an important by-product of this 
system of violence. Of the 15 cells in this category since 1993, the 
four most or nearly successful post-9/11 attacks centered on aviation 
targets.\8\ This category included the most complex plots as measured 
in the data set.\9\ Each of these attacks that originated external to 
the United States involved explosives and none of the targets selected 
in the post-9/11 era were military targets.
---------------------------------------------------------------------------
    \7\ Perhaps nowhere is this more clearly on display than in Inspire 
magazine, where the authors celebrated the success of Umar Farouk 
Abdulmutallab in penetrating airline security to inspire others to act.
    \8\ For the purposes of this study, successful plots included those 
that alluded interdiction but where the device failed to detonate as in 
the example of the Christmas day bomber. This conclusion will be 
controversial to some, yet the fact that this sub-category of plots was 
successful in moving to execution phase without disruption by law 
enforcement is a success.
    \9\ Complexity was measured as a combination of factors including 
nature of the target (hard or soft), attack modality, target selection, 
group size, etc., to gauge the degree of complexity involved across the 
data set.
---------------------------------------------------------------------------
    The second dimension of the framework concerns individuals who 
radicalize to violence inside the United States and desire to 
participate in the global jihad. These individuals vary in terms of 
experience, background, and connections with overseas jihadist 
networks, yet are consistent in their desire to gain an authentic 
experience and in their desire to fight against U.S. and coalition 
forces in Afghanistan. However, once they enter the foreign terrorist 
networks the individuals in this category are convinced that their true 
value rests in returning to the United States and conducting an attack 
in the homeland. In total, there have been 12 cells to date in this 
dimension, all occurring in the post-9/11 environment. Eight of the 12 
were connected to al-Qaeda's core organization and four were connected 
to al-Qaeda's affiliated organizations. The greatest density of these 
plots occurred between 2008 and 2011.\10\ Six of the 12 cells attacked 
a total of eight civilian targets, and only one cell targeted the U.S. 
military in the homeland--a successful attack against a Little Rock 
Armed Forces Recruiting Station. This strongly suggests that the 
networks training these individuals value civilian targets more than 
military targets and seek to inflict damage in a large-scale attack. Of 
the seven plots where the particular tactics were known, five planned 
to use explosives. The plots in this group range are among the most 
complex within the data set, reflecting an investment by al-Qaeda in 
these cells with the intention to stage spectacular attacks inside the 
homeland.
---------------------------------------------------------------------------
    \10\ There were four individuals total in this period: Vinas, 
Bledsoe, Zazi, and Shahzad.
---------------------------------------------------------------------------
    The third category involves U.S. residents who travel overseas to 
participate in the global jihad and do not return to the United States. 
These cases range from the Somali youths from Minneapolis who joined 
al-Shabaab as foot soldiers to Adnan G. El Shukrijumah, an American 
from Florida, who has risen to become one of al-Qaeda's external 
operations planners. These individuals provide significant value to al-
Qaeda. At the simplest level, U.S. residents who join the al-Qaeda 
provide significant propaganda value for the movement and its claims 
against the United States and the West. While such individuals are 
limited in number, it is the others that are of greater concern--those 
individuals who, produce propaganda or serve in more senior operational 
roles. The ``Americanization'' of jihad that has occurred over the past 
4 years has altered the threat environment and has direct implications 
for domestic radicalization. Much in the same way that prospective 
members of any group want to join an organization that is viable and 
relevant, individuals are far more likely to join an organization if 
they see people like themselves in that organization. American al-Qaeda 
members provide this example, help tailor al-Qaeda's narrative to 
appeal to domestic audiences and inspire others to join the jihad. 
These individuals do more to make the al-Qaeda's narrative relevant to 
domestic audiences than any other factor within al-Qaeda.
    The final grouping concerns those individuals who radicalize and 
mobilize within the United States but do not travel abroad for 
training, receiving very little if any support from broader jihadist 
networks. Since 9/11 there have been 46 plots in this category, 
involving 85 individuals. These individuals present the greatest 
challenge to the law enforcement and intelligence communities. In each 
plot, the members were autonomous adherents to al-Qaeda's ideology. 
That is to say, they lacked any formal connections to extremist 
networks. Furthermore, 30 of the 46 plots were perpetrated by lone-wolf 
actors. Perhaps not surprisingly, this category realizes the most 
success of any in successfully carrying out terrorist attacks (8 of 
46). The reasons for this are simple: Lone-wolf actors present a lower 
profile, making detection more difficult as they do not have to pass 
through customs or trigger terrorist watch lists, allowing them to hide 
in plain sight. In general they represent the least complex terrorist 
plots of the four categories; in addition, and six of the eight 
successful plots utilized firearms greatly simplifying the nature of 
attack.\11\
---------------------------------------------------------------------------
    \11\ The other two plots utilized vehicles as weapons--also a very 
simply attack modality.
---------------------------------------------------------------------------
    The degree of interplay between these categories is impossible to 
quantify, yet the fact that there is interaction between these four 
dimensions of the homegrown terrorist threat is undeniable. Locating 
the domestic threat within this system of violence, and addressing that 
it is both a product of the broader dynamics as well as a contributor 
to this system creates a unique opportunity to analyze new 
radicalization patterns, capture the dynamic of the threat through a 
different lens and examine in detail the disruption and interdiction of 
these plots.
    Through all of this a perplexing question remains: Why, as the core 
of al-Qaeda is increasingly constrained and discredited as a viable 
organization, is the domestic jihadist activity on the periphery of the 
movement becoming increasingly active in the United States? From a 
practical perspective, this state of affairs seems somewhat counter-
intuitive. To accept significant personal risk in joining a vibrant or 
successful terrorist movement presents a fairly high barrier to entry. 
However, accepting those risks for an organization that appears to be 
waning and whose viability is in question seems even more difficult to 
understand. Two explanations seem to offer insight to this paradox. 
First, the fact that 170 people have radicalized within the United 
States in the post-9/11 environment points to the relevance and appeal 
of al-Qaeda's narrative even if to a select, narrow group. Second, the 
data are almost certainly a lagging indicator of the accumulation of a 
more sophisticated and targeted narrative, the perceptions of a 
protracted conflict and the evolution of an al-Qaeda diaspora. The 
emergence of homegrown terrorism and the targeting of U.S. military 
forces requires a renewed examination of the nature of radicalization 
and the changing nature of autonomous radicalization--a process that 
today occurs largely in isolation from direct connection with external 
networks, creating new challenges for law enforcement and intelligence 
communities to detect, prevent, and deter homegrown terrorism.

                        RADICALIZATION REDEFINED

    The rapid rise of homegrown terrorism in the past 3 years has 
triggered discussion about the extent and nature of radicalization 
within the United States. While the numbers of homegrown terrorists are 
small, al-Qaeda's ability to inspire and animate residents of the 
United States to join or act on behalf of al-Qaeda is unquestioned. On 
its surface, the appeal of al-Qaeda's narrative to U.S. residents is 
perplexing. Muslims living in the United States have a far higher 
degree of socio-economic attainment than in many other countries; do 
not face the same assimilation or integration dilemmas experienced in 
other locations, and while they have experienced some levels of 
discrimination after 9/11, have been largely accepted in this 
country.\12\ This paradox is further complicated by an apparent shift 
in the nature of radicalization whereby peripheral actors are joining 
the movement with little contact to physical networks.
---------------------------------------------------------------------------
    \12\ The Muslim West Facts Project, Muslim Americans: A National 
Portrait. Washington, DC: Gallup, Inc., 2009, 13.
---------------------------------------------------------------------------
    Despite large numbers of studies focusing on radicalization, it 
remains one of the most opaque issues within the terrorism studies 
field. The sheer diversity of backgrounds and motivations to join 
violent extremist movements complicates any attempt to draw detailed 
conclusions as to the reasons people accept such risks. Gerald Post, 
one of the most noted scholars of terrorism psychology, cautions that 
efforts to provide an overall ``terrorist profile" are misleading, 
writing that ``There are nearly as many variants of personality who 
become involved in terrorist pursuits as there are variants of 
personality.''\13\ For instance, within the domestic al-Qaeda-inspired 
population there are individuals who are educated and uneducated; those 
who are immigrants, first generation, second generation, and native-
born participants; those who are employed and those who are unemployed 
and the list goes on. Even within cells there is wide variance between 
members. The Northern Virginia or ``paintball'' cell (a Lashkar-e-Taiba 
cell) is a prime example. The cell included three Arabs, three South 
Asians, one Korean, two African Americans, and two Caucasians. Of 
those, six were born into Muslim families whereas the other five were 
converts to Islam. Finally, six of the members were native-born, two 
were naturalized citizens, and the remaining three were permanent legal 
residents.
---------------------------------------------------------------------------
    \13\ Gerald Post, ``Current Understanding of Terrorist Motivation 
and Psychology: Implications for a Differentiated Antiterrorist 
Policy,'' Terrorism 13, no. 1 (1990), 65-71.
---------------------------------------------------------------------------
    The reality of this situation presents significant challenges to 
the understanding of radicalization, its causes and the mobilization to 
violence, leaving most models to reflect only the most general 
qualities as markers of the radicalization process. Most descriptions 
include elements such as an affiliative need to belong to contribute to 
something larger than him or herself (or alternatively a desire for 
adventure); disaffection with his or her current situation; 
identification with both the victims of state oppression and the 
terrorist cause (both become personal and motivate action); a belief 
that violence is a moral response; and finally, that the individual has 
a duty to act.\14\ The overwhelming generality of these characteristics 
makes it difficult to discern or identify the triggers that lead a 
person from sympathizing with a cause to activist behavior and finally 
to violent action.
---------------------------------------------------------------------------
    \14\ These factors are adapted from John Horgan's ``From Profiles 
to Pathways and Roots to Routes,'' Annals of Political and Social 
Science (The ANNALS of the American Academy of Political and Social 
Science, 2008) 618: 85.
---------------------------------------------------------------------------
    Research suggests that radicalization is a fluid process, one in 
which participants may enter, exit, or re-enter at different points in 
time and the commitment of an individual to a group typically occurs in 
stages. It is important to note that the factors driving 
radicalization--in other words--why someone joins a terrorist 
organization--are distinct from those affecting retention in a 
terrorist organization. Commitment to a movement does not last on its 
own accord and must be maintained in some manner such that the 
individual's participation in a terrorist organization remains 
satisfying.\15\ Ultimately, the outcome of the radicalization process 
involves the subordination of previously-held identities with the new 
identity as a member of an extremist organization. Issues that were 
once peripheral move to the center of an individual's world, replacing 
previously-held value systems and world outlooks. For instance, an 
individual no longer sees himself as an American but rather sees his 
service to a greater cause.
---------------------------------------------------------------------------
    \15\ As one study of social movements noted: ``Leadership, 
ideology, organization, rituals, and social relations which make up a 
friendship network each contribute to sustaining commitment and the 
most effective is, of course, a combination of all five.'' Klandermas 
Bert, ``Disengaging from Movements,'' in Jeff Goodwin and James Jasper 
(eds), The Social Movements Reader: Cases and Concepts (Malden, MA: 
Blackwell Publishing, 2003), 16.
---------------------------------------------------------------------------
    Successful mobilization to violence hinges upon an organization's 
ability to communicate an ideology that is relevant and meaningful to 
the target audience. The past decade of conflict and shifting world 
events have challenged al-Qaeda's ability to keep its narrative 
relevant to the wide variety of its audiences--internal supporters, 
those it would like to attract to the movement and those the movement 
opposes--all while operating in an extremely contested environment. 
However, its relatively sophisticated media efforts, including ``news'' 
releases, direct messaging from movement leaders, the revisiting of 
historical events and the creation of interactive forums, have enabled 
the organization to target these various audiences in a fairly 
sophisticated manner.
    Radicalization is best understood as occurring along a continuum of 
interaction between an organization and a recruit. At one end are cases 
in which a recruit is directly connected to the movement by ideological 
entrepreneurs with whom he has personal contact. At the other end are 
cases in which a recruit actively seeks or encounters information and 
ideas from an extremist movement but lacks direct personal contact. The 
difference between the members of the Hamburg Cell who formed the core 
of the 9/11 plot and Major Nidal Hasan's contact with an jihad 
ideologue is reflective of this continuum--presuming, for the purposes 
of this paper, that Hasan was motivated by the al-Qaeda's ideology. In 
the former case, Mohammed Atta and three colleagues attended the Quds 
mosque in Hamburg, Germany, in which a radical cleric routinely 
discussed violent jihad.\16\ In the Fort Hood case, that role was 
fulfilled by a U.S.-born Yemeni cleric whose sermons in English 
extolled the virtues of the al-Qaeda narrative.\17\ The only difference 
between the two radicalization types is that in a ``self-
radicalization'' event, it is necessary for the individual to initially 
have a higher degree of commitment to the cause than an individual who 
is engaging in direct personal contact with the group or movement. In 
other words, direct contact with committed group members can make it 
possible for individuals who are less committed at the onset to become 
more firmly radicalized than he might become on his own.
---------------------------------------------------------------------------
    \16\ The 9/11 Commission Report, New York: Norton, 2003, 164.
    \17\ Hearing Before the Committee on Homeland Security and 
Governmental Affairs, U.S. Senate. 2009. 111th Cong, 1st sess.; Also 
see Michael Leiter, Director, National Counterterrorism Center, Remarks 
at Aspen Institute's ``The Terror Threat Picture and Counterterrorism 
Strategy,'' 30 June 2010.
---------------------------------------------------------------------------
    This phenomenon of self-organizing, autonomous radicalization 
became extremely pronounced in the United States after 2001. Since 9/
11, U.S. law enforcement has severely constricted the environment in 
which radicalizing and mobilizing networks can operate. By doing so, 
they have essentially isolated the would-be-terrorist, forcing them to 
actively seek out materials on-line to expose themselves to these 
views. In other words, absent a peer network or other direct 
assistance, the individual must proactively engage the ideas to commit 
themselves to the radicalization pathway. Of the homegrown terrorists 
that radicalize and remain in United States, as opposed to those who 
radicalize and go abroad to fight, 56% (26 of 46 cells) of the cells 
radicalize in near-complete isolation from al-Qaeda or its affiliated 
networks--either physical or virtual. When considering all of the 
homegrown cells in totality, 44% of these cells are largely 
disconnected from jihadist networks and move through the radicalization 
process in isolation. The explanation for the lower figure is simple. 
The second number includes domestically radicalized individuals who 
seek to fight abroad and, with few exceptions, it is necessary for 
these cells to make contact with a network to successfully engage in 
the broader global movement.
    In an effort to continue to drive radicalization in the United 
States (and the West in general), al-Qaeda and its affiliates have had 
to specifically tailor their message to reach the ``self-radicalizing'' 
audience. This is especially important as the vast majority of cells 
that have radicalized and remained in the United States since 
9/11 are lone wolf plots (65%). Inspire magazine is one of many 
examples of this type of media that has been produced over the last few 
years. Created by Samir Khan and Anwar al-Awlaki, two American 
citizens, Inspire magazine served a unique function as each issue 
provided both ideological instruction and tactical know-how to the 
aspiring domestic jihadist.\18\ Prior to the establishment of Inspire 
magazine, most of al-Qaeda's materials were ideological, motivational, 
or tactical in nature. The combination of these dimensions in single 
product was an evolutionary step for al-Qaeda's outreach and 
recruitment efforts functionally providing a one-stop reference to 
interested parties.
---------------------------------------------------------------------------
    \18\ These individuals prominently figure in the creation of the 
publication and are listed in the publication numerous times.
---------------------------------------------------------------------------
    A recent plot that was fueled by Inspire magazine was the 2011 Ft. 
Hood bomb plot. In an early issue of Inspire magazine, Anwar al-Awlaki 
praised Nidal Hasan for the 2009 Fort Hood shooting that killed 13 and 
injured 32 military personnel. This previous attack and subsequent 
validation by Anwar al-Awlaki, fueled Army PFC Naser Jason Abdo to plot 
a similar attack near the same post. His plan was to detonate two 
improvised explosive devices inside a restaurant popular with military 
personnel and to shoot those fleeing the attack. This plot was 
developed by Abdo in almost complete isolation. When the FBI 
interdicted the plot they discovered bomb-making materials and a copy 
of Inspire magazine containing an article entitled, ``Make a Bomb in 
the Kitchen of Your Mom.'' He was reported to have been using the exact 
recipe found in the magazine to construct his improvised explosive 
devices.\19\
---------------------------------------------------------------------------
    \19\ United States of America v. Naser Jason Abdo, Criminal 
Complaint. Western District, TX, 2011, 1-2.
---------------------------------------------------------------------------
                        THE MILITARY AS TARGETS

    As the decade of conflict has evolved, the predominant target of 
choice for homegrown terrorists in the United States has become the 
U.S. military. Nearly 50 percent of all plots in the homeland since 9/
11 (41 of 87 plots) considered targeting U.S. military personnel. In 
one sense, the military focus is perhaps an obvious choice by those 
aspiring to participate in the global jihad. To an al-Qaeda adherent, 
the U.S. military represents the manifestation of American foreign 
policy more so than any other target choice as the military--in al-
Qaeda's narrative--is responsible for the oppression and humiliation of 
Muslims in Afghanistan, Iraq, and Yemen, among other locations.
    The targeting of U.S. military forces within the homeland presents 
a unique and perhaps qualitatively different target set than 
transportation infrastructure, religious, or other civilian entities. 
The perception that the military is to blame for the plight of Muslims 
abroad is overwhelmingly privileged in al-Qaeda's propaganda from 
Inspire magazine to recruiting videos featuring improvised explosive 
devices killing U.S. soldiers. This portrayal of U.S. military forces 
as war criminals and the accompanying call for reprisals create a 
compelling narrative for those seeking to define their participation in 
the fight.
    However, there is a more subtle dimension to the selection and 
justification of the military as a preferred target, but one that is 
equally important to consider. For many homegrown terrorists, attacking 
the military may well represent a choice that is ``easier'' to overcome 
in terms of the moral barriers of targeting symbols of U.S. foreign 
policy rather than the shopping mall, restaurants, or public spaces in 
which he or she may have frequented with his or her friends. The social 
distance between a terrorist's individual experiences and the military 
is in most cases far greater than that of other potential targets, 
making it easier to objectify military targets. Abdul-Latif, the 
perpetrator of the planned attack against the Seattle Military Entrance 
Processing Station captured this sentiment best: ``The key thing to 
remember here is, is we are not targeting anybody innocent--that means 
old people, women out of uniform, any children. Anything. Just people 
who wear the green for the kaffir Army, that's who we're going 
after.''\20\
---------------------------------------------------------------------------
    \20\ Complaint at page 31, US v. Abdul-Latif, et ano., No. MJ11-292 
(W.D. Wash., 2011).
---------------------------------------------------------------------------
    Finally, while any al-Qaeda-inspired attack within the United 
States is a high-profile event for both the violent extremists and the 
citizens of this Nation, successful attacks against the military in the 
homeland represent a particularly unique event. Government agencies 
including military garrisons, recruiting stations, and law enforcement 
offices, have long been considered primary and important targets by 
terrorist groups around the world. Not only does the targeting of these 
agencies seek to interfere with the execution of Governmental affairs, 
but as instruments of National power, these targets serve an expressive 
purpose as well as an instrumental one. The symbolic value of targeting 
military or law enforcement is significant. Such attacks demonstrate a 
degree of power by the terrorist, seek to draw attention to structural 
violence by the state serving an agenda-setting function and, finally, 
hope to deter others from supporting the Government.
    All of these factors are at play with al-Qaeda-inspired violence in 
the homeland targeting military facilities, yet there is still another 
dimension. Violence against service members in their barracks, offices, 
or with their families shocks the National conscience in ways that 
combat deaths do not. This is not to say that combat losses mean less 
than a soldier killed during a homegrown terrorist attack, but rather 
that the effect of these events in the press and National psyche 
differ: Soldiers are supposed to be safe when at home, they are not 
supposed to die from a terrorist's bomb or rifle.\21\
---------------------------------------------------------------------------
    \21\ For example, in a Google News search that ranges 90 days from 
two incidents, the November 2009 Fort Hood shooting and the August 2011 
Chinook crash that killed U.S. Navy SEALs in Afghanistan shortly after 
the raid that killed Osama bin Laden, the number of articles 
referencing the Fort Hood shooting outnumbered the Chinook crash by a 
factor of 7:1.
---------------------------------------------------------------------------
    In examining the threat to military forces in the homeland, it is 
important to note that most analyses under-represent the scope and 
dimensions of the threat by homegrown, al-Qaeda-inspired terrorists. A 
cursory look at the data would indicate that there have ``only'' been 
18 attacks that directly target U.S. military forces within the United 
States; 14 of those have occurred since 2007. This is a significant 
number to be sure, however, these numbers do not reflect the totality 
of interest in targeting U.S. military forces amongst the domestic 
jihadi population. A broader look at the issue reveals two other groups 
requiring examination. The first focuses on those homegrown extremists 
that sought to fight U.S. forces abroad. Ten cells actually 
accomplished this and 13 others intended to do so. This group is of 
primary concern. When these cells leave the United States with the 
purpose of engaging in classical jihad against American military forces 
they enter the ``black box'' of jihad in which they can be directed 
towards a myriad of different targets. Some of the largest threats 
America has faced in recent years from homegrown extremists have 
occurred when individuals' interest was redirected after arriving 
overseas or planned on returning to the United States to conduct an 
attack. Faisal Shahzad, the Times Square bomber, arrived in Pakistan 
intent on joining the Pakistani Tehrik-i-Taliban (TTP) in the hopes of 
fighting American military forces in Afghanistan. The TTP leadership 
quickly recognized that his value was far greater if he were trained 
and redirected to carry out a terrorist in the United States. Although, 
Shahzad's limited training prevented him from designing a successful 
car bomb, his ability to avoid detection and to place the bomb in Times 
Square on a busy Saturday evening was a blow to Americans' perception 
of security.
    The second group to evaluate is those individuals within the United 
States that considered attacking military forces in the homeland but, 
for whatever reason, changed course as they moved forward. This group 
includes an additional eight plots. Military targets were the first 
step in their vision of participating in the global jihad with the 
homeland given the strong symbolism of U.S. military targets. While 
these cells ultimately did not select a military target, the numbers 
reflect a strong interest in doing so. Together, this expanded look at 
the data reveals 49 cells over the past decade planned to, or desired 
to, attack U.S. military forces. This represents more than half (56%) 
of the total number of cells (87) in the data set. The more pressure 
al-Qaeda's core is subjected to, the more difficult it will be for 
people in the United States to connect with foreign networks overseas. 
While it is impossible to know for certain if these cells would have 
selected military targets had they been unable to travel to Pakistan, 
the primacy of the U.S. military as a target for al-Qaeda's adherents 
is likely to remain steady for some time to come.
    Any examination of al-Qaeda's targeting of homeland military forces 
must include a discussion of what has colloquially become known as the 
insider threat.\22\ The effect of these actors on the military is 
perhaps more divisive and damaging than attacks against military 
targets staged by external actors. At the tactical level, insiders also 
have the potential to do more harm than external threats given their 
knowledge of installations, schedules, and ability to gain access to 
areas that would be restricted to civilians. At the organizational 
level, insider threats tear at the social fabric of an organization and 
make people question the patriotism of those serving next to them. At 
the strategic level, these attacks provide al-Qaeda with immense 
propaganda value and, in one sense, these actors are the ultimate prize 
for al-Qaeda. The rejection of the values that their uniforms stood for 
and an abandonment of the oaths they swore validate al-Qaeda's 
narrative in a way that no other domestic, homegrown radicalized 
individual could hope to achieve. Simply put, the potential effects of 
the insider threat are grossly disproportionate to the extremely small 
number of these cells. The characteristics of the insiders reveal four 
interesting trends.
---------------------------------------------------------------------------
    \22\ For the purposes of this study, the insider threat includes 
active-duty service members, Government civilian employees, military 
contractors, Reservists or National Guard members and former military 
members. This expansive definition permits the inclusion of the threats 
that have unique knowledge about military installations, patterns of 
behavior, access requirements, and can use that knowledge to gain 
advantages external actors would not otherwise possess.

    1. The radicalization process for all individuals took place in 
        near-isolation and was passive in nature. The contact with 
        outside extremists was exceptionally sparse and often over 
        email. For example, Abujihaad maintained limited correspondence 
        with two subjects and through these individuals, disseminated 
        sensitive data but he lacked direct ties with these subjects. 
        Abdo, Akbar, and Anderson also appeared to lack any meaningful, 
---------------------------------------------------------------------------
        direct communication with extremist networks.

    2. Related to the first dynamic, the individuals that engaged in 
        physical attacks were exclusively lone-wolf actors. Whether the 
        decision to act alone resulted from lack of access to extremist 
        networks or resulted from a strategic choice (or social 
        disposition) is not known--but the lack of contact with 
        external networks significantly limit the opportunity for 
        detection and interdiction.

    3. The strong degree of isolation of the actors is strongly 
        correlated to a low level of plot complexity. Again, it is 
        largely impossible to discern the actors' intent or attack 
        preference but given the attack profiles, it is clear they 
        favored the readily available rather than intricate mass-
        casualty tactics. Despite the desire of two individuals to use 
        explosives, firearms were the preferred tactic of four of the 
        six in this group.

    4. In the two mass casualty attacks, target selection evidenced the 
        value of knowledge and access of an insider. Insider threats 
        are not dangerous solely because of their access--which is 
        crucial--but it is the combination of access with knowledge of 
        the organization, time schedules, and vulnerable points that 
        enable plots to become significantly more dangerous than they 
        otherwise might be.

    By design or happenstance, these attackers produced significant 
``psychological anxiety'' (in the words of Abujihaad) within the U.S. 
military. It is all too easy to forget that, at its fundamental level, 
terrorism is about the psychology of fear. Targeting of the military, 
either from the inside or external to the Armed Forces, presents 
uniquely different outcomes than exist in other quarters. This is not 
to say these attacks mean more or have a greater impact than similar 
deaths among civilian communities but rather to suggest that the 
prevalence of interest among homegrown extremists to target the 
military is a persistent issue that must be taken seriously.

                               CONCLUSION

    While domestic violent extremists have only realized limited 
success in the United States, the initial data presented here paint a 
picture of a greater threat than many realize. However, the potential 
physical violence from these aspiring cells is only one dimension of 
the threat. The radicalization and mobilization to violence of U.S. 
citizens tears at the fabric of society in a way that attacks 
originating from Yemen or Pakistan do not. Xenophobic responses to 
these incidents foster mistrust of Muslim diaspora communities and risk 
creating the very conditions that work against counterterrorism efforts 
in which communities turn inward and cooperation with law enforcement 
officials is reduced. Effective intelligence and law enforcement 
efforts to detect and disrupt homegrown cells are critically necessary 
but are not sufficient to fully addressing the problem of homegrown 
extremism. Law enforcement efforts must be coupled with programs to 
counter violent extremism to ultimately foster inhospitable conditions 
for the emergence of al-Qaeda-inspired extremists within the United 
States.

    Chairman King. Thank you, Colonel Sawyer. Also thank you 
for your prepared statement, which I read last night. It was 
really a treatise on terrorism. Thank you very much.
    Secretary Stockton, in your prepared testimony, and also in 
an article you wrote entitled ``Ten Years After 9/11: 
Challenges for the Decade to Come,'' you said, among other 
things, al-Qaeda in the Arabian Peninsula is actively 
recruiting U.S. military personnel to conduct lone-actor 
attacks on U.S. military targets. How significant do you 
believe the threat is from within the military, and how 
successful has al-Qaeda been at recruiting members of the 
American military?
    Mr. Stockton. The primary threat to security at home comes 
from al-Qaeda, its affiliates like al-Qaeda in the Arabian 
Peninsula, and its adherents. We take very seriously the 
continuing efforts by AQAP and other al-Qaeda components to 
recruit members of the United States military, to inspire 
others to attack U.S. military facilities and communities, and 
it is an issue that we take very seriously. It is my focus in 
order to build the policies, the training programs, everything 
else that we need in order to defeat this threat, because those 
recruitment efforts are on-going. Again, this is a persistent 
threat, it is an enduring threat, it is an evolving threat that 
we need to stay in front of.
    Chairman King. Secretary Stockton, we are in open session, 
so I am not going to ask for precise numbers, but are there 
cases within the military right now involving prospective 
jihadists and terrorists that you are aware of or monitoring?
    Mr. Stockton. I welcome the opportunity to answer that 
question in closed session.
    Chairman King. Okay.
    Senator Lieberman, we will go into closed session at the 
end of the second panel. All right. We will reconvene in closed 
session. Thank you very much.
    Mr. Stuteville, as Senator Collins mentioned, during the 
1990s, when there were white supremacist attacks within the 
military, when there were right-wing extremist attacks carried 
out within the military, the military made it clear that right-
wing extremists and white supremacists were those who carried 
out the attacks, and those ideologies were identified. Yet it 
appears that the ideology of violent Islamist extremism is not 
identified by name, including in your most recent documents. So 
I would ask why does the Army now believe that it should not 
identify who the enemy is when it was particularly appropriate 
to identify the enemy 16, 17 years ago?
    Mr. Stuteville. Sir, after the tragic attacks at Fort Hood, 
the Army made the decision based upon the Department of Defense 
guidance to revise our AR 3D1--Army Regulation 3D1-12, the 
Threat Awareness and Reporting Program. When we rewrote that 
regulation, we changed the focus from--the older version of 
that regulation was a Cold War-focused, espionage-focused 
regulation. When we updated this regulation, we included 
updated indicators of espionage, updated indicators of 
international terrorism, and updated indicators of extremist 
activity, which was a first for the Army in addressing that 
particular problem in this manner. These indicators, though, 
are focused on behavioral activity, not on any specific 
ideology, religion, or ethnic group. We have adopted that 
approach because we want to make sure that we can account for 
any type of threat, both those previously and those in the 
future. So focusing on the behavioral activity is how we have 
looked at doing this.
    Chairman King. Mr. Stuteville, if we are relying on 
behavioral analysis and ignoring a person's ideology, the fact 
is, as Senator Lieberman said, the enemy here is extreme, 
violent Islam, a small minority, a tiny minority, but the fact 
is they are not rallying toward Christianity, or Judaism, or 
atheism, or Buddhism, or Hinduism. The particular enemy today 
comes from a very violent form of Islam. Just as in the 1990s 
there were white supremacists, and there were skinheads, and 
there were Klan members, and it seemed the military never 
hesitated in targeting that enemy and identifying that enemy, 
yet it appears that, for instance, again, in this new Threat 
Awareness Reporting Program--you know, yes, I am not saying we 
go back to the Cold War, but the fact is white supremacists, 
that was not the Cold War; that was a particular virulent 
ideology that was, I believe, rightly and correctly and 
effectively attacked by the military. It appears as if today we 
are being politically correct by not identifying who the target 
is. I would say the same thing if we were talking about Irish 
Catholics who were carrying out attacks. Identify them. Say who 
they are.
    I think we are sort of being too politically correct here, 
and I find that very frustrating. I will give you an 
opportunity to answer that.
    Then also my final question, and then I will be out of 
time, will be we have learned, the committee staff, that, for 
instance, in barracks that Inspire magazine is available to 
members of the Armed Forces. Now, was that just an aberration? 
Is that policy? Because I know, for instance, people can't fly 
Confederate flags or Nazi flags in a barracks, and yet Inspire 
magazine is the propaganda organ of the enemy, and a number of 
us, including myself, have actually been named in that magazine 
by al-Qaeda in the Arabian Peninsula.
    So I would ask you to answer the specific question 
regarding Inspire, and also why this change in policy to go 
from naming an ideology to ignoring the ideology.
    Mr. Stuteville. Sir, I will answer your question about 
Inspire magazine. Sir, regarding Inspire magazine, yes, sir, 
there are soldiers--we have documented incidents where soldiers 
have gone on line and gotten Inspire magazine. In our current 
AR 3D1-12, Threat Awareness and Reporting Program, which I 
referred to earlier, we requested the behavioral indicators 
that we have identified in our table 3.3 on extremist activity, 
that is one of those behavioral indicators that we want 
soldiers to report when they observe other soldiers reading 
Inspire magazine either on-line----
    Chairman King. If it is reported, is the person allowed to 
keep it in the barracks and it is just put up as one more 
indicator, or is it removed?
    Mr. Stuteville. Sir, if it is reported to the 
counterintelligence authorities, we will investigate to 
determine if there is a logical reason for the soldier to have 
the magazine. If he is associated with terrorist activity or 
other activity that is deemed not supportive of the Army 
values, then obviously we will deal with the situation. But the 
bottom line, there are sometimes intelligence analysts and 
others who read Inspire magazine for logical reasons, and that 
is what we would want to determine.
    Mr. Stockton. Mr. Chairman, could I briefly speak to the 
larger policy questions here? We know who the adversary is. The 
primary threat is al-Qaeda and its affiliates. Everything that 
we are doing in terms of primary focus of our efforts 
concentrates on that threat. So when you look at the interim 
guidance issued by former Secretary Gates, and we provide this 
overall policy to each of the Armed Services, expressing 
sympathy or support for a violence-promoting organization, 
associating with terrorists, having a copy of Inspire magazine 
under your desk, these are behavioral indicators that we apply 
and focus on the primary threat. We are not at war with Islam; 
we are at war with al-Qaeda, its affiliates, and its adherents. 
That is how we concentrate our effort.
    Chairman King. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I want to ask two questions that come off of the report 
that our Senate committee did after our extensive investigation 
of the killings at Fort Hood. The first builds on what Chairman 
King has just been pursuing. We found, I will go into this 
briefly, that Major Nidal Hasan had made statements, either 
informally in the presence of fellow members of the U.S. Army 
or actually in one case in a lecture he gave to other members 
of the Army at Walter Reed, which were incendiary, provocative, 
talking about really showing that he had radicalized to violent 
Islamist extremism. Yet none of the personnel in the Army who 
heard those statements reported them or attempted to do 
anything to raise a question about whether this individual 
really should be in the U.S. Army before he did somebody great 
damage. So one of the recommendations in our report was that 
the Pentagon begin to train members of the U.S. military in 
signs of radicalization to Islamist extremism, both obviously 
to protect the safety of members of the military from another 
incident like Fort Hood, but, frankly, also to protect the 
religious observance of the thousands of Muslim Americans who 
serve honorably in our military so that people could be able to 
tell the difference.
    I mean, I think part of what we heard in our investigation 
was that some of the reason why people who heard Hasan say 
these outrageous, violent things weren't sure whether it was--
that was really Islam, or he had politicized Islam may have 
also been that they just didn't want to create a problem, so 
they turned away from it.
    But I am concerned that the Pentagon has not implemented 
that kind of training program, which is not only in the 
interests of securing the hundreds of thousands, millions of 
Active and Reserve and Guard, but also in protecting the 
thousands of Muslim Americans in the military.
    Secretary Stockton, you want to take a try at that?
    Mr. Stockton. Chairman, I would, and then I would like to 
turn it over to Mr. Stuteville to talk about how the Army is 
applying overall guidance.
    We agree that it is critical to continue to ensure that our 
supervisory personnel in the military can recognize signs of 
radicalization. The interim guidance issued by former Secretary 
Gates takes us a long way in that regard. Indeed, many of the 
behavioral indicators retrospectively look back at the obvious 
warning signs, the red flags that should have been going off 
before, prior to Fort Hood, that now we can prospectively look 
forward, and again continue to refine these training tools so 
that our supervisors are able to monitor and detect and then 
effectively intervene when, for example, military personnel 
espouse violent ideology, when they praise an extremist group 
abroad, and, above all, when they attack American values.
    But I would like to turn it over to Mr. Stuteville to talk 
about----
    Senator Lieberman. So is there a training program of that 
kind going on now either for all military personnel or at least 
for supervisors?
    Mr. Stockton. Yes, sir. I think if I could turn it over to 
Mr. Stuteville to talk about how the Army is applying it, then 
I could have some additional thoughts to share on the other 
services.
    Senator Lieberman. Go ahead.
    Mr. Stuteville. Sir, after we revised the Army Regulation 
3D1-12, which I referred to earlier in talking to Mr. King, we 
have since gone out and professionalized the training program 
across the Army. So besides putting out the Army regulation, we 
have adopted a professional training program. We train a cadre 
of trainers to be able to present this training in an effective 
way, to be able to tailor the briefings to their audience, 
whether it be a Brigade Combat Team or a group of researchers 
and scientists. We have ensured that there are a number of 
professionally-done vignettes in this training that cover each 
of the behavioral indicators that we put into the new 
regulation.
    If you look at table 3.3 in the Army Regulation 3D1-12, the 
indicators of extremist activity that may pose a threat to DOD 
or disrupt U.S. military operations, you would see that three 
of those indicators that we list in that table, those 
indicators you were talking about reference Major Hasan earlier 
in your question to Secretary Stockton, would have been covered 
under that table 3.3. So in today's regulation, soldiers are 
trained to report these behavioral indicators, and we are 
confident that we would have received reports on those had we 
educated our force properly prior to Fort Hood.
    Senator Lieberman. Okay. I appreciate that answer. That is 
encouraging.
    Let me just ask you a final question, because my time is 
running out. The other question was about what we found to be 
the lack of coordination between the FBI and DOD in the Hasan 
Fort Hood case. In that case it was particularly that personnel 
at the FBI had not really taken action based on emails that 
they knew were going from Hasan to al-Awlaki, the now-dead 
radical cleric in Yemen.
    But I want to ask a different question before my time is 
up. We have more than 5,000 recruiting centers, military 
recruiting centers, in the United States the last time I looked 
at the numbers. The first American killed by a violent Islamist 
extremist here in the homeland after 9/11, after 2011, was 
Private William Long outside an Army recruiting station in 
Little Rock, Arkansas. I want to ask about what the level of 
cooperation is, because these recruiting centers, of course, 
are on Main Streets all across America, they are in shopping 
malls, they are wherever, but these are areas of jurisdiction 
for local and State law enforcement, and perhaps the FBI. So 
just give us a quick answer on what we are doing now to secure 
those recruiting centers of the U.S. military.
    Mr. Stockton. Chairman Lieberman, under the Memorandum of 
Agreement between DOD and the FBI now, we have DOD personnel 
embedded in over 60 FBI JTTFs around the Nation. We have 
liaison relationships with State and local law enforcement in 
all of the communities across the Nation where our recruiting 
centers exist. This is all facilitated by the new eGuardian 
system for sharing of suspicious-activity information that 
local law enforcement have, that our own personnel have, so 
that together they can take the anti-terrorism and force 
protection measures necessary to secure facilities that are 
embedded in our communities, and where local law enforcement 
will always be in the lead. What we need to do is continue to 
strengthen that collaborative relationship in order to secure 
our military communities.
    Senator Lieberman. Okay. My time is up. I thank you. I am 
going to ask you some more particular questions about that for 
the record.
    Thank you, Mr. Chairman.
    Mr. Stockton. I welcome that.
    Chairman King. Thank you, Senator Lieberman.
    Just so people are aware--on the order of questioners, it 
is going to be those who were here when the gavel came down, 
and then after that in order of seniority. We are trying to get 
at it the best we can. So we will go to the Ranking Member, Mr. 
Thompson.
    Representative Thompson. Thank you very much, Mr. Chairman.
    Secretary Stockton, you have had ample time to review Fort 
Hood's shooting and look at some of the information gleaned 
from that review. Have we come up with any lessons learned from 
that that you think would be instructive for this committee?
    Mr. Stockton. Yes, sir. The first lesson learned was that 
we had an inadequate flow of information from the FBI's Joint 
Terrorism Task Forces to the Department of Defense and then 
down to the installation commanders responsible for 
antiterrorism measures. The specific problems, the specific 
failures that helped facilitate the breakdowns in the Fort Hood 
incident, those are the ones that we have helped model in order 
to fix in our new relationship.
    Let me give you a few examples. First of all, we have now 
had the opportunity to carefully explain to the Department of 
Justice and the FBI what kind of information that we need. We 
have now an institutionalized flow. So it doesn't only come 
from the FBI to one or two people inside the Department of 
Defense; it is spread around so there isn't a single point of 
failure. So there isn't a risk that the institution as a whole 
will sit on information rather than acting on it.
    We have a special training program for the DOD personnel 
who are now being embedded in 60 Joint Terrorism Task Forces 
around the Nation so they know what to look for so they can 
identify a DOD nexus, a reason why we need that information to 
flow to us, and we have very careful measures in place to 
protect civil liberties and to make sure that, as a matter of 
law and policy, the Department of Defense is fully respecting 
privacy, civil liberties, and the Constitutional guarantees 
under which we all live.
    Representative Thompson. So your testimony is that after 
that review and the regulations and rules that have been 
instituted, that similar occurrences like Fort Hood would be 
minimized?
    Mr. Stockton. Yes, sir.
    Representative Thompson. Thank you.
    Lieutenant Colonel Sawyer, one of your responsibilities I 
see is to review some of the training material that is going 
out in the broader community to address this issue. I think 
part of it is that some of this training material has been 
identified as perhaps misleading. Can you suggest to the 
committee a way to address some uniformity standards within the 
training for this issue?
    Colonel Sawyer. Yes, sir. There are two critical parts to 
this. The first is that we do not want to inhibit our ability 
to educate, whether it is--our forces, whether it is in the 
interagency, the intelligence community, or the military, on 
these critical threats. How do we get our soldiers or our 
intelligence or law enforcement officials to understand these 
threats in which they can react to them in a proactive manner 
and to understand them in depth to be able to focus on the 
changing trajectory of our time? To achieve uniformity in this, 
what we need to do is really instill that there is a competency 
in the people that are producing the training material, that 
they are academically rigorous, that they are based on sound 
research in which they are producing, and that they are fact-
based and not--and devoid of political agenda or personal 
opinion in those. If we accomplish that, I think that the 
training materials become much more responsible in a general 
sense across the broader enterprise. In fact, the reviews have 
shown this to be the case.
    Representative Thompson. Thank you.
    Listen, Mr. Stuteville, one of the issues that some of us 
grapple with is whether or not putting into place these 
standards, whether we can do that and maintain the desired unit 
cohesion necessary for the military to do its job. Are you 
comfortable that those items you have worked on will on one 
hand identify the issues, but will not jeopardize unit cohesion 
on the other?
    Mr. Stuteville. Sir, yes, I am. To elaborate, one of the 
issues that we push when we give this training to the soldiers 
and civilians in the Army is that there are a multitude of 
reporting mechanisms should they observe one of these 
behavioral indicators and need to report it. They can report it 
to a counterintelligence agent; they can report it to a 
criminal investigator; they can report it to their commander, 
to their squad leader, to their security officer. We have put 
in place a link on the Army Knowledge Network that they can 
report this electronically. So we have put so many mechanisms 
in place to allow soldiers to report the information, the 
behavioral indicators, in a manner in which they feel 
comfortable, and that we have seen soldiers using all of these 
venues for reporting, and that is why we believe it is very 
effective.
    Representative Thompson. Thank you. I yield back.
    Chairman King. I thank the gentleman.
    The order for the next several speakers is Mr. Cravaack, 
Ms. Sanchez, Mr. Turner, Ms. Jackson Lee, Mr. Lungren, Mr. 
Cuellar, Mr. Rogers, and Senator Pryor.
    The gentleman from Minnesota, Mr. Cravaack, is recognized.
    Representative Cravaack. Thank you, Chairman King, thank 
you, Chairman Lieberman, for holding these what I consider 
extremely important discussions in open forum. As a retired 
military officer, I, quite frankly, find it frustrating that we 
are playing politics on threat assessment. We should be able to 
identify the enemy, know who they are, and call them for what 
they are--and it is violent radical Islamic extremism--and be 
able to identify that. Our troop--we owe that to our troops to 
identify the enemy and make sure that they are aware of it to 
protect them. As a military commander, that is one of my most 
important jobs is to protect my troops.
    So with that said, Secretary Stockton, if you would, sir, 
thank you for being here. I just found out today you were a 
fellow Minnesotan. So good to hear.
    In your testimony you refer to an administrative strategy 
empowering local partners to prevent violent extremism in the 
United States, stating the best defense against violent 
extremist ideologies are well-informed and -equipped families. 
Could you elaborate a little bit more what you meant by this?
    Mr. Stockton. My pleasure.
    The President has issued a new strategy last August 2011 
empowering local partners to prevent violent extremism in the 
United States. Families are an important part--Muslim families 
are an important part of the effort in order to defeat the 
recruitment and radicalization of American citizens and 
residents and the efforts of al-Qaeda to turn them into 
attackers against military communities and all Americans. We 
view the opportunity to treat families across the Nation as 
partners in this shared endeavor as an important component of 
the overall strategy that the President has issued.
    Representative Cravaack. Thank you, sir. I appreciate you 
elaborating on that.
    Mr. Stuteville, sir, according to our committee's 
investigation, the Army doesn't currently share 
counterterrorism information given to it by the FBI with its 
own military intelligence analysts or even commanders. Could 
you confirm this? If you can confirm this, why is this the 
case?
    Mr. Stuteville. Sir, with all due respect, sir, I disagree 
with that statement. In fact, we do share counterterrorism 
information with our local commanders, the force protection 
officers in installations, security officers in the chain of 
command. Every time we receive information, whether it be from 
the FBI or other Federal agencies, or within our own Department 
of Defense or Army, that indicates a threat to an installation, 
we go to great means to make sure that all the leaders at every 
echelon have the information so that they make the appropriate 
decisions to protect our force and their families.
    Representative Cravaack. Excellent. That is good to know. 
Thank you very much. I appreciate you expanding upon that.
    Colonel Sawyer, sir, the question I have was to what extent 
al-Qaeda is attempting--can you elaborate--to infiltrate its 
members into the U.S. military and also to conduct 
counterterrorist attacks, and if you see an increase in a trend 
in this.
    Colonel Sawyer. Sir, parts of that question would probably 
be best addressed in a closed session. But in terms of the 
recruitment and the radicalization efforts by al-Qaeda, 
essentially what they have done is by creating a distributive 
network in the rapid proliferation of their materials on-line, 
which makes it accessible for anybody, regardless of their 
country or residence or ethnicity, to participate and belong to 
this movement, it really increases the number of entry points. 
As I mentioned before, it really functionally decreases the 
barrier of entry for these individuals to join and to be 
radicalized. As they continue to paint the military in this 
essence of war criminals, as it legitimates military as 
targets, it certainly will induce individuals to further target 
the U.S. military and will increase the risk from insider 
threat.
    Representative Cravaack. Thank you.
    Secretary Stockton, if I can. The clear evidence I have 
read so far is that I have read and heard that jihadists have 
discussed and are tragically carrying out in some instances 
attacks on soft military-related targets, such as recruiting 
centers, military funerals, Metro stations frequented by 
military personnel, et cetera. What can be done to harden these 
targets? How do you see how we can protect our military troops 
when they are actually most vulnerable?
    Mr. Stockton. Congressman, I welcome the opportunity to 
address that question in closed session. I promise in the 
closed session I will also explain that there are places warmer 
than Minnesota. We will keep that classified.
    Representative Cravaack. Roger that. Okay. My time is 
expiring, and I thank you very much for your answers. I yield 
back.
    Chairman King. The gentleman yields back.
    I recognize for 5 minutes the gentlelady from California, 
Ms. Sanchez.
    Representative Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, once again for being before us.
    You know, my husband Jack is a retired military officer, 
and on 9/11, he was in Germany, and he headed up pretty much 
all of the law--he is a lawyer--all of the law institutions 
that we have and oversaw that in Germany. He recalls that the 
day after 9/11, he had to go in and talk to the lawyers on the 
other side for local municipalities and explain to them why we 
had driven our tanks all over the towns. Obviously we had 
somewhat overreacted to what was happening over here, and he 
had to go and explain what the heck we were doing by driving 
our tanks all over towns and shutting things down.
    So I think we need to plan ahead so that we don't have 
these types of reactions, and we need to plan ahead just as we 
learned in that issue with Germany to plan ahead with our local 
municipalities and our local law enforcement when these types 
of things happen, when we have--or to plan against a terrorist 
attack that might happen overseas or here in the United States. 
So I think that when we soul-search to try to figure out what 
do we need to do, I think that is very important. As a Member 
who also sits on the Armed Services Committee for 15 years now, 
we have looked at much of this to try to figure out, you know, 
what do we do, and how do we do it.
    So I think planning is important. I think education is very 
important, education of the troops.
    I would like to ask unanimous consent to put into the 
record some documents that we have here, some of the 
experiences that--and in particular that we have of some of our 
Muslim soldiers and airmen, et cetera, and how they feel being 
in the military, wanting to be a part of what is really a great 
institution of the United States, and, you know, talking about 
how they are looked at differently within their units or their 
corps, even though some of them have Bronze Stars, Silver 
Stars, you know, Medals; that they are always looked at with 
questions in the eyes of even some of their fellow unit 
members.
    So my question to you is, first of all----
    Chairman King. Does the gentlelady wish to introduce them 
into the record?
    Representative Sanchez. May I introduce them into the 
record, Mr. Chairman?
    Chairman King. Without objection, so ordered.
    [The information follows:]

 Statements Submitted for the Record by Hon. Sanchez--From Current and 
                          Former U.S. Military
         Letter From Abdul-Rasheed Muhammad, Military Chaplain
                                  5 December, 2011.

Committee on Homeland Security and Governmental Affairs,
U.S. Senate, 340 Dirksen Senate Office, Washington, DC 20510.
Committee on Homeland Security,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Senators and Representatives: My name is Abdul-Rasheed 
Muhammad, on 3 December 1993, I was affirmed at the Pentagon to be our 
Nation's first Islamic military chaplain. I have served as a chaplain 
on active duty for the past 18 years. Currently, I am assigned as a 
Behavioral Health Program Manager in the Health Promotion and Wellness 
Portfolio, United States Army Public Health Command (USAPHC), Aberdeen 
Proving Ground, MD.
    I write today as a chaplain and senior officer deeply concerned as 
we approach this week's hearing titled: ``Homegrown Terrorism: The 
Threat to Military Communities Inside the United States.''
    Why am I concerned? I'm concerned because I'm not really sure who's 
being referred to during these hearings? Who needs to be under 
suspicion? Who is actually considered a threat to our military 
communities? Will this process simply identify individuals based upon 
their first and/or last name? Perhaps their religious preference would 
be enough to determine their potential threat to our military 
communities? Or maybe they'll be identified or categorized as a 
potential threat simply based upon their race or ethnicity? I'm certain 
you would agree, if these characteristics are the sole criteria for 
such categorization, of single group of people, it would not only be 
ludicrous, it would guess it might be outright presumptive and even 
discriminatory.
    During my 18 years on active duty as a chaplain, which included: A 
1-year unaccompanied tour to the Republic of South Korea, a 3-year 
accompanied tour to the Federal Republic of Germany, a 12-month 
deployment to Iraq during OIF II, as well as a 3-month deployment to 
Afghanistan for OEF in 2008. Of the many awards I've earned for 
military service, the most distinguished has been the Bronze Star for 
my service during OIF II. Prior to my service as an Army chaplain, I 
served as an enlisted Soldier from November 1982 to November 1985. I 
was honorably discharged as an active duty enlisted Soldier on 3 NOV 
1985.
    Throughout my 21 years of performing and providing ministerial 
services to multiple groups and hundreds of our Soldiers, Family 
members, and DA civilians, I've found Muslim Soldiers to be no 
different than any other group Soldiers by religious preference. 
Amongst them (Muslim Soldiers) generally speaking, I found them to be 
honest, loyal, trustworthy, patriotic, also at times, they've been 
challenging, stubborn, unmotivated no different than many other 
Soldiers that I've helped, supported, counseled, consoled, or just 
simply worked with. They just happened to be of the Islamic faith. 
These same Muslims in uniform have faithfully and consistently modeled 
our Army's values as both Soldiers, and leaders throughout the Army.
    It is because of my years of service in our Nation's military that 
I feel so strongly about these hearings and its potential for 
ultimately doing a disservice to all of our men and women in uniform, 
particularly those who've made the ultimate sacrifice at home and 
abroad. I believe it is inaccurate, unjust, as well as potentially 
unethical to blame or cast dispersion upon any entire race, religion, 
or ethnic group of people, for the misguided, hate-filled machinations 
of a few.
    It has been my experience as a chaplain and enlisted soldier, to 
often see the important role diversity can play in facilitating and 
increasing morale, as well as establishing good order and discipline 
amongst all of our troops. To think that our trusted, elected 
representatives would be willing to cast such a critical eye, by merely 
singling out, or ``investigating'' a single group amongst our brave men 
and women primarily based upon their faith preference, race, or 
ethnicity is unconscionable as well as morally wrong.
    I am no more personally responsible for the misgivings of the few 
misguided Muslims who committed crimes against innocents in our 
country, than any random Euro-American would be responsible today for 
misgivings of slavery in the antebellum south.
    Additionally, my religious endorser, the Islamic Society of North 
America (ISNA) has been integral in providing the moral and spiritual 
foundation from which my ministry in the Armed Services has been 
allowed to flourish. ISNA, continues to provide quality religious 
leadership to 30 chaplains, and Lay Leaders throughout the DOD, and 
DOJ. During these troubling times, organizations like ISNA have been 
out front in its portrayal of the correct image of Islam and Muslims 
within our pluralistic environment. That is, Islam the last of the 
three great Abrahamic faith traditions is a religion of Peace, and the 
vast majority of Muslims are Peacemakers, not Peace breakers! During 
the past 21 years, I've been blessed to serve both Muslims and non-
Muslims within this pluralistic environment and I am forever grateful 
for this privilege.
    Finally, I believe these hearings can have the potential of 
continuing the divide of the American people based solely upon the 
promotion of religious-based prejudice and fear, which can potentially 
further the discord amongst the diverse groups within our general 
society and subsequently strengthen the propaganda machine of our 
enemies abroad.
    I stand firm and ready to make these claims formally or informally 
at any place and at anytime. If additional information is needed, 
please free to contact me[.]
            Respectfully submitted,
                                    Abdul-Rasheed Muhammad,
            Chaplain (LTC), USA, Behavioral Health Program Manager.
                                 ______
                                 
  Statement of Michael L. ``Mikey'' Weinstein, Founder and President, 
                 Military Religious Freedom Foundation
                            December 7, 2011

    On behalf of the Military Religious Freedom Foundation (MRFF), a 
non-profit organization with the sole mission of protecting the 
Constitutionally-guaranteed civil rights of United States armed forces 
personnel and veterans, I am grateful for the opportunity to submit 
this statement for the record of the joint hearing on ``Homegrown 
Terrorism: The Threat to Military Communities Inside the United 
States.''
    MRFF's exclusive focus is protecting its clients' religious 
freedom. We currently represent the interests of approximately 26,000 
United States marines, soldiers, sailors, airmen, cadets, and 
midshipmen at West Point, the Air Force Academy, Annapolis and other 
service academies, coast guard personnel, reservists, national guard 
personnel, and veterans. This number grows by thousands each year. 
Approximately 96% of our clients are self-professed Christians (about 
\3/4\ are Protestants of numerous denominations and the remaining \1/4\ 
are mostly Roman Catholic). The remaining 4% of our clients are from 
many other faith traditions including, Buddhists, Hindus, Jews, 
Muslims, Sikhs, and Native American spiritualists, as well as agnostics 
and atheists. It is the stories of our more than 450 Muslim-American 
clients (who are nearly 10% of all such men and women in the armed 
services) that are particularly heartbreaking and what I would like to 
focus on today.
    MRFF recognizes that military life requires individual adherence to 
shared patriotic principles. But this adherence cannot mean that a 
soldier, sailor, airman, or marine has a right to question another's 
beliefs nor that one's Constitutionally-guaranteed religious freedom 
must be compromised (except in the most limited military 
circumstances). Yet, our Muslim-American clients tell us every day that 
their Constitutional guarantees of religious freedom are under direct 
assault.
    The ways in which the religious freedom of Muslim-American members 
of the armed services is harmed can best be described as systemic and 
pernicious throughout the armed forces. For example, military offers 
and enlisted personnel alike frequently use derogatory and racist terms 
such as ``towel head,'' ``raghead,'' ``camel jockey'' or the most 
universally used term of ``Haji'' to describe their Muslim-American 
colleagues in uniform as well as all Muslims everywhere. One of my 
clients calls what he's experienced ``unjust discrimination and 
unbelievable mistrust.''

     I. WHERE DOES THIS PERVASIVE ANTI-MUSLIM PREJUDICE COME FROM?

    Perhaps from lectures, training exercises, and military leaders 
themselves perpetuating the harmful stereotypes that Muslims and Arabs 
are somehow different from their fellow Americans, and thus suspicious, 
and that all Muslims seek to harm other Americans.
    For example, in June 2007, Brigitte Gabriel, who the New York Times 
called a ``radical Islamophobe,'' delivered a lecture at the Joint 
Forces Staff College (IFSC). Her lecture was part of the JFSC's 
elective course on Islam, open to American military and National 
security personnel.
    During the question-and-answer period of her lecture, she said 
Muslims seeking political office should be resisted:

``If a Muslim who has--who is--a practicing Muslim who believes the 
word of the Koran to be the word of Allah. who abides by Islam, who 
goes to mosque and prays every Friday, who prays five times a day--this 
practicing Muslim, who believes in the teachings of the Koran, cannot 
be a loyal citizen to the United States of America.''

    Then she asserted that a Muslim's oath of office is meaningless:

``A Muslim is allowed to lie under any situation to make Islam, or for 
the benefit of Islam in the long run. A Muslim sworn to office can lay 
his hand on the Koran and say `I swear that I'm telling the truth and 
nothing but the truth,' fully knowing that he is lying because the same 
Koran that he is swearing on justifies his lying in order to advance 
the cause of Islam. What is worrisome about that is when we are faced 
with war and a Muslim political official in office has to make a 
decision either in the interest of the United States, which is 
considered infidel according to the teachings of Islam, and our 
Constitution is uncompatible [sic] with Islam--not compatible--that 
Muslim in office will always have his loyalty to Islam.''

    She made further comments on the Islamic community in the United 
States and racial profiling:

``We need to see more patriotism and less terrorism, and especially on 
the part of the Islamic community in this country, who are good at 
nothing but complaining about every single thing instead of standing up 
and working with us in fighting the enemy in our country.''

    Another example of these harmful stereotypes: In formal military 
training exercises, Muslim-American service members are very often 
reminded that ``the enemy'' in the War on Terror is Islam as an entire 
religion, and, accordingly, that any of its adherents and followers are 
seriously suspect. Non-commissioned officers have ordered Muslim-
American service members to dress up in Arab garb to play the role 
``terrorist'' in training exercises.
    Further, an Army general, while in uniform, went on speaking tours 
of churches, declaring that the War on Terrorism was a battle between 
Satan and Christians, explaining, ``We in the Army of God, in the House 
of God, the Kingdom of God have been raised for such a time as this.'' 
And, at a West Point graduation ceremony, a top Army official said 
ominously, ``Your sons and daughters are fighting to protect our 
citizens . . . from zealots who would restrain, molest, burden, and 
cause to suffer those who do not share their religious beliefs, deny 
us, whom they call infidels, our unalienable rights.''

          II. WHAT ARE THE HARMS TO OUR MILITARY COMMUNITIES?

    This anti-Muslim prejudice has significant consequences and leads 
to discrimination--and real harm to the Muslim-American members of our 
military communities.
    Muslim-American service members have been denied leave time. They 
have been subjected to hurdles in accessing the military's health care 
system. They have been denied rank and choice assignments. They have 
been unlawfully detained and falsely accused of crimes and offenses of 
moral turpitude. They have been the victims of scurrilous devastating 
rumors and innuendo. They have been unjustly ordered to perform 
objectionable military tasks and chores.
    And this systemic discrimination doesn't just affect Muslim-
American service members. Their families suffer as well. They and their 
families have been derided as exemplifying ``the enemy amongst us.'' 
They and their families have been assaulted and abused both stateside 
and abroad. They and their families have endured harmful and 
humiliating taunts and threats. They and their families have been 
accused of not being ``real Americans'' and told that they are not 
remotely welcome in America. They and their families have been told to 
``go back to your Arab lands.''
    I asked one of MRFF's Muslim-American clients--a graduate of one of 
our U.S. military academies who has served multiple combat tours in 
both Iraq and Afghanistan, is highly decorated, and has received the 
Purple Heart and the Silver and Bronze Stars for exemplary courage in 
battle--to describe what he has endured.
    He tells of being indoctrinated, from his first days at the 
military academy to his current position as an officer, with the belief 
America's military is a Christian military and that its greatest enemy 
is Islam and its followers. He tells of his repeated attempts to 
protect and speak for his subordinate Muslim-American military members 
and describes with tears how these many attempts are futile and 
essentially trivialized by the responsible military chain of command. 
He tells of the officially-endorsed Islamophobia rampant throughout the 
U.S. military and of Muslim-American service members being baited with 
lies, attacks on their character. He tells of the loneliness and 
estrangement of being told in innumerable ways that he is not a 
reliable or dependable part of either his own combat unit or of the 
United States military because of he is Muslim. He tells of countless 
instances of being both proselytized by military chaplains and his own 
direct military chain of command.
    He tells of memorizing (and advising many other fellow Muslim-
American military members and their families to as well) the names of 
Muslim Americans who have been killed or wounded in combat so that he 
can repeatedly tell those who doubt Muslim service members' commitment 
of their honorable sacrifice. But he also tells of callous and 
ambivalent responses when he shares the names of the service members 
and their sacrifices.
    Military life is very different from civilian life. Unless one has 
served in the military it is almost impossible to appropriately convey 
the formidable magnitude of the imperative to be viewed as a trusted 
and respected member of the military team. Muslim-American military 
members have been told repeatedly that they have no place in America's 
military because of their faith. They have been told that, as Muslims, 
they cannot and will not be allowed into the otherwise impenetrable 
brotherhood and sisterhood of trust and loyalty of their respective 
military organizations.
    Most heartbreaking, though, is what this decorated service member's 
family has suffered. He tells of his children being harassed on base 
elementary schools--even proselytized to ``save their souls from the 
evils of Islam and Allah.'' He tells of his wife being spat upon while 
shopping at the base commissary and whispered about and given looks of 
revulsion when she shops in the Post Exchange store and gets gas at the 
base gas station. He tells of his family having to endure disrespect 
and dismissiveness every day for merely being Muslims.
    Finally, I want to share the story of two of my clients, who haw 
suffered tremendously because of the widespread mistrust of American 
Muslim service members by those with whom they serve.
    Yassine Bahammou and Khalid Lyaacoubi moved to the United States 
from Morocco in search of freedom and opportunity. In 2009, hoping to 
settle their new country, they enlisted in the Army program for U.S. 
citizens and green-card holders who are native Arabic speakers. They 
would serve as linguistic and cultural experts for front-line 
commanders. Thus, it was a dangerous assignment. Errol Smith, the 
Army's assistant deputy for foreign language programs, said about 
soldiers in the program, ``The most important thing . . . is their 
ability to save lives, whether it's their fellow soldiers, their 
commanders, or civilians. They bring an essential skill.''
    The Army offered incentives such as higher rank and bonuses for 
those who enlisted in this program. But their ultimate motivation to 
serve in the Army was the same as so many others who enlist. ``The 
United States is known for fighting for other people's freedoms,'' 
explained Bahammou. ``I like it and I wanted to help do that.'' Another 
reason, particular to these men: ``We wanted to prove to Arabic 
nations,'' Lyaacoubi explained, ``that we were Arabic and that we lived 
with Americans and socialized with Americans and that we know that they 
are good.''
    Their first step was basic training at Fort Jackson, which they 
successfully completed. Next they began a specialized translator's 
course at the Advanced Individual Training School also at Fort Jackson. 
At first, the training went well. Then their lives turned upside down.
    Across the country at Fort Hood, tragedy struck: Maj. Nidal Malik 
Hassan massacred 13 people. After this tragedy, over at Fort Jackson, 
Bahammou and Lyaacoubi began to experience harassment at the hands of 
their fellow soldiers. They were called names like ``terrorists'' and 
``hajis.'' They were referred to as ``garbage.'' Their bunkrooms were 
ransacked.
    And within weeks, the Army Criminal Investigation Division (CID) 
arrested Bahammou, Lyaacoubi, and three of their colleagues. These five 
soldiers who were being trained as translators to serve on the front 
line were charged with somehow conspiring to poison the food supply at 
the facility.
    For the next 45 agonizing days, these men were held in their 
barracks under 24-hour guard--even at the mess hall and latrine. They 
were prohibited from speaking Arabic either to each other or to friends 
or family members who called to try to find out what was happening to 
them, some of whom spoke no English. And the threats and insults 
continued--this time from the guards and investigators. Their guards 
said they were going to be shipped off to Guantanamo; an investigator 
threatened to send one of them back to Morocco ``in a box.'' And then 
someone from CID confirmed their fears. They were being treated like 
terrorists because of their religion. Lyaacoubi distinctly remembers an 
investigator said, ``The United States is in a war against Islam and 
you are a Muslim.''
    After 45 days, they were suddenly released. CID had no evidence 
against them and no charges were filed. But their laptops, cell phones, 
and passports were confiscated. Their absolutely unjust detention 
ended, but their anguish would continue.
    As part of the deal offered by the Army, they were returned to 
their homes in the Washington, DC area, where they joined the National 
Guard. But Bahammou and Lyaacoubi were kept segregated and not allowed 
to train with their company.
    The Army conducted an internal review and concluded that the 
allegations against them--which were initially made by a relative of a 
soldier--were unfounded, but, not surprisingly, concluded there was no 
racism or harassment in its handling of the Muslim soldiers. Although 
the CID might have been ``overly restrictive'' in the soldiers' 
detention, the review determined that the Army had acted in accordance 
with the tense situation following the Fort Hood shootings. And yet, 
CID turned the case over to the FBI, perpetuating the appearance that 
the men were, in fact, guilty of something, even if it was only their 
Muslim faith.
    The FBI seems to have kept its investigation of Bahammou and 
Lyaacoubi open--which is causing far-reaching harm. Bahammou, who 
always wanted to work in law enforcement, applied for a job as a 
security guard, but was denied a concealed weapon permit because he was 
the target of an investigation and the background check said he was 
``dangerous'' and had conspired to harm fellow soldiers.
    The program in which they enlisted promised a fast-track to 
citizenship. (It should also be noted that anyone who has even 1 day of 
honorable active duty service since 9/11--which Bahammou and Lyaacoubi 
had--can apply for citizenship.) But their promised accelerated path to 
U.S. citizenship has been blocked. The Army has given them all the 
documents clearing their names. One's immigration officer tells him 
that his file is fine. But an Army immigration specialist tells him 
that there is an FBI hold on his case. And he has a copy of an email 
from someone in the Army asking his immigration officer to put a 
military hold on his file. He goes to interviews, provides 
documentation over and over again, and deadlines for making decisions 
pass. He even volunteered to take a polygraph test to clear his name, 
but an FBI agent told him it wasn't necessary because the FBI doesn't 
have anything on him. The other is in an endless loop of being told his 
background check needs to be completed; he needs to resubmits 
paperwork; he's cleared; and then that he needs another background 
check. He's actually taken two polygraphs. Yet his case remains open. 
For him, not getting the citizenship that he's entitled to is 
devastating. He has a good job with a Government contractor. His 
company wants to keep him on, but they may have to let him go because 
he does not yet have citizenship. He has a family to take care of and 
cannot afford to lose his job. He's told me, ``It's stressful. I'm worn 
every day. I try everything and I'm just still waiting.'' He continued, 
``They falsely accused me, but no one will take the responsibility to 
restore my rights.''
    Alarmingly, Bahammou has even been searched by local police after 
being stopped for routine traffic violations. He was stopped and he 
can't remember committing a violation. Saying Bahammou might have a 
warrant outstanding (which he didn't), the officer called in 
reinforcements. Several other police cars arrived. Then saying they 
smelled marijuana (which Bahammou doesn't use), the police handcuffed 
him and made him stand on the side of the road for half an hour while 
they turned his car inside out, searching for things unknown. They 
found nothing and eventually he was given a ticket for making an 
illegal turn--at a place where there's no turn to make.
    When traveling to visit their families in Morocco, each man has 
encountered difficulties. While transferring planes in Paris on their 
return, each man was stopped by a U.S. Government agent. They were 
asked about where they'd been, why they'd traveled, and the addresses 
where they'd stayed in Morocco. The agent who questioned one of the men 
had his picture and walked directly up to him to begin the questioning. 
The agent said he was stationed in Miami but the Government had flown 
him to Paris just to question him. Each man was also stopped upon 
landing in the United States. They were questioned--one for 3 hours--
about why they travelled, who they stayed with, the addresses where 
they'd stayed, and how they got the money to pay for their trips to 
Morocco. They were searched--agents copied everything in one's wallet 
and the memory card for his phone. One had his luggage returned a day 
after he landed, after someone had rifled through it. At various 
points, agents expressed embarrassment and apologized for having to 
subject these men, with military identification, to such scrutiny. But 
because these men are trapped in the system based on false accusations, 
these agents must do their jobs.
    Bahammou recently said to me, ``I know that this will affect me my 
whole life and it's hurting me in my heart. And it's hurting me even 
more because I didn't do anything. My dream is to be in the military 
and law enforcement.'' It seems very unlikely he'll be able to fulfill 
his dream. He explained, ``I joined the Army to fight for other 
people's freedom and I ended up losing mine.''
    Lyaacoubi lived in the United States for 5 years before joining the 
Army. ``I thought joining the Army would change my life for the good, 
but it changed my life for the worse.'' He said, ``Wherever we go, 
we're the bad guys, no matter how much good we do.'' Yet, he wants to 
continue to serve his country and he's going to re-enlist in the 
reserves. He said, ``I'm willing to overlook those who are prejudiced 
against me; I know I'm a good person.''
    Days after the Fort Hood shootings, General George Casey, chief of 
staff of the Army said, ``I'm concerned that this increased speculation 
could cause a backlash against some of our Muslim soldiers. And I've 
asked our Army leaders to be on the lookout for that. It would be a 
shame--as great a tragedy as this was, it would be a shame if our 
diversity became a casualty as well.''
    His fears were realized. There's been a terrible backlash against 
Muslim Americans. They have been targeted for suspicion and 
discrimination because of their beliefs and not because of anything 
they've done.
    I've shared with you just a few examples of the grave and harmful 
effects of the ingrained prejudice, racism, and distrust experienced by 
Muslim Americans in the military--that is only reinforced by this 
series of hearings. I believe it is critical to focus on why the racism 
and distrust is so pervasive in the military. This deep-seeded 
prejudice is taught and disseminated. And it is pernicious. It has 
real-world consequences and causes real harms--the on-going 
discrimination against not just service members but their families. 
This is a real threat to our military communities. Not only is it 
unjust and un-American, but it undermines the cohesion of our military 
and the ability to retain Muslim-American soldiers, sailors, airmen, 
and marines who are committed to fighting to protect everyone's--theirs 
and ours--freedom.
                                 ______
                                 
     Statement of Colonel Lawrence B. Wilkerson, U.S. Army (Ret.), 
 Distinguished Visiting Professor of Government and Public Policy, The 
                      College of William and Mary
                            December 7, 2011

    I, Colonel Lawrence Wilkerson, submit this written statement for 
the record of the U.S. House of Representatives, Committee on Homeland 
Security, and U.S. Senate, Committee on Homeland Security and 
Governmental Affairs joint hearing entitled, ``Homegrown Terrorism: The 
Threat to Military Communities Inside the United States.''
    I am a Colonel in the United States Army with 31 years of service, 
having retired in 1997. I served as Special Assistant to General Colin 
Powell when he was Chairman of the Joint Chiefs of Staff, and as his 
Chief of Staff when he was Secretary of State. Since retirement, I have 
taught National security affairs at The George Washington University, 
and am currently a professor of Government and public policy at The 
College of William and Mary.
    I am well aware of the threats facing our country. There are those 
who would seek to do us harm, both within the United States and abroad. 
The effectiveness and integrity of our military, however, demand that 
the steps we take to defend our Nation from these threats be consistent 
with the values of our country. And how we treat members of our armed 
services, young men and women who put their lives on the line for our 
safety and freedom, must also be consistent with the values of our 
country and our military. Today's hearing, ``Homegrown Terrorism: The 
Threat to Military Communities Inside the United States,'' contrary to 
its purported purpose, has the potential to undermine the values of our 
military and our Nation.
    Thankfully, we live in a country where all Americans, regardless of 
race, ethnicity, and religion, are by law to be treated equally. 
America's promise of equal treatment under law is upheld everyday in 
the U.S. military, and efforts to erode this fundamental value threaten 
the unity and cohesion that is essential to the effectiveness and 
integrity of the U.S. military. Values of hard work, service, and 
loyalty are an essential part of service in the military. So are the 
values of tolerance and diversity.
    Focusing on a singular threat, specifically that posed by American 
Muslims serving in the military, does grave injustice to our Muslim 
soldiers, some of whom have died defending our country. As Matthew 
Alexander, an Air Force Intelligence officer, stated:

``I know what Muslim-American interpreters and soldiers are doing for 
their country--some are now buried in Arlington National Cemetery . . . 
we need to stop demonizing an entire community. This is simply not the 
way to fight terrorism. And it's not who we are, as Americans.''

    By its very existence, the hearing suggests that American Muslim 
soldiers are prone to violence simply because of their faith. Such an 
assumption questions the patriotism of these brave men and women and 
their allegiance to our country, and sows fear and mistrust among 
Americans. In 2008, my former boss, General Colin Powell, specifically 
condemned this type of blanket suspicion and fear-mongering when he 
recounted the story of a young American Muslim solider, now buried in 
Arlington National Cemetery:

``Is there something wrong with being a Muslim in this country? The 
answer's no, that's not America. Is there something wrong with some 7-
year-old Muslim-American kid believing that he or she could be 
President? . . . I feel strongly about this particular point because of 
a picture I saw in a magazine. It was a photo essay about troops who 
are serving in Iraq and Afghanistan. And one picture at the tail end of 
this photo essay was of a mother in Arlington Cemetery, and she had her 
head on the headstone of her son's grave. And as the picture focused 
in, you could see the writing on the headstone. And it gave his 
awards--Purple Heart, Bronze Star--showed that he died in Iraq, gave 
his date of birth, date of death. He was 20 years old. And then, at the 
very top of the headstone, it didn't have a Christian cross, it didn't 
have the Star of David, it had a crescent and star of the Islamic 
faith. And his name was Kareem Rashad Sultan Khan, and he was an 
American. He was born in New Jersey. He was 14 years old at the time of 
9/11, and he waited until he could go serve his country, and he gave 
his life. ''

    Powell's eloquent testimonial to the sacrifice of that Muslim 
soldier demonstrates emphatically how today's hearing could be 
detrimental to the morale of our troops and to unit cohesion. One of 
the greatest strengths of our military is the diversity of its soldiers 
who come from all ethnic and religious backgrounds and from small towns 
and big cities across our country. These young men and women are 
fighting together in the trenches, and the trust and bond between them 
is of utmost importance to their performance as well as their safety 
and security. A hearing like this--that sows fear and mistrust and 
singles out one group of soldiers based on religious practice--will 
only serve to divide our troops and cause soldiers to question and 
regard others with suspicion. As General George Casey, the Army Chief 
of Staff at the time of the Fort Hood attack in 2009, stated:

``I'm concerned that this increased speculation could cause a backlash 
against some of our Muslim soldiers . . . Our diversity, not only in 
our Army, but in our country, is a strength. And as honorific as this 
tragedy was, if our diversity becomes a casualty, I think that's 
worse.''

    Finally, by focusing on one particular religious group for 
investigation during today's hearing, Congress is ignoring the broader 
range of extremist violence that threatens our country. This includes 
threats by neo-Nazis, Christian militias, and white supremacist gangs 
among others. Timothy McVeigh was not a Muslim. The Unabomber was not a 
Muslim. Violent extremism within the United States and, in particular, 
within our armed forces, is something that our leadership should take 
very seriously and should not tolerate. But a true and honest 
examination of threats within our military community should address all 
violent extremists who seek to do us harm.
    Like the military, Congress has the job of making our country 
safer, and protecting and honoring our troops, consistent with the 
values of our Nation. Today's hearing is a step in the wrong direction.
    Congress does not have a stellar record in this regard. Much of the 
history of the House Un-American Activities Committee, for example, is 
a stain on the fabric of this Nation. Rarely did its members do 
anything on behalf of America's security, What they did was bring the 
cameras and publicity to the soapbox appearances of now much-derided 
men such as Senators Joseph McCarthy and William Jenner--men who today 
most knowing Americans, as well as global citizens, excoriate for their 
extreme prejudice, hatred, and rank opportunism. Now, surely, is not 
the time to resurrect the intolerance of such men and the witch-hunts 
they orchestrated.
    Rather it is time to live up to the values we constantly put before 
the world as representative of our country, It is time to act the way 
we say we believe. It is time to put away prejudice and hatred, to 
recognize the service of all our fine men and women in our armed 
forces, and to treat them the way they deserve to be treated. 
Protecting the Nation does not require and has never required the 
sacrifice of our cherished beliefs.
    Thank you for the opportunity to share my views with the 
committees.
                                 ______
                                 
Statements Submitted for the Record by Hon. Sanchez--From Organizations
 Statement of Laura W. Murphy, Director, Washington Legislative Office 
and Devon Chaffee, Legislative Counsel, American Civil Liberties Union 
                                 (ACLU)
                            December 7, 2011

    Chairmen Lieberman and King and Ranking Members Collins and 
Thompson: The American Civil Liberties Union is a non-partisan 
organization of over half a million members, countless additional 
activists and supporters, and 53 affiliates Nation-wide dedicated to 
the protection of individual rights and civil liberties under the U. S. 
Constitution and the Bill of Rights.
    The danger posed by modern terrorists is real and Congress must 
understand the scope and nature of the threat and exercise its 
authorities appropriately in overseeing the Government's response, 
holding our military, law enforcement, and intelligence agencies 
accountable, and crafting sensible legislation that enhances security 
while protecting the rights of innocent persons. But the security 
threat was no less real during the first ``Red Scare,'' during the Cold 
War, and during the era of protests against the Vietnam War. The 
question is not whether Congress should respond, but how it should 
respond. History tells us that conflating the expression of unorthodox 
or even hostile beliefs with threats to security only misdirects 
resources, unnecessarily violates the rights of the innocent, and 
unjustly alienates communities unfairly targeted as suspicious. Today, 
on the 70th anniversary of attacks against Pearl Harbor, the lesson we 
should remember is that targeting entire communities on the basis of 
race, religion, or ethnicity is unjustified and un-American and results 
in consequences that the Nation later comes to regret, as with the 
targeting of Japanese-American communities during World War II.
    In announcing today's hearing, the Chairmen of both committees 
singled out Islam and the Muslim-American community as the focus of 
their inquiry into threats to military communities as they have in 
previous hearings and committee reports.\1\ Such needless targeting of 
entire communities on the basis of religious ideology alienates those 
community members. This is especially so for Muslim-Americans who serve 
in the military--such racial and religious profiling leads to 
discrimination and tangible harm. After the shooting at Fort Hood, 
four-star General George Casey, then-Army Chief of Staff, stated, ``I'm 
concerned that this increased speculation could cause a backlash 
against some of our Muslim soldiers . . . Our diversity, not only in 
our Army, but in our country, is a strength. And as horrific as this 
tragedy was, if our diversity becomes a casualty, I think that's 
worse.''\2\ As Casey's statement suggests, singling out Muslims within 
our military does a disservice to American service members, leads to 
unwarranted discrimination against these service members, and threatens 
to spread distrust amongst our troops. Instead of working to resolve 
the obstacles that Muslim Americans serving in our military face, 
today's hearing threatens to contribute to a predisposition to unfairly 
target Muslim Americans serving our country.
---------------------------------------------------------------------------
    \1\ Press Release: King, Lieberman Announce Joint House-Senate 
Hearing on Homegrown Terror Threat to Military Communities, Nov. 28, 
2012, at http://homeland.house.gov/press-release/king-lieberman-
announce-joint-house-senate-hearing-homegrown-terror-threat-military; 
see also The Extent of Radicalization in the American Muslim Community 
and That Community's Response, Hearing before the House Committee on 
Homeland Security, Mar. 10, 2011; U.S. Senate Comm. on Homeland 
Security & Governmental Affairs, A Ticking Time Bomb: Counterterrorism 
Lessons from the U. S. Government's Failure to Prevent the Fort Hood 
Attack (Feb. 3, 2011).
    \2\ Interview with Army Chief of Staff Gen. George Casey regarding 
Fort Hood shooting, State of the Union (CNN television broadcast Nov. 
8, 2009), at http://politicalticker.blogs.cnn.com/2009/11/08/casey-im-
concerned-about-possible-backlash-against-muslim-soldiers/.
---------------------------------------------------------------------------
    Many U.S. officials continue to focus their counterterrorism 
analysis on Muslim-American communities even though empirical studies 
show that violent threats cannot be identified by any religious, 
ideological, ethnic, or racial profile. Such unjust targeting is 
widespread and is often based on the unsound reasoning used in ill-
conceived and methodologically flawed reports that ignore empirical 
evidence that there is no direct link between religious observance or 
radical ideas and violent acts.
    The Senate Committee's Fort Hood report in particular relied 
heavily on a single report produced in 2007 by the New York Police 
Department (NYPD), Radicalization in the West: The Homegrown Threat. 
The NYPD report purported to identify a four-step ``radicalization 
process'' that terrorists follow, with each step involving 
Constitutionally-protected religious and associational conduct--conduct 
that millions of people may engage in without ever committing an act of 
violence.
    In contrast, the Department of Defense's (DoD) report on force 
protection after the Fort Hood shootings looked at the scientific 
literature, rather than flawed theories, and determined that 
``researchers have yet to develop a single model that can estimate who 
is at risk for potential violence.''\3\ The DoD report concluded that 
predicting who might become violent is extremely difficult. While 
researchers have identified certain risk factors, ``few people in the 
population who have risk factors . . . actually assault or kill 
themselves or others.''\4\ The study further emphasized that religious 
fundamentalism is not a risk factor, ``as most fundamentalist groups 
are not violent, and religious-based violence is not confined to 
members of fundamentalist groups.''\5\
---------------------------------------------------------------------------
    \3\ Dep't of Defense, Protecting the Force: Lessons from Fort Hood 
D-1 (Jan. 2010), at http://www.defense.gov/pubs/pdfs/DOD-
ProtectingTheForce-Web_Security_HR_13jan10.pdf.
    \4\ Id.
    \5\ Id. at D-3.
---------------------------------------------------------------------------
    The DoD report's conclusion is further supported by independent 
empirical analysis. According to reports, a recent United Kingdom 
analysis based on hundreds of case studies of individuals involved in 
terrorism concluded that there is no single identifiable pathway to 
extremism and ``a large number of those involved in terrorism do not 
practice their faith regularly.''\6\ Moreover, according to reports, 
the study identified ``facing marginalization and racism'' as a key 
vulnerability that could tend to make an individual receptive to 
extremist ideology.\7\ The conclusion supported tolerance of diversity 
and protection of civil liberties and was echoed in a National 
Counterterrorism Center (NCTC) paper published in August 2008. In 
exploring why there was less violent homegrown extremism in the United 
States than the United Kingdom, the authors cited the diversity of 
American communities and the greater protection of civil rights as key 
factors. \8\
---------------------------------------------------------------------------
    \6\ Alan Travis, MI5 Report Challenges Views on Terrorism in 
Britain, The Guardian, (Aug. 20, 2008), at http://www.guardian.co.uk/
uk/2008/aug/20/uksecurity.terrorism; Alan Travis, The Making of an 
Extremist, The Guardian (Aug. 20, 2008), at http://www.guardian.co.uk/
uk/2008/aug/20/uksecurity.terrorism.
    \7\ Id.
    \8\ National Counterterrorism Center Conference, Towards a Domestic 
Counterradicalization Strategy (Aug. 2008). Notwithstanding the 
conclusion, the paper inexplicably went on to examine how the United 
States could better adopt U.K. counterterrorism strategies.
---------------------------------------------------------------------------
    By singling out Islam and Muslim-Americans in its reports and 
hearings on the terror threat, Congress increases the likelihood that 
U.S. law enforcement officials will misunderstand the scientific 
evidence surrounding risk factors for violence and focus their 
investigative efforts on innocent Americans because of their beliefs 
rather than on true threats to the community. The ACLU has documented 
how U.S. law enforcement agencies are already exhibiting anti-Muslim 
bias in their trainings, operations, and intelligence products.
    Recently, the ACLU, through Freedom of Information Act requests and 
litigation, and investigative reporters have uncovered numerous FBI 
counterterrorism training materials that falsely and inappropriately 
portray Arab and Muslim communities as monolithic, alien, backward, 
violent, and supporters of terrorism. These documents show that the use 
of these erroneous and biased materials occurred between at least 2003 
to 2011, and has been an integral part of FBI training programs, 
despite recent efforts by the FBI to minimize the scope of this 
problem. For example, a 2003 FBI memorandum from San Francisco shows 
that the FBI sought to renew a contract with a trainer and ``expert'' 
advisor to FBI agents, whose draft lesson plan asserted racist and 
derogatory assertions about Arabs and Islam. These lesson plans 
asserted:

    ``the Arab mind is a Cluster Thinker, while the Western mind tends 
        to be a linear thinker,'' and
    ``although Islam was not able to change the cluster Arab mind 
        thinking into a linear one . . . it alleviated some of the 
        weakness that inflicted the Arab mind in general.''

    Another FBI training included a graph that shows Islam as a 
consistently violent religion over a 1,300-year span while graphing 
Judaism and Christianity as inexplicitly ascending directly to non-
violence from 1400 BC to 2010 AD.\9\
---------------------------------------------------------------------------
    \9\ See Appendix for copies of additional biased training material.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    While FBI officials have attempted to characterize these biased 
trainings as isolated incidents, similar problematic biases can be 
found in official intelligence products, A 2006 FBI Intelligence 
Assessment, ``The Radicalization Process: From Conversion to Jihad,'' 
identifies religious practice--including frequent attendance at a 
mosque or a prayer group, growing a beard, and proselytizing--as 
indicators that a person is on a path to becoming a violent extremist. 
The ACLU and 27 other organizations have called on the FBI to revoke 
such flawed products.\10\ The flawed theories are not just part of FBI 
trainings and products, however. The same theories are incorporated in 
trainings across the country conducted for local law enforcement 
agencies under the auspices of the Department of Homeland Security 
(DHS).
---------------------------------------------------------------------------
    \10\ Letter to Robert Mueller, Director, FBI, Oct. 4, 2011, 
available at http://www.aclu.org/files/assets/
sign_on_letter_to_dir_mueller_re_radicalization_report_10.4.11.pdf.
---------------------------------------------------------------------------
    It is also important to remember that Muslim and Arab groups aren't 
the only ones affected by the Government's inappropriate reliance on 
unsubstantiated theories of radicalization that focus on ideology 
instead of violent action. Non-violent protest groups have repeatedly 
been targeted for surveillance and infiltration by law enforcement over 
the last several years, based on their opposition to Government 
policies from both sides of the political spectrum, An assessment 
published by DHS in 2009 warned that right-wing extremists might 
recruit and radicalize ``disgruntled military veterans.''\11\ An 
intelligence report produced for DHS by a private contractor accused 
environmental organizations like the Sierra Club, the Humane Society 
and the Audubon Society as ``[m]ainstream organizations with known or 
possible links to ecoterrorism.''\12\ Similarly, a Missouri Fusion 
Center released an intelligence report on ``the modern militia 
movement'' that claimed militia members are ``usually supporters'' of 
Presidential candidates Ron Paul and Bob Barr.\13\ Slandering 
upstanding and respectable organizations does not just violate the 
rights of these groups and those who associate with them, it wastes 
security resources and undermines public confidence in the Government.
---------------------------------------------------------------------------
    \11\ See U.S. Dep't of Homeland Security, Assessment, Rightwing 
Extremism: Current Economic and Political Climate Fueling Resurgence in 
Radicalization and Recruitment (Apr. 7, 2009), at http://wnd.com/
images/dhs-rightwing-extremism.pdf.
    \12\ Helios Global, Inc. for National Preparedness Directorate, 
U.S. Dep't of Homeland Security, Universal Adversary Dynamic Threat 
Assessment, Eco-terrorism: Environmental and Animal Rights Militants in 
the United States (May 7, 2008), available at http://www.scribd.com/
doc/12251436/DHS-Eco-Terrorism-in-US-2008.
    \13\ T.J. Greaney, `Fusion Center' Data Draws Fire Over Assertions, 
Colombia Daily Tribune, (Mar. 14, 2009), at http://
www.columbiatribune.com/news/2009/mar/14/fusion-center-data-draws-fire-
over-assertions/.
---------------------------------------------------------------------------
    The basis for bringing law enforcement and intelligence resources 
to bear on a problem should rest on whether the targets are prone to 
violence and/or criminal behavior. Ideological or religious beliefs, 
even extreme ones, are entitled to the full protection of the First 
Amendment to the U.S. Constitution. The inquiry of these committees has 
thus far rested on a wholly contrary assumption--that radical beliefs 
alone justify suspicion and investigation. Such an assumption is wrong 
under the First Amendment, wrong under traditional American principles, 
and wrong in light of empirical data and should not serve as the basis 
for the committees' continued targeting of Muslim-American communities.

       Appendix.--FBI Training Material: Military Considerations
                        Power Point Presentation
By William Gawthorp (Excerpts) 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             Appendix.--Antiterrorism Advisory Counsel--PA
                   DoD HAZMAT Conference Presentation
       21st Century Terrorism: History, Perspective, Development
By John Marsh, Intelligence Specialist (Excerpts) 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
       Statement of Rev. Dr. C. Welton Gaddy, Interfaith Alliance
                            December 7, 2011

    As a Baptist minister, a patriotic American and the President of 
Interfaith Alliance, a National, non-partisan organization that 
celebrates religious freedom and is dedicated to protecting faith and 
freedom and whose 185,600 members Nation-wide belong to 75 faith 
traditions as well as those without a faith tradition, I submit this 
testimony to the House Committee on Homeland Security and Senate 
Committee on Homeland Security and Governmental Affairs for the Joint 
Hearing Record on ``Homegrown Terrorism: The Threat to Military 
Communities Inside the United States.''
    From its inception, citizens of this Nation have appreciated, if 
not revered, both religion and the military. Our armed forces are key 
to the security of the American people and often, our service members 
who bravely defend our Nation are our representatives abroad. Ensuring 
their safety is of the utmost importance and we should all be cognizant 
of the enormous sacrifice the men and women who serve in our armed 
forces make on our behalf every day.
    There is no doubt that our military faces serious threats which 
should be rooted out, but the continued demonization of Muslims and 
questioning of the Muslim faith is not the answer. I fear that this 
approach is misguided and will only result in further alienating the 
American Muslim community. Homegrown terrorism and countering violent 
extremism require serious investigation based on fact. I am concerned 
that the line of inquiry likely to be taken up in this hearing may do a 
disservice to American Muslims serving in our Armed Forces and the 
memory of those who have died serving their country, and spreads 
distrust amongst our troops.
    By singling out one particular religious community for 
investigation, these hearings, as have several others held this year by 
the House Committee on Homeland Security, fly in the face of religious 
freedom as it is enshrined in the First Amendment to our Constitution. 
Furthermore, these hearings are not only the wrong answer to the wrong 
question, but in the end, they may only perpetuate the problems the 
committees seek to solve, as well as add to a disturbing climate of 
anti-Muslim sentiment extant in America today.
    Freedom of religion as guaranteed by the First Amendment protects 
the freedom of all Americans to believe in any religious faith, as they 
choose, without fear of criticism, retribution, or investigation 
because of it. In our Nation, all people and all faiths are equal with 
none favored over any other. The fact that Muslims in this country are 
taking full advantage of all clauses of the First Amendment does not 
make them inherently any more radical than any other religious 
community in this country. These freedoms are an integral part of 
American democracy.
    There exists in our country today a pervasive and unsettling trend 
of anti-Muslim fear, bigotry, and rhetoric and a general lack of 
understanding about Islam. Targeting one particular faith for scrutiny 
when the overwhelming majority of that faith's adherents in this 
country are peaceful, law-abiding citizens seems counterproductive and 
just plain wrong. It is the responsibility of our elected officials to 
promote reason, truth, and civility in the public forum--especially at 
a time when anti-Muslim bigotry is on the rise--not to waste time and 
public resources on victimizing select groups.
    Interfaith Alliance's work is driven by the fundamental principle 
that protecting religious freedom is most critical in times of crisis 
and controversy. Even the most basic knowledge of the history of the 
First Amendment includes the understanding that religious freedom 
exists in part to protect the rights of the minority from what Alexis 
de Tocqueville not unrealistically called the tyranny of the majority. 
In fact, it would not be a stretch to say that if our Founding Fathers 
had relied on polling data, the First Amendment might not exist at all. 
Unfortunately, in today's political climate, it may not ensure an 
``electoral win'' to defend the rights of the American Muslim 
community, but there is no question that it is the right thing to do.
    That today's hearing falls on the anniversary of the attack on 
Pearl Harbor should give us reason to pause and reflect. With 70 years' 
hindsight we are now able to see just how wrong our treatment of the 
Japanese-American Community after Pearl Harbor was. We have a 
responsibility to ensure that 7 decades from now, our Government and 
our neighbors are not apologizing to the American Muslim community for 
how they were treated. I hope we can make the right decisions today so 
we do not repeat the mistakes of our past.
    Thank you for the opportunity to submit testimony on this important 
issue.
                                 ______
                                 
           Statement of The Islamic Society of North America
                            December 7, 2011

    The Islamic Society of North America shares the committees' 
commitment to ensuring the security of our service members during 
today's hearing on ``Homegrown Terrorism: The Threat to Military 
Communities Inside the United States.'' However, we are concerned that 
the hearing may specifically scrutinize American Muslims, including 
those serving our country in the military. The House Committee on 
Homeland Security has already held three hearings this year which 
unfairly singled out American Muslims of various walks of life, 
threatening their civil rights and tarnishing their reputations, and we 
are concerned that its Senate counterpart is joining in this 
discriminatory approach.
    American Muslims serve honorably in all of the Armed Forces, just 
as they serve in all areas of civil society. They serve in combat 
areas, fighting to protect the country they love, and some have made 
the ultimate sacrifice. This hearing, which appears to question their 
loyalty, does them a great disservice. It dishonors the memory of those 
who died serving their country, and it severely demoralizes those who 
are sacrificing so much on a daily basis. Casting suspicion on these 
brave individuals simply because of their faith crushes their spirits 
and spreads distrust and discord among our troops.
    We urge you to take the Department of Defense's approach in the 
immediate aftermath of the horrific shooting at Ft. Hood, in an effort 
to prevent such violent behavior from reoccurring. The Department took 
immediate action, not by scrutinizing and laying blame to the American 
Muslim members of the Armed Forces, but rather by monitoring a variety 
of ``indicators of potentially violent behaviors.''\1\ It is clear that 
the Department of Defense understands the importance of high morale and 
cohesion within our military and the very negative impact of singling 
out service members based on their faith. We are concerned that this 
hearing will place the retention and morale of our service members at 
risk, and we urge the committees to instead focus on the various 
indicators of violent behavior that may present a risk to the safety 
and security of our service members.
---------------------------------------------------------------------------
    \1\ United States Department of Defense, Protecting the Force: 
Lessons from Fort Hood (Washington, DC, 2010), 11.
---------------------------------------------------------------------------
    The Islamic Society of North America is wholeheartedly committed to 
keeping our country safe, for us, for our children, and for our 
American brothers and sisters of all religions or of no religion. We 
are seriously aggrieved each time the name of God is used to commit 
such ungodly acts as terrorism, and we have taken strides to counter 
extremist ideologies within our communities, as we would encourage 
everyone to do in theirs. Rather than emphasizing our differences, our 
safety as a Nation would be better enhanced if Congress chose to unite 
the diverse communities of America in working together to prevent 
violent extremism.
    It is our hope that the committees will demonstrate great 
leadership in this regard, and that they will not let this hearing be 
another investigation of one single community in America. Instead, we 
hope they will unite us as one American community to do whatever it 
takes to keep our military safe. Thank you for the opportunity to 
submit testimony for this hearing, and we hope you will take these 
concerns into consideration.
                                 ______
                                 
   Statement of S. Floyd Mori, National Executive Director, Japanese 
                    American Citizens League (JACL)
                            December 7, 2011

    Holding today's joint hearing on ``Homegrown Terrorism: The Threat 
to Military Communities Inside the United States'' on the seventieth 
anniversary of the attacks on Pearl Harbor is particularly poignant.
    Seventy years ago today, nearly 2,500 Americans were killed in a 
surprise attack by the Japanese Imperial Navy on the U.S. naval base at 
Pearl Harbor. The next day Japanese-American husbands and fathers were 
taken from their homes, under FBI escort, to Federal detention centers. 
Then a few short months later, all Japanese-Americans on the West Coast 
were sent to concentration camps for the duration of the entire war. 
They were held as prisoners, but charged with no crime. The purported 
reason for these unlawful and abhorrent detentions: A fear of homegrown 
terrorism. In reality, it was because the U.S. Government questioned 
the loyalties and beliefs of our community--of American citizens--based 
on nothing more than our race and religion.
    The ramifications of the internments were enormous. The community 
lost their homes and businesses--lost the ability to provide for their 
families. It took years, in some instances, for families to be 
reunited. The result was immeasurable heartache and problems within our 
families that lingered for decades.
    The internment of Japanese-Americans is one of the most shameful 
chapters in our country's history. Two decades ago, the Nation 
apologized for the grave injustice that was based on hysteria, racism, 
and poor political leadership and not justified by concerns about 
security. At the National Japanese American Memorial, these words are 
carved in stone: ``The lessons learned must remain as a grave reminder 
of what we must not allow to happen again to any group.''
    I fear we have forgotten the lessons of that time.
    Today's hearing purports to look at homegrown terrorism. But in 
reality, it will call the loyalties and beliefs of one community of 
Americans into question--based on nothing more than race and religion. 
Just like what occurred 70 years ago.
    This very hearing is causing the harm it's intended to stop. By 
focusing exclusively on one group--Muslims--as the source for homegrown 
terrorism, we are threatening our communities. We perpetuate the 
discrimination and alienation experienced by Muslims. We invite more 
and more harassment and hate crimes. We provide excuses for biased law 
enforcement practices. And above all, we harm the American values of 
equality, diversity, and religious freedom.
    The effects of this harm are already visible all around us. 
Unfounded animosity and threats towards Muslims are on the rise. A 
Brookings poll found that 47% of Americans view Islam as at odds with 
American values. Workplace discrimination against Muslim individuals 
has increased 150%, doubling over the past 10 years, and there has been 
an increase in bullying against Muslim children. The FBI has used its 
outreach to the Muslim community as a way to gather intelligence. This 
discomfort towards Muslims is being fueled by anti-Muslim rhetoric 
spread by military, religious, and political leaders and creates a 
fertile climate for discrimination.
    This time, we must not let hysteria, racism, and poor political 
leadership take us down the same path we went down 70 years ago. We 
must not act in ways that sacrifice our most basic American values. We 
must not single out one community based on race or religion and deny 
them their civil rights. And we must not endanger the foundations of 
these communities--their families and houses of worship.
    Today is the 70th anniversary of the ``date which will live in 
infamy.'' The date is infamous not only for the lives that were lost, 
but also for the grave injustices experienced by the Japanese-American 
community that followed. That another community, based only on race and 
religion, is also suffering grave injustices is disheartening.
    The Japanese American Citizens League is the oldest and largest 
Asian-American civil rights organization in the United States. The JACL 
monitors and responds to issues that enhance or threaten the civil and 
human rights of all Americans and implements strategies to effect 
positive social change, particularly to the Asian Pacific-American 
community.
                                 ______
                                 
  Statement of Shoulder-To-Shoulder: Standing with American Muslims; 
                       Upholding American Values
                            December 7, 2011

    Shoulder-to-Shoulder is a coalition of 27 American faith-based and 
interfaith organizations and religious denominations who have joined 
together to promote tolerance and put an end to anti-Muslim sentiment. 
We share a deep obligation to call upon our elected leaders to foster 
an ethical commitment to bedrock American values such as pluralism and 
religious freedom, mutuality, and respect--values also at the core of 
our religious traditions.
    We therefore submit this testimony for the record of the House 
Committee on Homeland Security and Senate Committee on Homeland 
Security and Government Affairs Joint Hearing entitled ``Homegrown 
Terrorism: The Threat to Military Communities Inside the United 
States.'' Several Shoulder-to-Shoulder member-organizations endorse 
military chaplains and minister to active duty and retired service 
personnel.
    We firmly believe that keeping service members safe is paramount. 
Yet, by focusing only on the American Muslim community for threats of 
radicalization, this hearing does a disservice to American Muslims--
especially those serving in the United States Armed Forces--by wrongly 
connecting faithful observance of Islam with suspect behavior. This 
connection sows mistrust of these men and women by distorting their 
military service. Some American Muslim soldiers, buried in Arlington 
Cemetery, have given what President Abraham Lincoln called ``the last 
full measure of devotion'' while serving their country.
    As spiritual leaders and people of faith, we call on the United 
States Congress not to perpetuate damaging false witness against our 
neighbors. Instead, we urge the Members of these committees to honor 
all those who serve in the military protecting foundational American 
values of freedom of religion, of pluralism and opportunity for all. We 
encourage our elected leaders to honor the freedoms guaranteed by our 
Constitution that have enabled the free exercise of religion across our 
great land--not to turn the exercise of these freedoms into a cause for 
suspicion.
    All of our faith communities share a powerful prohibition against 
bearing false witness, with the understanding that destroying a 
person's reputation is tantamount to destroying his or her life. To 
assert that American Muslim soldiers are not deeply devoted to 
America's safety and the peaceful interaction of its entire citizenry 
or that these soldiers are more susceptible to commit acts of violent 
extremism--that is false witness. By subjecting American Muslims to 
such scrutiny, we weaken our more perfect union, and we harm the 
National vision of our common good that is a witness to the nations.
    American Muslims serve proudly and with distinction in all branches 
of the U.S. armed services, as well as in the Federal Bureau of 
Investigation, on police forces, and in fire departments, next to 
service personnel of all faiths, many having given their lives for our 
country. In these and other vocations, Muslims work hard, give back to 
their communities, and worship in peace--just as do Americans of other 
faiths.
    The Muslim community's clergy work closely with the leaders of our 
Nation's other faith groups in and out of the military. We study our 
sacred texts together, pray together, and join hands to address issues 
of shared concern, including Post-Traumatic Stress Disorder, 
depression, trauma healing, overcoming suicidal tendencies, or coping 
with disabilities which often follow from military service. These are 
also burdens borne by American Muslim soldiers alongside all other 
service members.
    As faith leaders, we are committed to building a future in which 
extremism is an artifact of the past, and where religious identity is 
not the cause of hostility but of acceptance. This country's spiritual, 
religious, and ethnic diversity serves to enrich our public discourse. 
When our public discourse is enriched, extremism is seldom given 
quarter.
    We urge the Members of our Government as well as citizens of good 
will to refrain from passing judgment on religious or faith groups 
based on the actions of the few who pervert their spiritual traditions 
through acts of violence and hostile rhetoric. We believe that 
politicians, cultural figures, and members of the media are never 
justified in exploiting religious differences in order to advance 
ideological or political aims. Our leaders in Congress must stand up 
and speak out against hearings that perpetuate misrepresentations and 
harm our country rather than lead it to greater awareness and a 
strengthened citizenry.
    We hope to see such lines of inquiry soon cease, for they simply 
perpetuate the damaging climate of anti-Muslim sentiment in America 
today. As spiritual leaders we have a moral responsibility and a sacred 
calling to categorically denounce derision, misinformation, or outright 
bigotry directed against any religious group in this country. Silence 
is not an option. Only by taking a stand together can we fulfill the 
highest calling of our respective faiths, and thereby play a role in 
building a safer, more secure America.

   Appendix: List of Shoulder-to-Shoulder Member Organizations as of 
                            December 5, 2011

Shoulder-to-Shoulder Campaign Members*
---------------------------------------------------------------------------
    * Reflects campaign membership as of December 5, 2011.
---------------------------------------------------------------------------
American Baptist Churches USA
The Arab American Institute
Christian Church (Disciples of Christ)
Church of the Brethren
Cooperative Baptist Fellowship
The Episcopal Church
Evangelical Lutheran Church in America
Faith in Public Life**
---------------------------------------------------------------------------
    ** Indicates a member of campaign Executive Committee.
---------------------------------------------------------------------------
The Foundation for Ethnic Understanding**
General Board of Church and Society of the United Methodist Church
Interfaith Alliance
Islamic Society of North America**
Jewish Council for Public Affairs
Jewish Reconstructionist Movement
The Jewish Theological Seminary
National Council of Churches**
National Religious Campaign Against Torture**
The New Evangelical Partnership for the Common Good
Presbyterian Church (USA)
Progressive National Baptist Convention
Rabbis for Human Rights--North America
Religious Action Center of Reform Judaism**
Sojourners
Unitarian Universalist Association of Congregations
The United Church of Christ
United States Conference of Catholic Bishops**
---------------------------------------------------------------------------
    ** Indicates a member of campaign Executive Committee.
---------------------------------------------------------------------------
Universal Muslim Association of America

    Representative Sanchez. First of all, Secretary, what do 
they bring? Should we just consider maybe not having Muslims in 
our military? I mean, are they a vital part? I mean, I lived in 
the Middle East. So I think it is important to know the culture 
and the language of the people. But, you know, I mean, 
sometimes people look and say, let us just not have these 
people in our military. What would you say to something like 
that?
    Mr. Stockton. I would begin by referring back to the 
comment that Chairman King made earlier in the hearing, and 
that is recognizing the tremendous contributions of Muslim 
Americans to National security in the Armed Forces in 
particular. We need Muslim Americans in the United States 
military. We need native Pashtun speakers, native Dari 
speakers, and we need patriots of all religions joining and 
maintaining the strength of our Armed Forces.
    You raise an important challenge, and that is in today's 
environment, how do we both deal with the reality that al-Qaeda 
and its affiliates are targeting Department of Defense 
facilities as a target of choice, and yet recognize that we 
need and value Muslim Americans in the United States military? 
The way forward is to focus on indicators of violent behavior, 
indicators of radicalism, where we can watch the behavior and 
train our supervisory personnel to watch the behavior of their 
soldiers in order to identify early on and intervene 
effectively early on when they say indicators that within our 
ranks we may have potential terrorists.
    Representative Sanchez. But it shouldn't just be Muslims. I 
mean, because my husband prosecuted plenty of non-Muslims for 
radical behavior and shoot-ups and, you know, killing their 
wives and their kids and everything else in the military.
    Mr. Stockton. It should be anybody who is exhibiting 
behaviors that indicate a propensity to become a violent--to 
become terrorists. Let me emphasize again, this is about al-
Qaeda, its affiliates, and its adherents as the primary threat 
to American security at home.
    Representative Sanchez. Thank you, Mr. Chairman. I yield 
back.
    Chairman King. I recognize the gentleman from New York, Mr. 
Turner, for 5 minutes.
    Representative Turner. Thank you, Mr. Chairman.
    A question for Lieutenant Colonel Sawyer. You had mentioned 
the intellectual underpinnings of radical Islam and--in the 
training. Now, the theology of Islam is easily understood. 
There is prayer and fasting and charity, similar to all 
religions, and adherence to the natural law, do unto others. 
Beyond that there is an overlay of politics, and there is a 
battle within Islam. The political aspects of this, of course, 
are problematic.
    It would serve our interests if we understood more about 
what is going on within Islam, had we talked to imams and 
mullahs and--to get a better understanding of the politics and 
the theology; are they inextricable; can--is there a movement 
afoot for the intellectual justification for--to combat this 
within Islam; and are we taking advantage of it? Or is this 
considered too sensitive to address?
    Colonel Sawyer. Sir, thank you very much for that question. 
I think that the best way to answer that is to point out that 
there is a significant distinction between the politics and the 
theology that are embraced within the faith, or within the 
tradition and within the culture as distinct from the ideology 
that is perpetrated and developed and advanced by al-Qaeda, its 
adherents, and its affiliates. Once we make this distinction 
between the faith and the ideology of these violent Islamist 
extremists, we then can start to parse these two pieces apart.
    To the second part of your question, not only has the 
Department of Defense, but I would argue that the entire 
intelligence community, local and State law enforcement have 
had extensive outreach efforts to the Muslim-American 
community, the imams, to understand this not only from the 
perspective of what the faith means in consulting with 
academics and true Arabists, but also to understand what it 
means within the American context. Because within the diaspora, 
we can see different effects there.
    This really comes back to the education question that the 
other two Members addressed, because if we are not educating 
our local law enforcement partners as to these distinctions, it 
inhibits our ability to really address the problem in a 
comprehensive manner. That is one of the things that the center 
at West Point has done very aggressively. In fact, over the 
past 2 years, we have educated over 4,100 local, State, and 
Federal law enforcement officials, over about 60,000 hours of 
education, student hours of education, on these issues, right? 
How is it that we can make these people smarter to understand 
these very distinctions so that what we don't do is harm our 
ability, harm the community, and create worse relations with 
the American Muslim community, which are absolutely essential 
to solving these problems?
    Representative Turner. Mr. Secretary, could you----
    Mr. Stockton. Very quickly. Again, it is an excellent 
question. I would urge all Members and staff, if they haven't 
already, to become familiar with the new White House strategy 
empowering local partners, because it is focused precisely on 
the challenges you discussed and highlights a new way forward, 
a community-based approach, in order to meet the challenges 
that we confront.
    Representative Turner. Can you identify any leaders in the 
Muslim community that are helping you in this regard?
    Mr. Stockton. I would be happy to take that question for 
the record.
    Representative Turner. All right. Thank you. I yield back, 
Mr. Chairman.
    Chairman King. Mr. Turner yields back, and I recognize the 
gentlelady from Texas, Ms. Jackson Lee, for 5 minutes.
    Representative Jackson Lee. Mr. Chairman, Mr. Chairman and 
the Ranking Member, thank you for your courtesies.
    Before I left Houston, I initiated with our community and 
soldiers a yellow ribbon campaign to welcome home returning 
troops that will be coming home from Iraq at the end of 
December. I think it is evidence not of one Member's actions, 
but really that America loves her military.
    So if my Chairpersons would allow me, because I have 
questions, I do want to quote a comment from former Secretary 
Gates that says our All-Volunteer Force reflects the strength 
of our National diversity, and it is composed of patriots who 
are first and foremost soldiers, sailors, airmen, or marines 
sworn to uphold our National values.
    I would like to change the direction of the discussion and 
talk about Americans, American soldiers who happen to be of 
many different faiths. I indicated to my Chairman, Mr. King, 
that I am here to be a problem solver. Those who lost their 
lives were my neighbors and friends in Fort Hood, Texas. I went 
to the memorial service, and I can tell you it is a memory that 
I will never forget. Deepest sympathy and the pain that Fort 
Hood and those family members and extended friends continue to 
experience will never be, I believe, extinguished.
    To Mr. Long and the loss of his son, and Mrs. Long, I say 
to them that we are paying for the enormous tragedy, and we 
should be here to solve problems.
    I do want to, however, quote from you, Mr. Secretary, as I 
hold up a little book that I have done before and say that we 
are constant reminders of the value of this book, and our 
soldiers are, in fact, defending the Constitution, which says 
that we do have freedom of religion.
    I think it is important to note the comment that you made 
that our primary threat is al-Qaeda, not at war with Islam. In 
your statement you indicated that homegrown terrorists that may 
happen to be of a particular faith have limited contact with 
al-Qaeda across the ocean, if you will, that they are 
intensified by their own research, by the internet. So we have 
within our borders and within our ability the skills and tools 
that should be utilized to extinguish and to stamp out those 
who would do us harm.
    Let me just quickly note and pay tribute to Mohsin Naqvi, 
who died in Afghanistan, a 26-year-old Muslim, who was among 
five soldiers that were killed. His family acknowledged that in 
the military he was picked on, but that his goal was to die 
defending--or his relatives said defending against acts of 
terror and a violent interpretation of Islam the vast majority 
of Islams denounce. Let us put that at least on the record and 
pay tribute to those who have died.
    My question goes specifically to, I think, the major 
failures at Fort Hood. Why didn't the military who were aware 
of Captain Hasan's violence at Walter Reed pass that 
information on to the brass at Fort Hood? Where was the 
disconnect?
    Let me quickly add two other questions so that you can 
quickly answer them. I am concerned about soft targets, and I 
know that you may refer to some of these, but soft targets. I 
am the Ranking Member on the transportation security committee. 
We see our soldiers traveling in airports, train stations, bus 
stations. Some soldiers will be coming home in their uniform 
and going into neighborhoods and corners around this Nation. 
What have we begun to do to already address the potential of 
soft targets and soldiers who are walking alone in various 
places in America?
    On the idea of databases, one of the recommendations of the 
independent review was sharing databases.
    May I yield to you to answer at least two of those 
questions?
    Mr. Stuteville. Ma'am, I would like to answer your first 
question about the activities of Major Hasan and why they were 
not reported to his chain of command or to Army leaders.
    Prior to the Fort Hood shootings, as I have expressed in 
earlier comments to Chairman King, we did not have the right 
behavioral indicators to the force, and we did not educate our 
force in this regard. Since that time, we have revised the 
regulation, and I am confident today that the behavior 
indicators we have in this regulation would allow soldiers to 
report the information that--which you discussed about Major 
Hasan. So I believe that is--you know, the bottom line is we 
did not educate our force properly prior to that, and that 
information did not get reported.
    Representative Jackson Lee. We are doing more as it relates 
to behavioral training, which I think overcomes the idea of 
stigmatizing one religion versus another. Are we really 
focusing in on the actions of an individual soldier, internet 
use, overly aggressive in their faith or their actions towards 
their families?
    Mr. Stuteville. Ma'am, in the table 3.3, which I referred 
to earlier, those indicators of extremist activity, those 
indicators are focused on the behavioral activity that would 
encompass all of those topics you just mentioned.
    Representative Jackson Lee. Secretary Stockton, any 
response on the soft targets that are beyond the bases where 
soldiers are wearing their uniforms?
    Chairman King. The gentlelady's time has expired, but 
Secretary Stockton can answer the question.
    Mr. Stockton. Very briefly, local law enforcement and 
having our military facility commanders tightly engaged with 
them so that local law enforcement can be in the lead for 
security in those kinds of soft targets.
    Representative Jackson Lee. I thank the Chairman. I think 
we have much more distance to travel on these issues of 
securing our military families and soldiers in the United 
States.
    I yield back.
    Chairman King. The gentlelady yields back, and I recognize 
the former attorney general of the State of California, the 
Chairman of our cybersecurity subcommittee, Mr. Lungren.
    Representative Lungren. Thank you very much, Mr. Chairman.
    First of all, let me just say unequivocally my great 
support for those who are serving in the military today and for 
those of you who are appearing on this panel.
    Secretary Stockton, are we at war with violent Islamist 
extremism?
    Mr. Stockton. No, sir. We are at war with al-Qaeda, its 
affiliates, and adherents.
    Representative Lungren. Okay. I understand that. But my 
question is, is violent Islamist extremism at war with us?
    Mr. Stockton. No, sir. We are being attacked by al-Qaeda 
and its allies.
    Representative Lungren. Is al-Qaeda--can it be described as 
being an exponent of violent Islamist extremism?
    Mr. Stockton. Al-Qaeda are murderers with an ideological 
agenda----
    Representative Lungren. That wasn't my question. My 
question was: Is al-Qaeda acting out violent Islamist 
extremism?
    Mr. Stockton. Al-Qaeda is a violent organization dedicated 
to overthrowing the values that we intend to advance----
    Representative Lungren. Is it yes or no?
    Mr. Stockton. Can I hear the question again? I will make it 
as clear as I can. We are not at war with Islam.
    Representative Lungren. I didn't ask that. I did not ask 
that, sir. I asked whether we are at war with violent Islamist 
extremism. That is my question.
    Mr. Stockton. No. We are at war with al-Qaeda and its 
affiliates.
    Representative Lungren. How does al-Qaeda define itself? 
Are they dedicated to violent Islamist extremism?
    Mr. Stockton. Al-Qaeda would love to convince Muslims 
around the world that the United States is at war with Islam.
    Representative Lungren. I didn't say that.
    Mr. Stockton. That is a prime propaganda tool, and I am not 
going to aid and abet that effort to advance their propaganda 
goals.
    Representative Lungren. My question is: Is there a 
difference between Islam and violent Islamist extremism?
    Mr. Stockton. Sir, with great respect, I don't believe it 
is helpful to frame our adversary as Islamic with any set of 
qualifiers that we might add, because we are not at war with 
Islam.
    Representative Lungren. I understand that. I never said we 
were at war with Islam. One of the questions we are trying to 
deal with is the radicalization of Islam, is the radicalization 
of Islamic youth. If we can't distinguish between violent 
Islamist extremism and Islam, then all this stuff about 
behavioral indicators doesn't mean anything.
    Let me ask you this question: Is it a behavioral indicator 
to put on your card that you are a soldier of Allah?
    Mr. Stockton. A behavioral indicator that you have a copy 
of Inspire magazine on your desk----
    Representative Lungren. That is not my question. That is 
not my question. My question is: Is it a behavioral indicator 
to put on your card that you are a soldier of Allah, as Major 
Hasan did?
    Mr. Stockton. We have behavioral indicators now that enable 
our personnel, our supervisors to focus on detecting indicators 
of violent extremism that reflect the lessons learned from Fort 
Hood.
    Representative Lungren. Okay. Is that a lesson learned, 
that if you put ``soldier of Allah'' on your card, that you 
ought to follow up and investigate that?
    Mr. Stockton. We are training our supervisors to follow up 
on appropriate indicators and exercise the leadership they need 
in order to provide for effective reporting and----
    Representative Lungren. Do you agree with the statement to 
someone representing the Department of Defense on the weekend 
after the shooting that it would be a greater tragedy to lose 
our program of diversity than what had occurred?
    Mr. Stockton. Let me go back to something that Chairman 
King said. I was trained up by Senator Moynihan. There was 
nobody less politically correct than Senator Moynihan. I follow 
the truth wherever it takes me, and I strongly support the 
programs of the Department of Defense that focus on al-Qaeda 
and behavioral indicators.
    Representative Lungren. I appreciate this.
    Mr. Stockton. This is not about political correctness. This 
is about defeating our adversary.
    Representative Lungren. Well, sir, I would disagree with 
you that it may not be about political correctness. We are here 
talking about the fact that we now have to have behavioral 
indicators. I agree with that. But my question is: If someone 
gives inflammatory remarks, as did Major Hasan, in an open 
setting, if he has on his card that he was a soldier of Allah, 
it seems to me to be beyond common sense to think that those 
are not behavioral indicators.
    So my question is: If I am a member of the military today, 
and I see those two events or those two circumstances, would it 
be appropriate for me to report those as behavioral indicators? 
Now, that is not a question of whether or not you are being 
politically correct, sir. I am asking to answer that specific 
question. If I am a soldier and asked you that question, what 
do you tell me?
    Mr. Stockton. Inflammatory rhetoric of the sort associated 
with Major Hasan, that needs to be reported. Our officers are 
trained up now to report on that behavior.
    Representative Lungren. I thank you. I appreciate that.
    Mr. Stuteville----
    Chairman King. The gentleman's time has expired.
    Representative Lungren. Okay. Thank you.
    Chairman King. I recognize Senator Pryor for 5 minutes. 
Senator.
    Senator Pryor. Thank you, Mr. Chairman. Thank you for doing 
this, and thank you for all of us.
    I want to thank the witnesses here for being here today, 
and thank you for your service, and just tell you how much we 
all appreciate everything you do for the country.
    Let me start, if I may, with a sore subject for me, and 
that is as many of our Senators and Congressmen have mentioned 
today, we had a situation in Little Rock where two of our 
recruiters, servicemen, were killed and targeted by someone who 
had been radicalized, and he has been very open about that. He 
has told everyone who will listen that that is why he did this, 
and that is why they were targeted. But under the Department of 
Defense regulations, he is not--they are not entitled to 
receive their Purple Hearts. So, Mr. Stockton, could you talk 
to the joint committee here about why the Department of Defense 
has said they are not entitled to receive their Purple Hearts?
    Mr. Stockton. This has been a decision led thus far by the 
Department of the Army, so I defer to Mr. Stuteville.
    Senator Pryor. Okay. Please. Thank you.
    Mr. Stuteville. Sir, the attacks on the Little Rock 
recruiting station were tragic, and the loss of our soldiers 
any time for any event is a tragic situation.
    As you know, the award of the Purple Heart is governed by 
Federal statutes, Executive Orders, and the Department of 
Defense and Army regulations which state that the Purple Heart 
is to be awarded to soldiers for wounds or injuries received as 
a direct result of enemy action or international terrorist 
attack on the United States. The incident at Little Rock, 
Arkansas, is considered a criminal act and was not deemed an 
international terrorist act, and therefore, as unfortunate as 
it is, the Secretary of the Army could not award the Purple 
Hearts to those two soldiers. Sir, should information surface 
in the future that would change that to an international act, 
then the Secretary would be allowed to relook at it. But at 
this time, the decision is based on that.
    Senator Pryor. The concern I have there is the perpetrator 
has admitted that it was a terrorist act. I mean, he 
intentionally did this, he intentionally sought out these two 
recruiters, he was trying to kill Americans in uniform. He had 
been to Yemen and had been radicalized, and he freely admits 
this. I mean, he is not hiding it. He is bragging about it to 
anyone who will listen. So I am having trouble understanding 
why you don't--why the Army does not consider this a terrorist 
attack.
    Mr. Stuteville. Sir, the Secretary of the Army did have all 
that information available to him when he made the decision; 
however, it still was not deemed as sufficient enough 
information to indicate this was a terrorist act. I will take 
your concerns back, sir, to the Army leadership at the 
conclusion of this hearing.
    Senator Pryor. Okay. Thank you. I know that the U.S. 
attorney in Little Rock wanted to try the case, but just for 
whatever legal reasons, I am not sure why it ended up in State 
court, and it was a criminal matter in State court. But 
certainly the U.S. attorney tried very hard, my understanding 
is, to characterize it as a terrorist act on U.S. soil and have 
the prosecution done in Federal court. But nonetheless, it 
ended up in State court.
    So I would very much appreciate hearing back from you on 
this. I know Senator Boozman and I, my colleague from Arkansas, 
we have a bill to try and clarify this. But I just think we are 
sending a very mixed message about the threats we have here and 
the sacrifices our men and women in uniform make, and it is a 
head-scratcher to me. So I would appreciate you getting back 
with me after you relook at this.
    Thank you, Mr. Chairman.
    Representative Jackson Lee. Would the gentleman yield? Here 
I am, Senator. Here I am.
    I simply want to--you are from Arkansas, but I simply want 
to join with you in seeking clarification. In the line of duty 
and in combat are two maybe confusing themes when your 
constituents are fallen, and the actor is associated with acts 
of terrorism. So I think we can do this in a bipartisan, 
bicameral manner, respecting the Department of Defense. You 
quoted a statute that I think was written by the Congress. So I 
would ask that as you take Senator Pryor's request back, that 
you would add for those of us who are from Texas who have the 
same pain from any families and find a way not to ignore the 
Department of Defense or disrespect the definition of a Purple 
Heart, but to find a way to come to recognition of the violence 
of the death of those who were at the hands of someone who was 
acting in the war on terror, the alleged war on terror, as it 
relates to the United States of America. I yield back to the 
gentleman.
    Senator Pryor. Thank you.
    Representative Cravaack. Will the gentleman yield as well?
    Chairman King. The Senator's time has expired, but we will 
get to you.
    Representative Cravaack. Thank you, sir.
    Chairman King. I would like to recognize the gentleman from 
South Carolina, Mr. Duncan, and ask him if he would yield to me 
for 5 seconds.
    Representative Duncan. Thank you, Mr. Chairman.
    Gentlemen, the Obama administration refuses----
    Chairman King. Mr. Duncan, I asked you to yield to me for 5 
seconds.
    Representative Duncan. Okay.
    Chairman King. Just one observation, Mr. Stockton. You said 
al-Qaeda is the enemy. We seem to be focusing on al-Qaeda. That 
would exclude, for instance, the Pakistani Taliban, which 
carried out the Times Square bombing in New York. So I am just 
saying that it is not just al-Qaeda. It is al-Qaeda. It is also 
other Islamist extremist groups throughout the world.
    Senator Lieberman. Chairman, thank you. Very briefly. I 
agree with you. In other words, it includes Lashkar-e-Taiba in 
Pakistan, al-Shabaab in Somalia. They are all part of this 
violent Islamist extremism movement, and they will all threaten 
the United States of America.
    Chairman King. Without antagonizing the gentleman from 
South Carolina further----
    Representative Duncan. That is where I thought we were, Mr. 
Chairman. I apologize.
    Just to further that point, because along those same lines, 
the administration refuses to understand and exploit terrorist 
semantics and the enemy code words. The 9/11 Commission report 
used the language identifying enemy 39 times, jihad 126 times, 
al-Qaeda 36 times, Shari'a 2 times. Then the most recent, 
Protecting the Force: Lessons from Fort Hood, in 2010, used 
these terms zero times.
    I have said many times in committee hearings, Mr. Chairman, 
that we have got to be able to identify the enemy if we are 
ever going to defeat the enemy. I think that is important. 
During the Cold War, the United States conducted its diplomacy 
toward the Soviet Union on the basis of complete ignorance of 
the Soviet definition of the expression ``peaceful 
coexistence.'' Unlike the conventional American understanding 
of it, i.e., we may dislike each other, but we will live and 
let live, Soviet literature and official political lexicons 
defined it rather as a form of struggle against capitalism 
where all forms of struggle are permissible except all-out war.
    I think we have got to identify the enemy. I think we have 
to be willing to discuss the true threat to this Nation and 
discuss it in terms that are realistic. So according to the 
information provided the committee, the Army's new Threat 
Awareness and Reporting Program refuses to identify and discuss 
violent Islamist extremism.
    So the question for you, Mr. Stuteville, is: Were Major 
Nidal Hasan and Sergeant Hasan Akbar, who killed 15, wounded 33 
of their fellow soldiers--were they motivated by Islamist 
extremism?
    Mr. Stuteville. Sir, I would characterize it as their 
motivations, particularly in terms of Major Hasan, we really 
can't discuss those today because his issue is still, as you 
know, awaiting prosecution. I would simply say in our new 
approach to----
    Representative Duncan. Let me just establish the fact that 
he was in communication with al-Awlaki. I just establish that. 
That has been proven. Sorry to interrupt you.
    Mr. Stuteville. Sir, I still believe that our current 
approach of focusing on the behavioral indicators of any 
individual who does certain things and those get reported back 
is the best way to prevent these type of attacks from recurring 
in the future. That, to me, is the focus, and that is the 
Army's approach, and we believe it is successful to prevent any 
of these in the future.
    Representative Duncan. Okay. Mr. Chairman, I really just 
wanted to make that point. I really don't have anything further 
for these gentlemen other than just to encourage you going 
forward and the policies of this administration and the 
military going forward is that we truly identify the enemy of 
this country. Let us have the courage to discuss openly and 
honestly and use the terms that are necessary to defeat this 
enemy once and for all and make this country and this world a 
safe place. I think we do that by being honest with ourselves 
and honest with the American people.
    So I yield back.
    Chairman King. If the gentleman from South Carolina would 
yield to the gentleman from Minnesota the balance of his time?
    Representative Duncan. Yes, sir, I do.
    Chairman King. The gentleman from Minnesota.
    Representative Cravaack. Thank you for yielding.
    I appreciate the comments regarding the Purple Heart. Why 
these young men are not receiving the Purple Heart I do not 
understand. I think that they are casualties of war, a war on 
terrorism, quite frankly. I also would like to see--have a 
statement back explaining to me from the Secretary of the Army 
why he does not consider two of his troopers victims--not 
victims, but warriors that were killed in combat.
    Thank you, sir. I yield back to my gentleman.
    Chairman King. The gentleman yields back, and I now 
recognize the gentlelady from California Ms. Richardson for 5 
minutes.
    Representative Richardson. Yes, thank you, Mr. Chairman. I 
wanted to thank you both, Chairman King, Chairman Lieberman, 
Ranking Member Collins and Thompson, for bringing us forward on 
this very important subject.
    Gentlemen, thank you for your service. I am going to ask 
you a couple of questions that will simply require a yes or no 
answer.
    Question No. 1: Is there a threat to military communities 
limited to only Islamic extremists? Yes or no. I will start 
with you, Secretary Stockton.
    Mr. Stockton. Thank you for that question. It allows me to 
address a couple of the other questions that came----
    Representative Richardson. I am sorry, Mr. Stockton. I am 
not a Ranking Member within leadership, so I have only got 5 
minutes. So if you would just simply--a yes or no.
    Mr. Stockton. Al-Qaeda, its affiliates, and its adherents 
are a primary threat. That is the center of gravity, but we 
recognize other threats confront the United States as well.
    Representative Richardson. Thank you, sir.
    Mr. Stuteville.
    Mr. Stuteville. Ma'am, in keeping to your yes or no answer, 
I would have to say no in this particular case.
    Representative Richardson. So the question was: Is there a 
threat to military communities only limited to Islamic 
extremists, and your answer is no, correct?
    Mr. Stuteville. Correct.
    Representative Richardson. Lieutenant Colonel Sawyer.
    Colonel Sawyer. Ma'am, I would agree with the previous 
panelists, that it is not only limited.
    Representative Richardson. Second question: Is the threat 
to U.S. communities limited to Islamic extremists only? Yes or 
no. Secretary Stockton.
    Mr. Stockton. My same answer would apply.
    Representative Richardson. Mr. Stuteville.
    Mr. Stuteville. Ma'am, that would be no.
    Representative Richardson. Lieutenant Colonel Sawyer.
    Colonel Sawyer. Yes, ma'am, no to that as well.
    Representative Richardson. Third question: What other 
violent extremist groups exist?
    Secretary Stockton.
    Mr. Stockton. I would prefer to take that for the record 
and go into some detail with you.
    Representative Richardson. Thank you, sir.
    Mr. Stuteville.
    Mr. Stuteville. Ma'am, I would have to follow Mr. 
Stockton's lead on that, please.
    Representative Richardson. Okay. Lieutenant Colonel Sawyer.
    Colonel Sawyer. Ma'am, we have also seen a proliferation of 
other movements that share--outside the Islamic faith as has 
been characterized by other members that have been targeting 
from the Christian right movement and the identity movement 
within the United States, and that is the reason why my answer 
is no.
    Representative Richardson. Thank you, gentlemen.
    My next question is: It has been said here today that there 
were in the 1990s skinheads, white extremists and so on. Would 
you agree that skinheads and white extremists no longer exist 
and are not a threat to this country or our military bases?
    Secretary Stockton.
    Mr. Stockton. They are likely to still be a threat.
    Representative Richardson. Thank you, sir.
    Mr. Stuteville.
    Mr. Stuteville. Ma'am, my answer would be no.
    Representative Richardson. Lieutenant Colonel Sawyer.
    Colonel Sawyer. I don't really have knowledge on those 
threats, ma'am, so I would defer that question to the record, 
please.
    Representative Richardson. Would you say that they exist?
    Colonel Sawyer. Yes.
    Representative Richardson. Mr. Stuteville, would you say 
that they exist?
    Mr. Stuteville. Yes, ma'am, I would.
    Representative Richardson. Okay. Thank you.
    I went through those questions because what we were told as 
Members, the topic of this hearing was ``Homegrown Terrorism: 
The Threat to Military Communities Inside the United States.'' 
It doesn't say ``Islamic'' anywhere in here.
    Let me ask a separate question that I think might be 
helpful for you gentlemen, particularly you, Secretary 
Stockton. The budget cut effects in this dire environment that 
we are all facing, there is included in the sequestration the 
possibility of cutting the military. How would you see that 
these cuts would affect the work that you need to do?
    Mr. Stockton. Thank you for that question. Both to sustain 
the progress that we have under way, but also to accomplish new 
starts that we have been able to launch due to--the current 
fiscal environment, they would be put at risk. Secretary 
Panetta has made it clear that National security would be at 
risk by sequestration, and I fully support his position.
    Representative Richardson. Mr. Stuteville.
    Mr. Stuteville. Ma'am, I second Secretary Stockton's 
comments.
    Representative Richardson. Lieutenant Colonel Sawyer.
    Colonel Sawyer. I would completely concur, ma'am.
    Representative Richardson. Okay. Last question: Assistant 
Secretary Stockton, when DOD begins to implement the CVE and 
the violent behavioral training throughout the services, how 
important is it to make sure that our soldiers are not 
targeted; that we are not going to find stereotyping going on 
based upon race, religion, and ethnicity? What specific steps 
are you going to do to assure that the appropriate training and 
monitoring exists; so even after you do the training and you 
say, no, this isn't supposed to be stereotyping and targeting, 
what are you going to do to ensure that that won't occur?
    Mr. Stockton. We have a White House-directed review under 
way right now to address the challenges you identified. We are 
in it for the long haul to not only to make sure that in a 
snapshot we are doing what we need to do, but to sustain those 
standards in the future.
    Representative Richardson. Thank you. I yield back the 
balance of my time.
    Chairman King. The time of the gentlelady has expired.
    I recognize the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Representative Walberg. Thank you, Mr. Chairman. Thanks to 
the panel for being here. I apologize for not having a chance 
to hear some of the questioning that went on.
    But let me ask Lieutenant Colonel Sawyer first, to what 
extent is al-Qaeda targeting military communities in the United 
States? Is this trend increasing?
    Colonel Sawyer. Sir, it is a difficult question to answer 
in terms of whether or not there is direct targeting from 
abroad. What we do know is that about 56 percent of those 
direct attacks against the military for the past 10 years since 
9/11 have been through passive radicalization; in other words, 
individuals here within the United States that reach out and 
subscribe to the ideology of al-Qaeda and its adherents and its 
affiliated organizations and mobilize and radicalize on their 
own. So the fact that al-Qaeda is perpetrating this ideology, 
that they are proliferating it in a way and identifying the 
military as a prime target and as a legitimate target, to act 
in a preemptive manner is significant because it allows these 
individuals within the United States to seek that out and 
understand why the military is such a powerful target that 
reifies their narrative.
    Representative Walberg. So the trend is increasing?
    Colonel Sawyer. Yes, sir. It is certainly persistent as we 
have seen it, and it certainly has increased since 2007.
    Representative Walberg. That would be equal or--there would 
be an increasing trend as well with other radicalized Islamic 
terrorist organizations, including al-Shabaab and others. Would 
that be the same concern?
    Colonel Sawyer. Yes, sir.
    Representative Walberg. Okay. We are all--I think safely we 
could say we are all delighted that Osama bin Laden is no 
longer anything but room temperature, wherever that room might 
be. We are glad that he is not the focus or the face of radical 
terrorism at this point. But in the process of locating him, 
approaching him, and dealing with him, there are some of us 
that have at least some concerns or questions about how it was 
carried out before and aftermath.
    So let me ask you, Colonel Sawyer, was it harmful for the 
Special Operations Forces involved in the May 1, 2011, killing 
of Osama bin Laden to be publicly identified?
    Colonel Sawyer. Sir, this is--this is a difficult question. 
I would like to take it for the record and address in 
classified session, if we may.
    Representative Walberg. Secretary Stockton.
    Mr. Stockton. I would recommend that approach as well.
    Representative Walberg. I assume, Mr. Stuteville, the same 
thing?
    Mr. Stuteville. Yes, sir.
    Representative Walberg. Did their public identification 
endanger these units' members and/or their families?
    Mr. Stockton.
    Mr. Stockton. I would welcome to take that issue on in 
classified session, please.
    Representative Walberg. Let me try one other question 
related to that. Should units involved in such sensitive 
operations be identified in the future?
    Mr. Stockton. Again, I welcome the opportunity, sir, to 
discuss that in closed session.
    Chairman King. If I could just say to the gentleman from 
Michigan, Tim, we are going to be meeting in the closed session 
after this hearing, so the Secretary will be available.
    Representative Walberg. Thank you, Mr. Chairman. I would 
yield my time back.
    Chairman King. I would like to recognize the newest Member 
of the committee--or the newest Member on the Minority side, 
one of the hardest working, Ms. Hahn from California.
    Representative Hahn. Thank you, Mr. Chairman, Mr. Chairman, 
both Ranking Members. Thanks for this opportunity.
    It has been a very interesting hearing. There are so many 
things that I am disturbed about, particularly with the Fort 
Hood massacre and the failure, in my opinion, of the higher-ups 
to properly take discipline action against Major Hasan. I don't 
think it was about political correctness. I think there were so 
many indicators, you know, and policies that I believe were 
probably already in place that were just not adhered to; the 
fact that the guy, you know, was an Army psychiatrist, he was 
transferred, he had bizarre behavior, you know, he had a bad 
performance evaluation, and yet nothing was done.
    I am happy that we have got new policies in place where you 
think some of these indicators are going to be more recognized, 
but I still believe there was a failure with policies that were 
already in place that were not adhered to, and that is really a 
huge part of the tragedy that I am disturbed about.
    You know, my question is going to be about--and I believe, 
as has been said, that I think all threats, regardless of 
religion or ideology, are what we need to be paying attention 
to. If we just are focusing on a certain particular ideology, 
then we are exposing ourselves to threats that will put our 
country at risk.
    I am concerned about the military families and the military 
bases. In my district out in California, my district includes 
the L.A. Air Force base, so certainly that is a big concern of 
mine. But also in my community of San Pedro, we have housed 
military families forever. We have the Army families there. We 
have Navy family housing there. We have Air Force housing.
    So my question is going to be what are we doing, and what 
can you tell me that we are doing, to protect the families who 
live in our communities, the kids who are going to school in 
our schools? Are we paying attention to the potential risk and 
danger that families of militaries have in these identified 
military housing projects in communities throughout this 
country?
    Mr. Stockton. I would like to say a few words and then turn 
it over to my colleague. I have regular meetings with Sheriff 
Baca. State and local fusion centers that apply to your 
district are focused on this kind of challenge. Aagain, being 
tight with law enforcement, between law enforcement and our 
installation commanders so that we can take care of military 
families as well as personnel who are on base, behind the 
perimeter and in uniform, that is part of our area of focus.
    Mr. Stuteville. Ma'am, I have referred to our Threat 
Awareness and Reporting Program several times this morning. As 
part of that training, we make that training available to 
family members as well. The primary focus of the training is to 
soldiers and civilians in the Armed Forces and in the Army.
    But the other thing we have done is, we have put that 
training on-line so that any dependent with a common access 
card can access that training through the Training and Doctrine 
Center on-line, as well as we make it available for dependents 
to attend the training. Should the situation warrant, they have 
a large enough facility like an auditorium at their 
installation to allow that.
    The other part of that is we have since put in place across 
the Army the iWATCH program, which is a little bit like the 
``See Something, Say Something'' program. We have disseminated 
that program widely across our family communities so they all 
have access to that information.
    Representative Hahn. Thank you.
    My colleague Congresswoman Richardson alluded to the tough 
decisions that Congress is going to be making about budgets, 
and it seems to me all of the recommendations that are made are 
all going to really be dependent on budget. Can you tell me 
what sequestration will have--what kind of an effect that will 
have particularly on base security?
    Mr. Stockton. I would like to take that, please, for the 
record and give you a detailed response.
    Representative Hahn. Thank you.
    Anybody else?
    Thank you. Let me just add on to the family members. Are we 
also working with schools who have these kids in their schools? 
Are we working with teachers, counselors to also to be able to 
maybe identify some of the behavior that we are talking about 
that maybe we are only targeting the adults who exhibit that 
kind of behavior?
    Mr. Stockton. Community engagement has a special focus now 
on schools, and we are taking that part of the overall strategy 
that the White House has issued this summer very, very 
seriously.
    Representative Hahn. Thank you very much. I yield back my 
time.
    Chairman King. The time of the gentlelady has expired.
    I recognize the Chairman of the Oversight Subcommittee, the 
gentleman from Texas, Mr. McCaul.
    Representative McCaul. Thank you, Mr. Chairman. Thank you 
to both Chairmen here today having this historic hearing. It is 
very important.
    My district--well, Fort Hood is just right outside my 
district, just north of my district. I went to the funeral 
services for the 13 slain soldiers with the combat boots and 
the rifles and the helmets. I know you are very familiar and 
aware of all of this. It was very emotional. At that time, we 
didn't really know the connection between Major Hasan and al-
Awlaki, and to some extent we still don't know how much of a 
connection there really was.
    I do recall asking soldiers who were wounded, who I thought 
were the best evidence, you know, what did he say as he shot 
you? They said, ``Allahu Akbar,'' over and over. He screamed 
it. At that point in time, I realized that there may be 
something a little more to this case than just a murder case. 
Since that time, I think Senator Lieberman came out with an 
excellent report outlining a lot of this investigation.
    I was--you know, I worked in the Justice Department, Joint 
Terrorism Task Force. I understand how this all works. I 
understand FISAs. But when it came to my attention that the 
JTTF in San Diego had information that Major Hasan at a 
military base just north of my district was communicating with 
Anwar al-Awlaki, perhaps the greatest terrorist threat while he 
was alive, over the internet, and the idea that that 
information was not shared with Fort Hood, and I asked General 
Cone at the ceremony, I said, wouldn't you have liked to have 
known more about this guy or just a heads-up that maybe you 
want to take a look at this guy, keep an eye on him? That 
possibly could have stopped the death of the 13 soldiers.
    What I would argue is it was the greatest attack on 
American soil since the 9/11 terrorist attack.
    I think in the report that Senator Lieberman issued, the 
FBI of course said, ``That is our boy.'' That was their 
response when they saw Major Hasan being arrested.
    So my first question is, you know, why wasn't that 
information shared that could have prevented this attack? What 
are we doing to make sure that never happens again?
    I guess probably the best person would be, I guess, Mr.--
okay, Mr. Stockton?
    Mr. Stockton. I will start, and then I will invite my 
colleagues to add more.
    The first problem, the most severe problem, is that the 
personnel in that Joint Terrorism Task Force did not understand 
the duty to share this information when there is what we call a 
Department of Defense nexus. Our installation commander at Fort 
Hood needed to know the information that the JTTFs had, and the 
JTTF needed to understand that they have a duty to share that 
with us.
    Second, we didn't have the kind of personnel around the 
Nation from the Department of Defense in Joint Terrorism Task 
Forces to make it stick, to build the habitual relationships, 
to build the practices of sharing that would ensure that, 
again, the base commander was getting the information needed.
    Then, finally, we need to ensure that it is not happening 
by onesies and twosies, that institution-to-institution we get 
information from the FBI that is widely distributed on a 
regular basis throughout the Department of Defense so our 
installation commanders in all of the armed services are 
getting what they need in a timely and effective fashion.
    Representative McCaul. Well, I hope we fixed it. We can't 
change what happened in the past, but I sure hope, you know, 
that we have fixed that problem.
    You know, the way this guy was kicked--the can kicked down 
the road, no one wanted to deal with it. Chairman King always 
talks about political correctness, and this was political 
correctness gone just awry. You know, time after time, flags 
coming up about, you know, he is defending bin Laden, he is 
proselytizing, and nobody wants to deal with it.
    Is the military changing its strategy in dealing with 
people that they can, you know, perceive to be radicalizing 
within our military, at our bases?
    Mr. Stuteville. Sir, again, as I have reiterated a lot this 
morning, our behavioral indicators capture all the key 
indicators that we believe would indicate someone is going down 
the path of radicalization.
    To answer your question further about the information-
sharing between the Department, the services, and the FBI, I 
would be glad to share specific examples with you in the closed 
hearing about how that process now works much more effectively.
    Representative McCaul. You may not be able to answer this 
question. Perhaps it is more appropriate in the closed hearing, 
but----
    Chairman King. The time of the gentleman has expired.
    Representative McCaul [continuing]. I would like to know 
about the connection between al-Awlaki and Mr. Hasan. Because 
there is one.
    I yield back.
    Chairman King. The gentleman yields back.
    I recognize my colleague from upstate New York, the 
gentlelady, Ms. Hochul.
    Representative Hochul. Thank you, Mr. Chairman.
    I do appreciate this opportunity. I am sorry I missed some 
of the earlier questioning, but Fort Hood is personal to me. I 
was with the father of a young man who was stationed there 
while he was still awaiting word on whether or not his son was 
dead or alive. So we suffered through this, as did the country, 
as do the families who survived. I know you want to get it 
right. Let that be the last case we ever have, that act of 
domestic terrorism on one of our military bases.
    I currently represent a base in upstate New York, the 
Niagara Falls Air Force Base. Through the hearings that we have 
had since my brief 6 months on this committee, I have learned a 
lot. There is a Hezbollah threat facing us right across the 
border in Toronto. That is not very far from my Air Force base. 
Homeland Security has reported that there are more threats to 
terrorism in this country along the Northern Border than the 
Southern Border. We have a large expanse of land on our border 
with Canada which is virtually unprotected.
    I just want to ask the question: Do you feel that there is 
an additional threat to any bases along the Northern Border as 
opposed to the Southern Border? Are additional safeguards being 
taken to protect them?
    Mr. Secretary and former colleague of Senator Moynihan's, 
we are alumni, so we both understand the political-correctness 
issue, as well, so----
    Mr. Stockton. And why we are not going to be politically 
correct.
    Base commanders have the obligation not only to take the 
general guidance that the Department of Defense applies, but to 
take in local threats, local circumstances, as a prime factor 
in building their specific anti-terrorism and force-protection 
packages.
    So I would say, yes, indeed, along the Northern Border, as 
well as in other specific areas where there are challenges for 
security, base commanders are required to take those special 
circumstances into account.
    Representative Hochul. Thank you.
    Mr. Stuteville. Ma'am, I would like to further amplify that 
by--U.S. Northern Command, as you know, NORTHCOM, has the 
authority to set the force-protection conditions at bases in 
CONUS. Of course, their AOR, their area of responsibility, 
includes the Northern and Southern Borders. So I think they do 
that very well. So that is to amplify Secretary Stockton's 
comments on that.
    Representative Hochul. Thank you.
    Colonel Sawyer. In addition to that, I would add that there 
has been a significant movement in a Northern Border initiative 
between the interagency with DOJ, FBI, U.S. attorney's offices 
to share information and to make that available to the variety 
of forces. So a specific look at that is really helping our 
understanding, and then the cooperation amongst the variety of 
agencies that are needed to address this problem.
    Representative Hochul. I understand that today's hearing is 
focused on threat to our domestic bases. I am also very 
concerned about our bases overseas. We have had attacks, we 
have lost nine CIA members because of threats that became 
reality. I want to make sure that our focus is not limited to 
our bases here, because we have men and women serving in harm's 
way elsewhere.
    We protect them on the battlefield--I am also on the Armed 
Services Committee--but we also have to protect them from these 
threats, as well. I hope we are taking a holistic approach to 
this. This is very important to me.
    Also, again, my area has been affected by really the first-
known domestic terrorists after 9/11, which was the Lackawanna 
Six case. We had people who lived in our backyards who had gone 
over and trained with Osama bin Laden, and they knew that there 
was going to be an attack on 9/11 before 9/11. So we need to be 
vigilant. Those people have been prosecuted, they were sent to 
jail, and they are now back, and they are actually becoming 
cooperating witnesses and have been very helpful to us.
    That case aside, I want to make sure that there is no place 
else where people are engaging in activity that could be 
harmful to our bases. This is very important. I understand that 
you understand the lessons from Fort Hood, as well. I am 
pleased to hear that we all agree this can never happen again 
in our country. So thank you very much.
    I yield back the balance of my time, Mr. Chairman.
    Chairman King. The gentlelady yields back.
    I will note that she was too modest to point out that her 
husband is one of the lead prosecutors against terrorism in 
northern New York.
    I would now like to ask the panel to step down, but ask 
them to remain for the closed session which will follow the 
testimony and questioning of our next witness.
    While we are waiting for the people to leave and come in 
and Mr. Long to take his seat at the panel, I don't want to 
embarrass Lauren at all on my staff, but Lauren Wenger has done 
a tremendous job in putting this hearing together, and her 
parents are here in the committee room today. Lauren will never 
speak to me again after embarrassing her like this, but I do 
want to acknowledge you and thank her.
    I am now pleased to welcome as our next witness, Mr. Daris 
Long. Mr. Long is the father of William Andrew Long, a young 
Army private who was killed outside an Arkansas military 
recruiting center in 2009.
    Mr. Long has a distinguished record of service to his 
country that includes 17 years of enlisted service in the 
United States Marine Corps and 10 years as an officer. During 
his military career, Mr. Long served nearly 8 years overseas 
and nearly 19 years in the operating forces of the Fleet Marine 
Force.
    In addition, due in part to his father's extensive overseas 
service with the Federal Government, Mr. Long spent his 
childhood in Afghanistan and has visited roughly 50 countries, 
including Pakistan, India, Yemen, Lebanon, Syria, Iraq, and 
Iran. Between him and his wife Janice, his family has been 
connected with the United States Armed Forces since 1918.
    Before I recognize Mr. Long for his opening statement, I 
would like to acknowledge the presence of Mr. Melvin Bledsoe, 
who is seated directly behind Mr. Long. Mr. Bledsoe, as you may 
recall, testified before the House committee in March of this 
year. He is the father of Carlos Bledsoe, who has been 
convicted of murdering Mr. Long's son. Mr. Bledsoe's presence 
here, and in support of Mr. Long, is a testament to how two 
fathers have channeled their considerable pain to stand 
together in the fight against violent Islamist extremism.
    Mr. Bledsoe, thank you for being here again today. Thank 
you for your testimony back in March.
    Now I am privileged to recognize Mr. Daris Long for his 
opening statement.

  STATEMENT OF DARIS LONG, PRIVATE CITIZEN, FATHER OF WILLIAM 
                          ANDREW LONG

    Mr. Long. Chairman King, Chairman Lieberman, Ranking Member 
Thompson, distinguished Members of Congress, since my son's 
death my view of things has changed. I have lain awake through 
my wife's nightmares when she relives being 50 feet away while 
Andy and Quinton were shot.
    I was a career Marine, both enlisted and as an officer of 
Marines. My wife served in the Navy, was honorably discharged. 
Our family has served in various military branches since World 
War I. We have one son who served in Iraq as an Army cavalry 
scout and one son who was infantry, who is buried in the 
ground.
    My faith in Government is diminished. It invents euphemisms 
instead of accurate language, while perpetrators speak freely, 
using the very words deemed offensive, to justify their 
actions. Clarity is absent. Little Rock is a drive-by; Fort 
Hood is just workplace violence.
    Three days after Andy died, it was reported on the internet 
by Major Garrett, who stated the White House had released a 
statement on the Little Rock shootings but only to Arkansas 
news outlets--if they asked for one. According to Garrett, the 
White House didn't think there was much interest in the story 
otherwise.
    We believe the push from certain press outlets and talk 
radio put pressure on the White House over the President's 
response on a ``terrorist'' attack against an abortion doctor, 
which starkly contrasted with the ``saddened'' statement on the 
killing and wounding of American soldiers in America's 
heartland. The White House issued a letter of condolence. We 
received a personal phone call from the President. The 
President's press statement is conspicuously absent from the 
White House website.
    Two New Jersey men, 14 Minnesota men arrested for planning 
to go to Somalia and join al-Shabaab, and 2 men in Seattle 
planning on attacking a recruiting center--all resulting in 
Federal indictments for terrorism. The Government caught a 
Somali crossing from Yemen to Somalia, then sneaked him to 
arraign him in a New York Federal court. He now has all the 
legal rights of an American citizen, while Andy and Quinton's 
rights bled out on the pavement in Little Rock.
    People within the Federal Government like to trumpet its 
success in thwarting attacks. Former Homeland Security Security 
Tom Ridge said we just got lucky when the Christmas day and New 
York Times Square bombers failed. Luck is not an effective 
counterterrorism strategy. Great law enforcement, but nothing 
was thwarted.
    The latest Fort Hood episode was planned by a soldier who 
had previously been the subject of a mainstream-media blitz for 
taking his conscientious-objector stand to get out of going to 
Afghanistan. He was painted as the peaceful Muslim poster boy 
with principles. It is telling that his discharge was on hold 
because he was facing child pornography charges and was AWOL 
from Fort Campbell, Kentucky. Once again, Federal terrorism 
charges.
    In an attack that resulted in the first death and wounding 
of American soldiers on U.S. soil since 9/11, action by the 
Department of Justice is absent. Little Rock has morphed into 
nothing more than a drive-by shooting. Abdulhakim Muhammad's 
jihad in America has been downplayed by the Federal Government 
and the mainstream media, causing irreparable change to the 
families involved, as well as flat-out lying to the American 
people.
    I am convinced the Government's position is to deny Little 
Rock as a terrorist attack. By not being open and transparent, 
and despite promises to do so, to this administration's shame, 
two soldiers have been abandoned on the battlefield in the 
advancement of a political agenda.
    November 5, 2009, an attack took place at Fort Hood. In 
each instance, a clear tie to Yemen, but still no Federal 
indictments. My take is that if you plan or fail in a terrorist 
attack, you will be charged, but if you kill in this country 
under the banner of jihad, we are told it isn't terrorism, and 
Federal judicial response is neither confirmed nor denied.
    We firmly believe that if the White House had shown the 
same attitude concerning Little Rock as was shown in the 
killing of Dr. Tiller, a clear message could have been sent. 
The political correctness exhibited by our Government over 
offending anyone in admitting the truth about Islamic extremism 
masked alarm bells that were going off. Warnings were ignored. 
Major Nidal Hasan was able to openly praise the Little Rock 
shootings in front of fellow Army officers and then commit his 
own jihad.
    The last planned attack at Fort Hood was stopped because an 
ordinary citizen recognized the signs. If our Government and 
press had done their jobs in calling out and honestly reporting 
on Little Rock, Fort Hood may have been avoided.
    The blatant masking and disregard of the facts not only 
endanger American citizens of non-Muslim faith but those of 
Muslim heritage who do not adhere to the extremist beliefs 
demonstrated by a militant and political form of jihad. I grew 
up in Afghanistan, living there for a decade. I have traveled 
in over 50 countries, many of them primarily of Muslim culture. 
I will not condemn the religious rights of over 1.5 billion 
people.
    But rational people do not deny these terrorist events were 
the result of men who adopted and practiced what we are told is 
a particularly warped interpretation of their religion. The 
confusion being sown by our leaders is undermining the security 
and tears at the fabric of our Nation. The message being sent 
to the military community denies these heinous acts as 
terrorism.
    Abdulhakim Muhammad, formerly Carlos Bledsoe, was 
unquestionably a radicalized, violent Islamic extremist 
determined to wage jihad. My family kept silent for over 2 
years. We will not be silent again. We are speaking not out of 
hate but because our country needs to hear the truth. This 
administration needs to heed the words of 1 Corinthians 14:8. 
``In fact, if the trumpet makes an unclear sound, who will 
prepare for battle?''
    Thank you.
    [The statement of Mr. Long follows:]

                    Prepared Statement of Daris Long
                            7 December 2011

    Since my son's death my view on things has changed. I've lain awake 
through my wife's nightmares when she relives being 50 feet away while 
Andy and Quinton were shot. My faith in Government is diminished. It 
invents euphemisms instead of using accurate language while the 
perpetrators speak freely using the very words deemed offensive to 
justify their actions. Clarity is absent. Little Rock is a drive-by and 
Fort Hood is just workplace violence: The truth is denied.
    Three days after Andy died this was on the internet and I quote: 
``FNC Special Report's on-line broadcast from last night is well worth 
the watch on the topic. Major Garret comes on to discuss the White 
House handling of it. The White House prepared a comment to be released 
about the attack for `those who requested comment.' He goes on to 
explain the White House explained this was available upon request 
instead of just releasing it because the press didn't seem interested. 
Garret was clearly squirming, knowing how awful what he was saying 
sounded.''
    We believe the push from certain press outlets and talk radio put 
pressure on the White House over the President's response on the 
``terrorist'' attack against an abortion doctor which starkly 
contrasted with the ``saddened'' statement on the killing and wounding 
of American soldiers in America's heartland. The White House issued a 
letter of condolence and we received a personal phone call from the 
President. The President's press statement is conspicuously absent from 
the White House website.
    Two New Jersey men, 14 Minnesota men, arrested for planning to go 
to Somalia to join al-Shabaab and two men in Seattle, who planned on 
attacking a Recruiting Center, all resulting in Federal indictments 
just for planning.
    The Government caught a Somali crossing from Yemen to Somalia then 
sneaked him in to arraign him in a New York Federal Court. He now has 
all the legal rights of an American citizen, while Andy and Quinton's 
rights bled out on the pavement in Little Rock.
    People within the Federal Government like to trumpet its success in 
thwarting attacks. Former Homeland Security Secretary Tom Ridge said we 
just got lucky when the Christmas day and the New York Times Square 
bombers failed. Luck is not an effective counter-terrorism strategy. 
Great law enforcement effort, but nothing was thwarted.
    The latest Fort Hood episode was planned by a soldier who had 
previously been the subject of a mainstream media blitz for his taking 
a conscientious objector stand to get out of going to Afghanistan. He 
was painted as the peaceful Muslim poster boy with principals. It is 
telling that his discharge was on hold because he was facing child 
pornography charges and was AWOL from Fort Campbell; once again Federal 
terrorism charges.
    In an attack that resulted in the first death and wounding of 
American soldiers on U.S. soil since 9/11 action by the Department of 
Justice is absent. Little Rock has morphed into nothing more than a 
``drive-by'' shooting. Abdulhakim Muhammad's jihad in America has been 
downplayed by the Federal Government and the mainstream media causing 
irreparable change to the families involved as well as flat-out lying 
to the American people.
    I am convinced the Government's position is to deny Little Rock was 
a terrorist attack. By not being open and transparent, despite promises 
to do so, to this administration's shame two soldiers have been 
abandoned on a battlefield in the advancement of a political agenda.
    November 5, 2009, an attack took place at Fort Hood. In each 
instance, a clear tie to Yemen, but still no Federal indictments. My 
take is that if you plan and/or fail in a terrorist attack, you will be 
charged, but if you kill in this country under the banner of jihad, 
we're told it isn't terrorism and Federal judicial response is neither 
confirmed nor denied.
    We firmly believe that if the White House had shown the same 
attitude concerning Little Rock as was shown in the killing of Dr. 
Tiller, a clear message could have been sent. The political correctness 
exhibited by the Government over offending anyone in admitting the 
truth about Islamic extremism, masked alarm bells that were going off. 
Warnings were ignored, Major Nidal Hassan was able to openly praise the 
Little Rock shootings in front of fellow Army officers and then commit 
his own jihad.
    The last planned attack on Ft. Hood was stopped because an ordinary 
citizen recognized the signs. If our Government and the press had done 
their jobs in calling out and honestly reporting on Little Rock, Ft. 
Hood may have been avoided.
    The blatant masking and disregard of the facts not only endanger 
American citizens of non-Muslim faith but also those of Muslim heritage 
who do not adhere to the extremist beliefs demonstrated by a militant 
and political form of jihad.
    Rational people do not deny that these terrorist events were the 
result of men who adopted and practiced what we are told is a 
particularly warped interpretation of their religion. The confusion 
being sown by our leaders is undermining the security and tears at the 
fabric of our Nation. The message being sent to the military community 
denies these heinous acts as terrorism.
    My family kept silent for over 2 years we will not be silent again. 
We are speaking, not out of hate, but because our country needs to hear 
the truth.
    This administration needs to heed the words of 1 Corinthians 14:8 
``In fact, if the trumpet makes an unclear sound, who will prepare for 
battle.''

    Chairman King. Thank you, Mr. Long. Thank you for your 
testimony. Thank you for your courage in being here today. 
Thanks to your wife, who is not here but, as you have told us, 
is the rock of the family.
    Mr. Long, one of the issues that struck us when Mr. Bledsoe 
testified back in March is why the Federal Government, why the 
Justice Department did not treat this as a terrorist 
prosecution.
    Now, if I could just say some of the things we have heard. 
The fact is the FBI was aware of Mr. Bledsoe. The FBI had been 
monitoring. Then, for whatever reason, it appears the 
monitoring was pulled back or something was allowed to happen, 
obviously unintentionally. Rather than go through an 
embarrassing case, an embarrassing prosecution, it was deferred 
to the State.
    Because I find it very unusual in a case where you had 
someone who was actually trained overseas, sent back here, 
carrying out a jihadist murder, is not treated as a terrorist, 
when, as you said, people getting on the plane to go to Somalia 
are arrested as terrorists.
    So could you tell us what you have learned in your 
investigation as to why this was not prosecuted by the Federal 
Government as a terrorist offense?
    Mr. Long. I really cannot tell you why. Rational people 
couldn't tell you why.
    We looked at what happened to my son, and after querying 
the Army on the Purple Heart the first time, they came back and 
they said, he just doesn't rate it. The second time we come 
back, they said, we don't have enough information. So I sat 
down and went through the internet. Abdulhakim Muhammad has 
38,300 entries on the internet alone.
    This is what I submitted to the Secretary of the Army. It 
was not to make the determinative thing; it was to get the Army 
to go through the regulation that was mentioned in here. It 
comes from Army Regulation 600-8-22, paragraph 2-8. You go down 
to paragraph 8(k)(4), and it specifically says, in the case of 
international terrorism, the Secretary of the Army has the 
authority do that, but it has to have an investigation done and 
then submitted by a major command intelligence and security 
officer.
    To this point, we still have no answer on whether that is 
done. What we get now is, it is just a criminal act. That 
denies the fact that Abdulhakim Muhammad flew to Yemen on 9/11/
2007. Out of 365 days a year, why would he pick that day?
    He was arrested on November 14, 2008. In his possession, he 
has bomb-making materials, he has Inspire stuff, he has al-
Alwaki tapes, he has a fake Somali passport. Why would he have 
a fake Somali passport? He was going to Somalia. When I met 
with the FBI in September 2009, I asked them that question, and 
they said they couldn't say it, and I said, ``It is 
rhetorical.'' Because I have been to Somalia. I served there 
during Restore Hope. The average guy can't read, but if you 
show him a piece of paper with a bunch of rubber stamps on it, 
he is going to let you go through because he doesn't know if it 
is his warlord or the next warlord who took care of it. He was 
on his way there.
    He goes into a jailhouse in there. Within just hours, from 
what I have been told, an FBI agent from Nashville is 
interviewing him in Yemen. On 9 February this year, the Los 
Angeles Times reports that the Federal Government knew this guy 
was dangerously radicalized before he ever came back to the 
United States. The FBI agent goes back in and tells him, ``If 
you ever get out of this God-forsaken place, I am going to 
hound you until you die.'' He is deported.
    I didn't know if the State Department had anything to do 
with that, but it was also reported that under urging from the 
Embassy, he was deported out of there, rather than have a trial 
there. As of the hearings that we had in here before that Mr. 
Bledsoe testified at, the State Department was involved in 
getting this guy here. So now we are importing these people 
back in.
    He gets back here. He is interrogated again in Nashville. 
He stays in Memphis for a couple, 3 months, moves to Little 
Rock. Within a month of moving to Little Rock, he gains over 
1,000 rounds of bullets, buying in a parking lot, an SKS rifle, 
a 380 pistol, and a .22-caliber rifle. He decides to go on his 
jihad. When he bought the .22-caliber rifle and no one stopped 
him, he said, it's on.
    This was his plan that he worked up, according to his 
letters to the Commercial Appeal, while he was in the political 
prison in Yemen with his fellow, brother al-Qaeda people. The 
FBI, in a brief to the National Guard in Little Rock, call 
Abdulhakim Muhammad an ``al-Qaeda adherent.''
    The Army, last August, put out a big training syllabus on 
how to deal with terrorism. Part of that thing is they identify 
the Little Rock shootings as terrorism. They come back in a 
letter to me saying, this is just a criminal event. They don't 
get it both ways.
    He was left on a battlefield. It took me 2 years to get 
these back. These are my son's dog tags. He wore these when he 
took four rounds of 7.62 ammo from about 3 feet. On it, there 
is the warrior ethos. The last line of it is, ``I will never 
leave a fallen comrade.'' Well, the Army left him.
    Chairman King. The Senator from Connecticut, Mr. Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to you, Chief Long. Thanks for having the courage to 
come before the committee, to speak out in public. Thanks for 
your eloquence. Your statement was extremely powerful.
    You know, it brings to mind the very important role that 
family of people who were killed on 9/11 have had in 
influencing and shaping our Government's reaction to 9/11. 
Thankfully, this group of survivors that you are in is smaller, 
but I hope you will think about being in contact with survivors 
of people who were lost at Fort Hood and making yourselves 
available. Because your testimony is very powerful, and it is 
real, and it is what I think any of us sitting here would feel 
if we were the father or the mother of the young man who was 
killed, again, simply because he was wearing the uniform of the 
United States Army.
    So I appreciate your testimony. It is very moving that Mr. 
Bledsoe is here and that you have established some kind of 
relationship after this tragedy. I am sure he feels a kind of 
pain that is a different kind of pain but--because of what his 
son has done.
    I want to say, incidentally, that before preparing for this 
hearing I did not know about this problem regarding the 
awarding of the Purple Heart in this case and maybe in Fort 
Hood. I think, Mr. Chairman and Ranking Member Thompson, just 
to echo what was said, we ought to get together and--I know 
there is an administrative process over there. I got worried 
when I heard this described with the first panel of witnesses, 
that the language as it exists now in law and Executive Order 
and regulation regarding the awarding of Purple Hearts has the 
folks at the Defense Department in a box that nobody in 
Congress wants them to be in. Because your son should obviously 
be awarded the Purple Heart posthumously.
    So it is probably a little bit too quick, but I am kind of 
wondering, because there is a conference committee this 
afternoon on the two Department of Defense authorization bills 
that have passed, and I wonder--because I am sure everybody 
will support this. I am going to see if we can draft up some 
language that might even be included in that conference report, 
which hopefully will be passed by the end of this calendar 
year. If not, we will do it separately as quickly as we can.
    Incidentally, we argued a lot about how to handle 
detainees, in the Senate and in the House, on this bill I am 
talking about. One thing that was mentioned over and over again 
is that there is now a U.S. Supreme Court holding that says 
that an American citizen, such as Mr. Bledsoe, now also known 
as Abdulhakim Muhammad, who is found to be an enemy combatant 
can be treated that way--in other words, as having committed an 
act of terrorism--perhaps, in my opinion, best being subject to 
military incarceration and a military tribunal.
    Coming off of what you have experienced, I just want to ask 
you--and I know you have spoken from your heart, and the 
disappointment and anger about some of the things that the 
Government has not done. Have you received any support, and how 
sufficient has that support been, from the U.S. Government and 
other sources after the killing of your son?
    Mr. Long. I believe that if it was left up purely to the 
U.S. attorneys in Arkansas and the senior agent in charge of 
the FBI, this thing would have been in Federal court.
    The Army, I have to say, in dealing with the casualty 
affairs officer, he happens to become a very good friend of 
mine. We talk to each other on a weekly basis. He has me pulled 
into the survivor outreach thing. I have talked to several 
other families.
    Senator Lieberman. Good.
    Mr. Long. Arkansas has lost around, I think at last count, 
119 people that are connected with the war on terror.
    There are a lot of good things that have come out of this 
as a part of it, but most of it is on the local scale.
    Senator Lieberman. Yeah.
    Okay, my time is up. Again, I want to thank you. To the 
extent that it is possible, because it is not easy, and I know 
you have a life of your own that you are living, the occasions 
on which you can come forward and speak out, you can change the 
policy of this Government, I believe. I thank you for being 
here today.
    Chairman King. Thank you, Chairman Lieberman.
    I now recognize the gentleman from Mississippi, the Ranking 
Member, Mr. Thompson.
    Representative Thompson. Thank you very much, Mr. Chairman.
    Mr. Long, thank you for your service. Thank you for coming 
to this joint hearing today. Like my colleagues before me, we 
are deeply saddened by your tragic loss.
    I also want to say to Chairman Lieberman, I am one of the 
conferees on this DOD authorization effort. If there is a 
possibility that we can craft some language that would provide 
the relief for this family in this situation, I would love to 
do it.
    Senator Lieberman. That is great. Thank you, Mr. Thompson. 
Let's work together today.
    Representative Thompson. I look forward to it. The broader 
public policy issue, I think, is also in conversation, too. So 
I look forward to working with you on that.
    Again, let me offer my personal condolences and sympathies 
to the tragic loss. I look forward to doing whatever we can as 
a committee to correct any past issue that we have identified 
because of this situation going forward.
    I yield back.
    Chairman King. I thank the Ranking Member.
    I would just point out that Chairman Lungren is a conferee 
also, and he fully supports the recommendation for a Purple 
Heart.
    With that, I recognize the gentleman from Minnesota, Mr. 
Cravaack.
    Representative Cravaack. Thank you, Mr. Chairman.
    Thank you, Mr. Long, for being here. Mr. Bledsoe, thank you 
for being here, as well. Your combined efforts here in 
representing your sons are very powerful.
    You know, I just don't get it. I am a military officer of 
24 years. Why your son has not received a Purple Heart--I don't 
understand it.
    This is what it said in Wikipedia: ``After his arrest, 
Muhammad acknowledged the shooting of the men. He told police 
that he intended to kill as many Army personnel as possible. He 
had an SKS rifle, a Mossberg International 702 rifle, two 
handguns, 562 rounds of ammo, and military books in his car. He 
said he had been sent by al-Qaeda in the Arabian Peninsula and 
that the attack was justified according to Islamic laws and the 
Islamic religion--jihad, to fight those who wage war on Islam 
and Muslims. He recently returned after 16 months in Yemen and 
was the first of two gunfight attacks in 2009. Muhammad was 
charged with capital murder, attempted capital murder, and 10 
counts of unlawful discharge of a weapon. Muhammad also 
reportedly faced 15 counts of engaging in a terrorist act.''
    Now, I don't understand why the Army has not gone ahead and 
offered your son the Purple Heart at the very least.
    Mr. Long. They are looking at a State crime.
    Representative Cravaack. Correct.
    Mr. Long. The portion that they are talking on the 
terroristic threatening, that is gang-related. It has do that 
you have to turn around--it is a State law dealing with gang 
suppression, that you are targeting someone inside a house in a 
drive-by-shooting-type thing.
    The thing that I don't understand is that, in Muhammad's 
own handwriting to the FBI, to the TBI, to the prosecutor, on 
30 May, midnight, he started his jihad by shooting up a Jewish 
rabbi's house in west Little Rock. He then drove to Memphis, 
where he parked outside another Jewish rabbi's house, but 
because the neighbors were too loud, he moved on.
    He then drove up to Florence, Kentucky, which was his first 
recruiting center that he was planning on hitting, but it was 
closed. So, in frustration, he decided to come back to Little 
Rock, and, on the way, he stopped by Nashville and threw a 
Molotov cocktail that he had made in Little Rock at another 
rabbi's house in the west end of Nashville. It failed to 
explode. My understanding is they have that Molotov cocktail in 
evidence.
    When he came back to Little Rock, he drove by, saw the 
target of opportunity, my son and Quinton, coming out of the 
recruiting center, and drove into the parking lot, came around, 
and did his attack.
    At this point, I am sitting here looking at, this guy is a 
20-percenter. I mean, his BDA is 20 percent. But where are the 
Feds on the other 80 percent? Material support for terrorism, 
in that he provided his own body on 9/11/2007 to these people 
in there. In a taped interview by the FBI that was allowed in 
the trial in Little Rock, he specifically tells the FBI that he 
went places in Yemen. They ask him what those places were; he 
says Dammaj.
    If you go back to the Army doctrine published in 2007, 
``Terrorism in the 21st Century,'' they specifically identify 
Dammaj as a front for radical jihadists and terrorists. This 
guy was in Dammaj. There is nothing there. There are vineyards, 
200 mud huts, and a big madrassa run by Yahya al-Hajuri, who 
was of the Red Mosque fame in Saudi Arabia in 1979. It is the 
same place that John Walker Lindh went to for his training.
    Now, material support for there. Attempted use of a weapon 
of mass destruction. Title 18, U.S. Code, Chapter 113(b), 
paragraph 2332(b). Where are these guys? Where are they in here 
doing this stuff?
    Representative Cravaack. Well, I can tell you, sir, I will 
not leave your son behind.
    Mr. Long. Thank you, sir.
    Representative Cravaack. I will take this as a personal 
challenge to me. I am very disappointed in the Secretary of the 
Army for not recognizing your son, and I will continue forth 
with that mission.
    Mr. Long. Thank you, sir.
    Representative Cravaack. With that, sir, I will yield back.
    Chairman King. The gentleman yields back.
    I now recognize the gentlelady from Texas, Ms. Jackson Lee, 
for 5 minutes.
    Representative Jackson Lee. Mr. Long, I mentioned earlier 
of our remorse and sympathy to your family, and I want to thank 
you for not remaining silent. The presence of Mr. Bledsoe 
acknowledges the pain that he experiences, as well.
    I think we clarified for the record, and I think you were 
present in the room, that those who were representing the 
United States military are certainly remorseful of this 
enormity of loss of life. Combined with that, I think the 
virtues of our Constitution and the First Amendment make us a 
great country and make us able to answer the concerns that you 
have expressed.
    But I think we have a solution here. You have heard a 
Senator, a House Member, another House Member, another Senator 
from Arkansas, and a Member from Texas who experienced and 
mourned with those in Fort Hood going in a fast pace to resolve 
this. I think because our country is new--not very new--at 
dealing with this issue of terrorism, our statutory laws may 
not have, in essence, grappled with the change.
    Anyone, as your son was and the other fallen soldier, in 
uniform in the action of their duty, Andy and Quinton, clearly 
are defined, as far as I am concerned, as fallen heroes.
    Fort Hood has the same crisis and the same situation. I 
can't ask you why our soldiers were unarmed. I won't ask that 
question to you. It is a question that I raised. It is a policy 
on domestic territory, on the land of the United States. Some 
Americans would be wondering, why did this happen? Why weren't 
they armed? They have to understand that our soldiers are 
called to battle. Out of our civilian government, we are not 
arming them. Maybe in consideration of what we face, we have to 
look at those questions.
    The one thing that I will hope, Mr. Long, is that, from 
hearing from us today, that your words that indicated that your 
faith in Government is diminished will be somewhat, if I might 
say, tempered and you might see a glimmer of hope and also a 
response to the activism of your family. I hope that that will 
be something that you will come away from today.
    But I do want to ask this question, because out of your 
pain can come insight. You heard the open discussion of 
beginning to look at a behavior of an individual. In this 
instance, of the perpetrator that you were dealing with, there 
were actions over and over again. The behavior as evidenced by 
Captain Hasan was not passed from one person to the next 
because there was no policy at that time.
    What other tool do you think we need when we begin to look 
at this domestic terrorism, recognizing the particular actor 
and associated with a particular style, but recognizing that 
this does not condemn Muslims, Muslim soldiers, Muslim 
Americans? But what tool do we need, Mr. Long?
    Mr. Long. First of all, Mr. Bledsoe and I both lost our 
sons that day, and we are very aware of that. I am very 
thankful for him being here.
    The tools? I hear this discussion about behavioral tools. I 
am a father. My kids come home, and they do certain things. I 
know they have done something, but they are not going to tell 
me what they are doing. It takes me a while to figure out what 
they are doing. That is a neat kind of thing.
    ``Sun Tzu'' came out 2,000 years ago. In my various schools 
in the Marine Corps, he said basically, in Arkansas terms, if 
you know what the bad guy is doing and you know what you are 
doing, you are going to win all your wars. If you don't know 
what the bad guy is doing and you know what you are doing, you 
are going to win half of them. But if you don't know what you 
are doing and you don't know what they are doing, you are going 
to lose everything.
    To me, the banishment of certain terms and words, they are 
set up--that is the words that Muhammad used; that is not the 
words that I used. In Islamic law, carried out in ``Reliance of 
the Traveller,'' you know, ``War and Peace'' in Islam, it 
describes jihad as a war against non-Muslims.
    If you understand those terminologies, you can get inside 
their decision cycle and break that cycle. It has to be both. 
But it has to be clear, and it has to be concise. You have to 
say the truth, work the truth.
    Representative Jackson Lee. We are doing that here. We will 
not leave, as my colleague said, your soldiers, your son and 
the other soldier, and the soldiers at Fort Hood, we will not 
leave them behind in not being honored by the United States of 
America. I think you have a chorus of support here today. I 
think, by the end of this hearing, we will have a resolution to 
honor all of those who fell in this type of action.
    Mr. Chairman, I thank you. I think we have learned a lot, 
and we are ready to move forward as quickly as possible.
    With that, I yield back.
    Chairman King. The gentlelady yields back.
    I recognize the gentleman from New York, Mr. Turner, for 5 
minutes.
    Representative Turner. I thank you for your testimony, Mr. 
Long. You were eloquent and spot-on. I simply want to thank you 
for your service and shining the light on this problem.
    Jihad is not clearly understood. Even the tools of jihad 
are not. Takia is a----
    Mr. Long. Yes, sir, I am well aware of takia.
    Representative Turner [continuing]. A term for deceiving 
and fooling the enemy--a useful tool in jihad, one we should 
know a little more about.
    Again, I thank you for your testimony. God bless you and 
your family.
    I yield back. Thank you.
    Chairman King. The gentleman yields back.
    I recognize the gentlelady from California, Ms. Richardson, 
for 5 minutes.
    Representative Richardson. Thank you, Mr. Chairman.
    First of all, Mr. Chairman, I would like to request 
unanimous consent to enter in a final statement for the record 
regarding our hearing today.
    Chairman King. Without objection, so ordered.
    [The information follows:]
                                  December 5, 2011.
U.S. Senate,
Committee on Homeland Security and Governmental Affairs, 340 Dirksen 
        Senate Office Building, Washington, DC 20510.
U.S. House of Representatives,
Committee on Homeland Security, H2-176 Ford House Office Building, 
        Washington, DC 20515.
U.S. House of Representatives,
Committee on Homeland Security Democrats, H2-117 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman Lieberman, Ranking Member Collins, Chairman King, and 
Ranking Member Thompson: As retired military chaplains we write to you 
out of years of experience caring for the spiritual well-being of 
United States military service members. We are retired Christian and 
Muslim chaplains who have served and counseled in the Army, Army 
Reserves, and Navy, and we have cared for soldiers across faith lines 
for the betterment of the United States armed services. We are deeply 
concerned about any inquiry into threats to military members which 
would only focus on the adherents of one religion. To only accuse 
Muslim soldiers of extremist behavior is inaccurate and very unfair to 
Muslim service members who are loyal to the United States and its 
military.
    We must make clear that religion is not the sole indicator of 
violent behavior and that all religions have included adherents prone 
to such violent behavior. Following the shooting at Ft. Hood the 
Department of Defense issued a report highlighting changes necessary in 
base safety to protect service members and their families from internal 
threats. In that report, multiple indicators of violence are 
highlighted:

`` . . . genetic and biological causes; specific mental illnesses and 
personality disorders; reactions to medications or substance abuse; 
religion, social, and political motivations; and environmental factors. 
The causes of violence do not fall neatly into discrete categories, and 
several factors may combine to trigger violent behaviors.''\1\
---------------------------------------------------------------------------
    \1\ United States Department of Defense, Protecting the Force: 
Lessons from Fort Hood (Washington, DC, 2010), 11.

    Focusing primarily on religious adherence distracts from 
appropriately evaluating the other indicators of violence. Such 
distraction runs the danger of spreading anti-Muslim sentiment within 
the ranks of the U.S. military, weakening unit cohesion and trust.
    While we applaud effective efforts to protect our service members 
from all threats, internal and external, we are concerned that these 
hearings do a disservice to American Muslim soldiers. Generalized 
rhetoric about Islam provides a distorted understanding of the 
faithfulness of these American Muslim soldiers--both in religious 
practice and in service to the United States.
    Threats to military personnel, like that of the Ft. Hood shooting, 
should not weaken the unity of the armed services or cast suspicion on 
American service members; they should rather strengthen the cohesion of 
our soldiers. Indeed, since the tragedy at Ft. Hood the response of the 
U.S. military has made bases and soldiers safer than by developing 
strategies that effectively responded to strategies and behavior which 
may lead to violence--not by targeting faithful religious observance.
    Responsible prevention of such attacks requires the trust and 
commitment of all American soldiers, and we cannot get there by 
defining faithful American Muslim soldiers by the behavior of Maj. 
Nidal Malik Hasan.
    American Muslims are valued service members in the U.S. military. 
Many have linguistic skills and cultural competencies relevant to Iraq 
and Afghanistan which have been unique contributions to meeting U.S. 
goals abroad.
    As Members of Congress overseeing homeland security, it is of the 
utmost importance that you take violent extremism seriously by 
rejecting the assertion that there is support for terrorism among 
American soldiers. American soldiers of all faiths protect this country 
by taking their duty seriously and they deserve leaders back home who 
do the same.
            Sincerely,
                                      Rev. Stephen B. Boyd,
Chaplain (COL), U.S. Army Reserves, Retired Minister for Government 
            and Professional Chaplaincies, United Church of Christ.
                                        George M. Clifford,
                      Captain, Chaplain Corps, U.S. Navy (Retired).
                               CH (COL) Herman Keizer, Jr.,
                                                 U.S. Army retired.
                                                 James Yee,
                                   Former U.S. Army Chaplain (CPT).

    Representative Richardson. Thank you, sir.
    Mr. Long, I would like to say that you can count on me, in 
standing with my colleagues who have already spoken today, in 
my efforts as I will join with them for the proper recognition 
of your son and his service. I want to thank you personally for 
your service and also for both of your sons'.
    No. 2, I want to commit to you that I am going to forward 
today your testimony, when it is available, to both the 
President and his administration, with a personal note of what 
I personally heard you say here today. You shouldn't have to 
say it time and time again, but I appreciate your willingness 
to continue to talk to us and to make sure that we are better 
informed and we don't make these same mistakes in the future.
    Finally, I want to thank you, Mr. King, for your 
relationship with Mr. Long and for bringing him here today. It 
is these experiences that we, as Members of Congress, must know 
so that we can do better and this administration can all do 
better.
    Thank you, sir, for being here.
    Representative Lungren [presiding]. Mr. Long, I am not Mr. 
King, but I am sitting in his chair for just a moment. I just 
happen to have my 5 minutes up at this point in time.
    Mr. Long, it is interesting, we can view a certain subject 
from different perspectives. When I was privileged to serve my 
State as the attorney general, I tried to take the perspective 
of the victims when I looked at the criminal justice system, 
because I thought that was a perspective that had not been 
appreciated for a long period of time. It doesn't mean it was 
the only perspective, but it was an appropriate perspective.
    You have a unique perspective here. In your testimony you 
said that we suffer from a lack of clarity in our effort. Do 
you find anything wrong with the expression used of ``radical 
jihad'' or ``violent Islamic extremism,'' with the knowledge 
that you have of that part of the world and of different 
religions? Does it mislead us? Does it help us? Is it part of 
the lack of clarity, or is it part of clarity?
    Mr. Long. I believe it is part of the lack of clarity.
    Let me put it this way. In the 10 years that I grew up 
there, I graduated high school there, I was there during the 
Cuban missile crisis in Afghanistan. My dad built the canals 
that we are fighting over in Helmand Province. My brother-in-
law is the grandson of a former king of Afghanistan. My nieces 
are his offspring. I have a love for those people over there. I 
was glad that we decided to do something about this terror that 
was going on with them.
    However, Islam is many things. It is a religion, and our 
First Amendment gives freedom with respect to the Government 
won't interfere with that. But it is also political, it is also 
social, it is also economic, and it is also military. When we 
can sort out what is what, I think we can have a better 
discussion on it. But if you lump it all under the protections 
of religion, you will never get to that.
    Now, we gave a certain portion of my son's insurance to Dr. 
Michael Youssef down in Atlanta. He sends messages into North 
Africa, Korea. They were moved that we didn't have this feeling 
of going out, saying, ``Okay, we need to bomb them all.'' I am 
absolutely opposed to that. But we need to be responsive, but 
we need to be honest in what we are doing. That is the real 
thing, clarity.
    ``Manmade disaster,'' ``kinetic military action.'' That is 
a war. In Arkansas, they would laugh you out the store if you 
came up with words like that.
    Representative Lungren. Well, you are someone who has 
served this country, in addition to your son having given the 
last full measure. As someone in the military, under the 
circumstances we are talking about, would you consider it 
something that you should bring to the attention of your 
superiors if you saw a fellow officer that put on his card that 
he was a soldier of Allah?
    Mr. Long. 1995, I had a troop over in Okinawa, he had a 
tattoo. It is now a practice in the Marine Corps, when you 
recruit people or if you get selected for an officer program, 
on part of your physical they take pictures of the tattoos to 
make sure they are not gang-related. If you have those, you are 
not getting promoted and you are not getting into the service.
    If someone is doing--it is the statutory oath that you 
take, ``I do solemnly swear to support the Constitution of the 
United States.'' There shouldn't be a policy that you should do 
this. When you see something wrong, you need to execute that 
statutory thing. You all took that oath. I still go by that 
oath. My son took that oath. When it is wrong, you need do 
something about it. Otherwise, you are derelict in your duties.
    To formalize it in a policy, that tells me something is 
broken.
    Representative Lungren. Well, I thank you very much for 
your testimony. I think it is wonderful that we are attempting 
to learn from the lessons and that we are trying to change 
things.
    It is an old saying that common sense isn't so common 
anymore, where you have to tell people that those signs are the 
red flags. It seems to me self-evident those are red flags, 
unless there is a pressure being created in your environment 
where you are afraid to raise the red flags.
    Mr. Long. Yes, sir.
    Representative Lungren. That goes beyond defining what the 
red flags are; that goes to the atmosphere that has been 
created.
    I don't know if you overturn the atmosphere by just saying 
those are red flags. I mean, it is good that we are saying they 
are red flags, but it seems to me it is the manner in which you 
put those in context and bring an alert when an alert ought to 
be done.
    So I thank you very much.
    I return my time to the Chairman.
    Chairman King [presiding]. The gentleman's time has 
expired.
    The gentleman from Michigan, Mr. Walberg, is recognized for 
5 minutes.
    Representative Walberg. Thank you, Mr. Chairman.
    Thank you, Mr. Long, for your service. Thank you for 
bringing clarity to the room today in a more complete way.
    My wife and I had the opportunity to be more proud of our 
son than ever before because of recruiters like your son, who 
recruited my son into the Army, and a son who spent part of his 
MOS training at Fort Hood, as well. So it has some relation, in 
my mind, as I can picture that experience.
    To have the pride of a son who served willingly, with great 
desire, his country is one thing. To have the distinction of 
honoring a son who served his country to the last ounce of 
blood is even greater.
    So thank you for being here.
    Mr. Long. Yes, sir.
    Representative Walberg. If I am not crossing a line here, I 
would like to ask if you would be willing to elaborate on--and 
I appreciate the fact that Mrs. Long is not here and chose not 
to be here at this hearing. But if you would be willing to 
elaborate on what she heard, what she saw, what her reaction 
was, what was the last time your wife saw your son alive, I 
would appreciate hearing that.
    Mr. Long. About 10:15 in the morning, and she had driven my 
son down to Little Rock to the recruiting station. He didn't 
have a car, and, at the time, we were running with one car, so 
he wasn't going to get it.
    She drove him down there, and she was sitting outside in 
the parking lot. He had gone in, and they hadn't been keeping 
him very long. But he was kind of a shill to get others to come 
in: ``Look what I did; you can do this, too.''
    He stepped out of the recruiting office with--and my wife 
looked out and says, maybe I ought to go over and talk to him. 
She was about ready to get out of the car to go do this when 
another soldier came out with him. She said, no, he has a 
friend there, I will let them talk.
    Well, she sat down back in the car, started reading. At 
that time, she heard three separate gunfire bursts. As she was 
getting out of the car, she looked over, she could see one 
soldier on the ground, another one trying to get back into the 
recruiting center, and a black truck driving off.
    At about that time, Sergeant Kennedy came out and grabbed 
ahold of her, because he knew she was in the parking lot, and 
they escorted her back through past my son. Sergeant First 
Class Dobbs was out there doing CPR on my son. Inside the 
building, some of the other recruiters were in there trying to 
take care of Quinton Ezeagwula.
    I got a call at 10:19. She called me up and said, ``Andy's 
been shot.'' Of course my reaction is, ``What? What are you 
talking about?'' She says, ``They are doing CPR on him right 
now.''
    Her biggest regret is she didn't get over to him. But she 
also knows there were people who were competent that could 
provide the first aid. That is her biggest regret.
    I had to almost pry these out of her fingers to bring them 
up here to show you these today. It took us 2 years, 3 months 
to get them back.
    The dealings with going through this, all she could see was 
my son's legs popping up as they were performing CPR on him. 
The next time we saw him, he was in the emergency room, he was 
declared dead. They allowed her to go in there. It was still 
all messy. There wasn't the tarp over him. She saw all the 
wounds. Then the next time I saw him was they had cleaned him 
up. We weren't able to touch him; he was evidence.
    Then it was 2 years of trying to figure out what is going 
on, who shot John, are the Federal people going to step in. We 
were promised by the Little Rock U.S. attorney's office that 
they would go for that. We have since met with them again. It 
just goes on and on.
    But I can tell you our first reaction on November 5, 2009. 
I was out in the garage working on a project and watching the 
news, and it came up, Fort Hood. I ran into the house because I 
know she watched the news. I said, ``You got to turn the TV 
off. It's happened again.'' Her first thing was, ``I told you 
it would happen. They are not listening.'' Then our thing was 
to get ahold of my daughter so that she wouldn't see the news.
    So every time this happens, it is a traumatic event. Their 
loss down there is not lost on us. There are 13 more parents 
that are going through this.
    Representative Walberg. Mr. Long, thank you. Evidence, but 
not a Purple Heart. That is clarity, that is graphic, and that 
is an impetus and a reminder to us. Thank you for your 
willingness to share that.
    Mr. Long. Thank you, sir.
    Representative Walberg. I yield back.
    Chairman King. The gentleman yields back.
    Chief Long, I want to thank you on behalf of myself and all 
the Members of the committee for your testimony. It was a 
privilege to have you here today.
    We will do all we can, really on two levels: One, do all we 
can to ensure that what happened to your son happens to no one 
else; and also to ensure that he gets the type of recognition 
that he deserves, which will be a Purple Heart.
    Representative Jackson Lee. Mr. Chairman.
    Chairman King. The gentlelady from Texas.
    Representative Jackson Lee. I echo your remarks. May I make 
a parliamentary inquiry, an inquiry to Chairman Lieberman?
    Chairman King. Yes.
    Senator Lieberman. Yes, ma'am.
    Chairman King. State your inquiry.
    Representative Jackson Lee. Chairman Lieberman, you 
indicated on the record that there might be a conference--and I 
didn't hear whether you said a conference call or a 
conference--on the DOD. But, obviously, there are--I am so 
delighted that Mr. Long chose to be courageous on behalf of his 
son, but he also mentioned the tragedy at Fort Hood. Is it your 
intent that your language would be generic, that, ultimately, 
depending on the circumstances in Fort Hood, it might cover 
that situation as well?
    Senator Lieberman. To my friend, the gentlelady from Texas, 
it happens by coincidence that this afternoon at 3:00 the first 
meeting of House and Senate conferees on the Department of 
Defense authorization bill for the next fiscal year is 
convening, actually here on the House side. We are asking 
staffs--Mr. Thompson said he is a conferee, which I did not 
know, and we will work together--and Mr. Lungren is, too--we 
will work together on this.
    But I think our aim would certainly be to amend the 
language in a manner that would not just relate to Private Long 
and the other soldier wounded there but to, certainly, the 
folks at Fort Hood, but really to change the statute so it can 
be clear that in circumstances of this kind there shouldn't be 
any question about the awarding of a Purple Heart.
    Representative Jackson Lee. I thank the Chairman for his 
clarification. I thank all the conferees. I might want to just 
engage with the Chairman on some thoughts on the language, in 
light of the overall circumstances that we find ourself in. But 
I thank him for that clarification. Our overall sympathy to all 
who have fallen in battle.
    With that, Mr. Chairman, I will yield back.
    Chairman King. The gentlelady yields back.
    Again, Chief Long, I want to thank you for being here 
today. Thank you for your testimony. We will do all we can, as 
I said, to ensure that what happened to your son does not 
happen to others. Also, as you have heard from the colloquy 
between the gentlelady from Texas, also comments of the Ranking 
Member Mr. Thompson, Chairman Lieberman, and Chairman Lungren, 
everything will be done at the defense authorization conference 
to try to bring some measure of justice to your son and to 
others who have also been killed or wounded in such a tragic 
way.
    So, with that, again, thank you for your testimony.
    I want to thank all the witnesses for their testimony.
    I know the Members of the committee may have some 
additional questions. We will ask you to respond to those in 
writing. The hearing record will be held open for 10 days.
    Pursuant to the motion--actually, before that, Senator 
Lieberman, do you have any closing remarks? I am sorry.
    Senator Lieberman. No, not at all. Just to thank you, 
Chairman King. I think this has been a very productive hearing. 
A good, really, spirit and content of unity among the Members 
of the committee. I think I, for one--I speak for myself--I 
have learned a lot. I think we are carrying out our 
responsibility to oversee the protection of people here at home 
from terrorist attack, in this case particularly members of the 
armed services and their families. It happens that this 
particular action that we have the ability to carry out on the 
Purple Hearts emerges from this testimony.
    So I think this has been a very thoughtful and informative 
and productive hearing. I look forward to working with you and 
our Members to find other occasions to get together again in 
exactly this way.
    Chairman King. Thank you, Senator Lieberman.
    The gentleman from Mississippi, do you have any closing 
remarks?
    Representative Thompson. No, but I do look forward on the 
Purple Heart matter, that, since there is unanimity of 
agreement, that we can do what we need to do to try to make it 
happen.
    Chairman King. I thank the Ranking Member.
    Again, I want to thank Senator Lieberman especially for his 
willingness to hold this joint hearing. This is a very serious 
hearing, so just allow me a little bit of levity to say: I 
don't know how many of you in the room realize the significance 
of having prominent Senators walk over to the House side to 
abide by House rules in a bicameral hearing.
    But, again, to me, it shows the dedication and patriotism 
of Senator Lieberman. He has been involved in this struggle for 
so many years. Long before any of us were involved, Senator 
Lieberman was there. I want to thank him for his work he has 
done as Chairman of the Homeland Security Committee in the 
Senate, for coming together today on this joint hearing. Again, 
he is a great friend and a great American, and I am just so 
proud to be able to work with him.
    With that, I will say the hearing record will be held open 
for 10 days. Pursuant to the motion we agreed on earlier today, 
the hearing will stand in recess and will reconvene in 10 
minutes in closed session in Room HVC-301, which is down one 
floor, right below us.
    With that, the committee stands in recess.
    [Whereupon, at 12:38 p.m., the committee recessed, to 
reconvene at 12:50 p.m., the same day.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
